<html>
<title> - AS DIFFICULT AS POSSIBLE: THE NATIONAL PARK SERVICE'S IMPLEMENTATION OF THE GOVERNMENT SHUTDOWN</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
AS DIFFICULT AS POSSIBLE: THE NATIONAL PARK SERVICE'S IMPLEMENTATION OF 
                        THE GOVERNMENT SHUTDOWN

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                                AND THE

                     COMMITTEE ON NATURAL RESOURCES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 16, 2013

                               __________

                           Serial No. 113-116

             (Committee on Oversight and Government Reform)

                               __________

                           Serial No. 113-48

                    (Committee on Natural Resources)


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                   http://naturalresources.house.gov
                                 __________
                                 
                                 U.S. GOVERNMENT PRINTING OFFICE
88-621                                 WASHINGTON : 2014

 For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0661766946657375726e636a762865696b28">[email&#160;protected]</a>                    
                   
                   
                   
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director
      

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Raul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Cardenas, CA
Paul A. Gosar, AZ                    Steven A. Horsford, NV
Raul R. Labrador, ID                 Jared Huffman, CA
Steve Southerland, II, FL            Raul Ruiz, CA
Bill Flores, TX                      Carol Shea-Porter, NH
Jon Runyan, NJ                       Alan S. Lowenthal, CA
Mark E. Amodei, NV                   Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Chris Stewart, UT                    Vacancy
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Jason T. Smith, MO

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 16, 2013.................................     1

                               WITNESSES

Mr. Greg Bryan, Mayor, Town of Tusayan, Arizona
    Oral Statement...............................................    12
    Written Statement............................................    15
Ms. Anna Eberly, Managing Director, Claude Moore Colonial Farm, 
  McLean, Virginia
    Oral Statement...............................................    21
    Written Statement............................................    23
Mr. Jonathan B. Jarvis, Director, National Park Service
    Oral Statement...............................................    32
    Written Statement............................................    34
Ms. Lisa Simon, President, National Tourism Association, 
  Lexington, Kentucky
    Oral Statement...............................................    37
    Written Statement............................................    39
Mr. Myron Ebell, Director, Center for Energy and Environment, 
  Competitive Enterprise Institute
    Oral Statement...............................................    43
    Written Statement............................................    45
Mr. Denis P. Galvin, Board of Trustees, National Parks 
  Conservation Association
    Oral Statement...............................................    50
    Written Statement............................................    52

                                APPENDIX

Opening Statement of Rep. Gerald Connolly........................   132
Additional Statement for the record by The Hon. Pedro Pierluisi..   134
USA Article, ``GOP asks: Why Were National Parks Shut Down, 
  Anyway?'' submitted by Chairman Issa...........................   137
AP News Archive ``Annoyed Tourists Shut Out Of Monuments--
  Again,'' submitted by Chairman Issa............................   140
U.S. Dept. of Interior National Park System Closure Determination 
  and Notice, submitted by Chairman Issa.........................   142
A letter to Rep. Cummings from the Military Officers Assoc. of 
  America, submitted by Rep. Cummings............................   144
Statement from the Student Veterans of America submitted by Rep. 
  Cummings.......................................................   146
A Statement by Blount County Mayor Ed Mitchell, submitted by Rep. 
  Duncan.........................................................   148
Donation Agreement Between the NPS and the State of Arizona, 
  submitted by Chairman Issa.....................................   150
A letter dated Mar. 27, 2013 to NPS and the April 19, 2013 
  response, submitted by Chairman Issa...........................   168
Statement by Alan O'Neill, submitted by Rep. Horsford............   172
A Feb. 28, 2013 letter from 300 businesses affected by NPS cuts, 
  submitted by Rep. Lowenthal....................................   175
Statement of Mary Hountalas......................................   179
Oct 15, 2013 letter to Rep. Cummings from the Reserve Offices 
  Assoc..........................................................   183
The Victoria Advocate article of Oct. 13, 2013...................   184
Questions and responses from the NPS.............................   186


AS DIFFICULT AS POSSIBLE: THE NATIONAL PARK SERVICE'S IMPLEMENTATION OF 
                        THE GOVERNMENT SHUTDOWN

                              ----------                              


                      Wednesday, October 16, 2013

                  House of Representatives,
      Committee on Oversight and Government Reform,
                 Joint with Committee on Natural Resources,
                                                   Washington, D.C.
    The committees met, pursuant to call, at 9:30 a.m., in Room 
2167, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the Committee on Oversight and Government Reform] 
presiding.
    Present for Committee on Oversight and Government Reform: 
Representatives Issa, Mica, Duncan, Jordan, Chaffetz, Walberg, 
Lankford, Amash, Gosar, Meehan, Gowdy, Lummis, Woodall, Massie, 
Meadows, Bentivolio, DeSantis, Cummings, Maloney, Norton, 
Tierney, Lynch, Connolly, Pocan, Kelly, Davis, Horsford and 
Grisham.
    Present for the Committee on Natural Resources: 
Representatives Hastings, Young, Gohmert, Bishop, Lamborn, 
Wittman, Fleming, McClintock, Thompson, Benishek, Tipton, 
Labrador, Flores, Mullin, Stewart, Daines, LaMalfa, Smith, 
DeFazio, Faleomavaega, Napolitano, Holt, Grijalva, Bordallo, 
Costa, Tsongas, Pierluisi, Huffman, Shea-Porter, Lowenthal, 
Garcia, and Cartwright.
    Also present: Representative Noem.
    Staff present for Committee on Oversight and Government 
Reform: Ali Ahmad, Senior Communications Advisor; Molly Boyl, 
Deputy General Counsel and Parliamentarian; Lawrence J. Brady, 
Staff Director; Caitlin Carroll, Deputy Press Secretary; Sharon 
Casey, Senior Assistant Clerk; Steve Castor, General Counsel; 
Drew Colliatie, Professional Staff Member; Adam P. Fromm, 
Director of Member Services and Committee Operations; Linda 
Good, Chief Clerk; Tyler Grimm, Senior Professional Staff 
Member; Michael R. Kiko, Legislative Assistant; Mark D. Marin, 
Deputy Staff Director for Oversight; Katy Rother, Counsel; 
Laura L. Rush, Deputy Chief Clerk; Peter Warren, Legislative 
Policy Director; Rebecca Watkins, Communications Director; Sang 
H. Yi, Professional Staff Member; Krista Boyd, Minority Deputy 
Director of Legislation/Counsel; Aryele Bradford, Minority 
Press Secretary; Jennifer Hoffman, Minority Communications 
Director; Chris Knauer, Minority Senior Investigator; Elisa 
LaNier, Minority Director of Operations; Juan McCullum, 
Minority Clerk; Leah Perry, Minority Chief Oversight Counsel; 
Brian Quinn, Minority Counsel; Dave Rapallo, Minority Staff 
Director; Daniel Roberts, Minority Staff Assistant/Legislative 
Correspondent; Mark Stephenson, Minority Director of 
Legislation; and Cecelia Thomas, Minority Counsel.
    Chairman Issa. The committee will come to order. Today we 
have a joint hearing of the Committee on Oversight and 
Government Reform and the Committee on Natural Resources. The 
committee is entitled--the hearing is entitled ``As Difficult 
As Possible: The National Park Service's Implementation of the 
Government Shutdown.''
    With the indulgence of the chair and ranking member of the 
Resources Committee, the Oversight Committee's mission 
statement: We exist to secure two fundamental principles. 
First, Americans have a right to know the money Washington 
takes from them is well spent; and, second, Americans deserve 
an efficient, effective government that works on their behalf.
    Our duty on the Government Oversight and Government Reform 
Committee is to protect these rights. Our solemn responsibility 
is to hold government accountable to taxpayers because 
taxpayers have a right to know that the money government takes 
from them is well spent. Our responsibility is to work 
tirelessly in partnership with citizens and watchdog groups to 
deliver the facts to the American people and bring a genuine 
reform to the Federal bureaucracy. This is our mission 
statement, and during a government shutdown more than ever we 
take that seriously.
    The National Park Service is the steward of the most 
treasured public spaces. Indeed, the Park Service is the 
caretaker of our national heritage. As such it is always--it 
has always been called on to act in the best interest of the 
American people and to never allow itself to be subjected to 
political influence or to work in any way other than on behalf 
of the American people and these treasured assets. Yet it 
appears today the Park Service leadership is no longer living 
up to that mandate.
    First allow me to say I support fully the funding of the 
National Park Service for fiscal year 2013 levels and the 
appropriation bill that would reopen the parks and fully fund 
as was passed by--on a bipartisan basis on October 2nd. 
Notwithstanding the Senate has not taken up that bill, every 
Republican member of both of these committees and three 
Democratic members did vote for that legislation.
    I understand that this is a confrontational time. This is a 
time in which issues other than the Park Service and its assets 
are being argued. We're not here to argue that today. We're 
here simply to discover whether or not the Park Service has met 
its legal obligation on one hand under the lack of an 
appropriations bill, and on the other hand has done everything 
it can to mitigate damage to the American people.
    During the lapse of appropriations, it is proper for 
nonessential park personnel and services to be suspended; 
however, it is clear that the lack of money does not mean that 
one park in America is required to close.
    As we speak to Director Jarvis today, I regret that he 
would not come voluntarily and had to be subpoenaed and served 
by the marshals. This is not the normal way that we do business 
with any administration official.
    Why did the Park Service barricade the Lincoln Memorial? 
Why, when I asked the police standing duty there personally, 
did they tell me that every policeman was on duty, they were 
essential, and their job was to keep people out? I repeat, an 
open-air monument was guarded by the same number of people to 
prevent Americans from getting in as would allow them to safely 
go in and out on a daily basis.
    Why were veterans turned away from the Vietnam Veterans 
Memorial? Why were Honor Flights initially told that they must 
cancel their planned visits? Why were members of the Americans' 
finest generation, in their eighties and nineties, turned away 
and told they could not visit what would be undoubtedly, in 
many cases, their last time to those monuments?
    Why were private businesses and nonprofits operating near 
parkland shuttered? Why, in fact, did the Park Service spend 
money to stop commerce rather than spend no money and allow 
commerce to go forward?
    Why is the Park Service closing roads that run through 
parkland, but are used for local traffic? Why, in fact, would 
America ever expect that a public road necessary for ingress 
and egress and safety of a city, a town, or private residence 
ever be nonessential?
    We will hear from the Director today whatever he wants to 
say would justify stopping the public from using a public road. 
I doubt that I, in fact, will agree with him, but I certainly 
would like to hear his statement for why, in fact, these 
punitive measures were taken at no savings to the American 
people.
    Why, in short, is the shutdown so different than 1995 and 
1996? The lessons learned in 1995 and '96 should be the basic 
starting point for can we do better at a time without fundings 
and limited authority, rather than many facilities have 
successfully stayed open now being closed. One anonymous Park 
Service ranger told the Washington Times, ``We've been told to 
make life as difficult for people as we can. It is 
disgusting.'' If true--and I have no reason to doubt the 
truthfulness of that quote--it is indeed disgusting and 
despicable that the Park Service would do this.
    But, Director Jarvis, you're not here for the first time. 
During sequestration we found a pattern of if someone said they 
could live with existing staff that they had already had 
attrition to cover sequestration, that wasn't good enough. They 
had to send an alternate report. In fact, many of your 
lieutenants found that they were almost punished for thinking 
in advance and preparing for the possibility of that lower 
amount of the sequestration.
    During the Occupy program, you became before one of our 
committees and made it very clear that you were going to 
reinterpret the First Amendment to include, basically, people 
sleeping in the parks, defecating on the lawn, creating a 
health hazard for the people of the District of Columbia, and, 
in fact, would do nothing about it. You likened it to previous 
events, rather than likening it to people who were simply 
sleeping in the park. We disagreed with you then, and we 
disagree with you now.
    But I hope today we will have a healthy dialogue, and it 
gives you an opportunity to tell us why you have performed, and 
the Park Service under your leadership has performed, less well 
on behalf of the American people during this shutdown than the 
one we had more than a decade ago.
    Chairman Issa. With that I recognize the ranking member.
    Mr. Cummings. Thank you very much, Mr. Chairman. And I will 
start today by asking a very obvious question: What in the 
world are we doing here?
    Today is the 16th day since House Speaker John Boehner shut 
down the United States Government. He could end the shutdown 
this morning, like right now, by simply allowing the House of 
Representatives to vote on legislation to reopen the 
government. This bill has already passed the Senate, and it has 
more than enough votes to pass the House, but Speaker Boehner 
refuses to bring it to the House floor without the support of a 
majority of his own political party. In other words, if Speaker 
Boehner brought this bill to the House floor today, it would 
pass with about two dozen Republicans and most, if not all, 
Democrats.
    Since he does not have 51 percent of the Republican Party, 
Speaker Boehner refuses to allow any vote on this bill. That is 
why we are still in this government shutdown. That is why 
people say Speaker Boehner is holding our country hostage. And 
that is why the American people correctly blame House 
Republicans for shutting down the government. Their approach 
puts the ideology of one political party ahead of the interests 
of our entire Nation. Even worse, if this issue is not resolved 
in the next few hours, we will begin defaulting on our debts, 
something our Nation has never done before.
    As House Republicans drive our Nation towards the fiscal 
cliff, credit-rating agencies are warning that the full faith 
and credit of our Nation is now at risk, and investors are 
dumping Treasury bills.
    My colleagues on the other side of the aisle are truly 
concerned about the shutdown, allow us to end it. Stop this 
madness right now. Let us bring a clean Senate bill to the 
House floor, and let us pass it. You can still vote against it, 
but don't bring down our entire government just because you do 
not want to allow a vote.
    Rather than allowing us to take this reasonable course of 
action, House Republicans today want to focus on restricted 
access to the World War II Memorial in Washington, D.C. So let 
me address this issue directly.
    The World War II Memorial is a stunning and beautiful 
monument, but it is made of marble and fountains. Do you know 
what a more significant tribute to our veterans is? Do you know 
what really honors our Nation's heroes for their service and 
for their sacrifice? Providing them with the benefits they 
earned after suffering injuries in combat; paying them the 
pensions they need to cover their rent, their utility bills, 
their food; and guaranteeing the assistance they rely on to 
stay off the streets and in some cases to simply stay alive. 
That is how we make good on our promises to veterans. We take 
care of them like they took care of us. They gave their blood, 
their sweat, and their tears; in some instances, all they had.
    Yesterday a nonpartisan coalition of 33 veterans groups 
held a rally at the World War II Memorial, and Garry Augustine, 
the executive director of the Disabled American Veterans, 
explained the importance of these benefits of veterans across 
the country. This is what he said: ``For many, those payments 
may be the primary and only source of income.''
    Also yesterday John Soltz, an Army veteran who started 
votevets.org after serving two tours in Iraq, said this: ``If 
you lost both your legs in Vietnam, and you're on prosthetics, 
and you're 100 percent connected disabled, you don't get a 
disability check because the Republicans have hijacked the 
government over Obamacare.''
    I will conclude by reading from a statement issued on 
October 3rd by two of the most distinguished World War II 
veterans ever to serve in Congress, Republican Bob Dole, 
Senator Bob Dole, and Democratic Representative John Dingell, 
who were both instrumental in creating the World War II 
Memorial. This is what they said: ``As two proud World War II 
veterans, blessed also to serve this great Nation in Congress, 
we consider it our bipartisan work together in helping to 
create a National World War II Memorial to be among our 
greatest accomplishments and a true honor to our brothers-in-
arms. If this Congress truly wishes to recognize the sacrifice 
and bravery of our World War II veterans and all who have come 
after, it will end this shutdown and reopen our government now. 
The current shutdown has slowed the rate at which the 
government can process veterans' disability claims. And as the 
VA has stated, it is negatively impacting other services to our 
Nation's veterans. Piecemeal or partial spending plans do not 
adequately ensure that our veterans, and indeed all Americans, 
have access to the system of self-government established to 
serve and protect them.''
    Mr. Chairman, we're out of time. I understand that the 
Senate will make one more attempt this morning to resolve this 
issue on a bipartisan basis. I just hope and I pray that 
Speaker Boehner will finally put our Nation first, that he will 
put this bill on the floor and allow us to vote so we can avert 
default and reopen our government before it is too late.
    With that, I yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the chairman of the full Committee on 
Resources Mr. Hastings.
    Mr. Hastings. Thank you, Mr. Chairman. And I want to thank 
you and your staff for the cooperation as we put together this 
joint hearing.
    Now, back to the issue at hand. The issue at hand: ``As 
Difficult As Possible: National Park Service's Implementation 
of the Government Shutdown.'' To anyone trying to follow or 
make sense of the National Park Service's policies during this 
unfortunate government shutdown, I would say good luck. The 
policies have been arbitrary, inconsistent and ever-changing. 
Their actions appear to be motivated by two things: one, an 
attempt to make the shutdowns as painful and as visible as 
possible; and, two, because of one and the backlash, an attempt 
to squash the ensuing bad PR. That's no way to run a government 
agency and no way to treat the American people across the 
country who visit, live, or work on our national parklands.
    The actions of the Obama administration have sullied our 
great National Park System. In their most egregious act, the 
National Park Service erected barricades around open-air parks 
and memorials, areas that are open 24/7, 365 days a year. This 
is in direct contradiction to what happened during the last 
government shutdown 17 years ago.
    The Obama administration's barricading of these sites is 
not something that they are required to do; it is something 
that they are choosing to do. Furthermore, they appear to only 
be barricading the highly visible sites; for example, the 
Lincoln Memorial and the World War II Memorial are barricaded. 
The people are currently free to walk around the Washington, 
D.C., World War I Memorial and the Japanese-Americans Memorial, 
both open sites.
    Thus far we have heard excuses from the Obama 
administration ranging from trash collection and maintenance to 
security concerns. Yet one by one it's been confirmed that 
these excuses are excuses. The Mayor of Washington, D.C., 
declared that they will collect trash in the national parks 
around the city. As for security, it's been reported that there 
are just as many National Park Police working along the 
National Mall now as before the shutdown. So from my 
perspective, there is no reason for these barricades.
    To add to that, the National Park Service's selective 
reversal of policies has been even more confusing. For example, 
the administration realized its mistake only after public 
pressure built. As a result, they agreed to allow World War II 
veterans with the Honor Flight programs to visit their memorial 
and exercise their First Amendment rights. Now, while this is 
very good news for these veterans, it is not appropriate for 
the National Park Service to be denying these same rights to 
others who want to visit these open-air parks and memorials.
    This administration has also forced privately operated 
sites and businesses to close just because they happen to be 
located on public lands. These are businesses that don't 
receive a dime of taxpayer dollars to operate. But, once again, 
after intense public and legal pressure, the Park Service has 
suddenly allowed some of these sites to reopen, while others, 
with no explanation, remain closed. I hope to hear from our 
witnesses today why this was allowed to happen in the first 
place and what changed to prompt the Park Service's sudden 
reversal.
    In addition, the Obama administration first refused to 
allow States to pay to keep national parks in their respective 
States open. But what is now becoming a recurring theme, the 
Park Service suddenly changed their mind after more than a 
week, again, of public backlash. I do want to point out that 
during the last government shutdown in '95, '96, States were 
allowed to pay to keep the national parks open and were later 
reimbursed by the Federal Government. There is absolutely no 
reason why it should be any different this time under this 
administration. Erroneous claims by the Interior Department 
that they can't pay and may not be able to reimburse States 
simply defy history.
    At today's hearing we expect to get answers, not excuses, 
and to get to the bottom of when and how all these arbitrary 
decisions were made and by whom.
    The past 2\1/2\ weeks have also raised broader questions 
about how the National Park Service is run. This shouldn't be 
the only time we take a look at how the Park Service operates 
and interacts with all States, counties, private businesses, 
and private property owners. The Committee on Natural Resources 
expects to continue its oversight of the Park Service's 
actions, as we have with other Federal land-management 
agencies.
    And with that I'll yield back my time.
    Chairman Issa. I thank the gentleman.
    We now go to the ranking member from Oregon Mr. DeFazio.
    Mr. DeFazio. I thank the chairman.
    You know, normally I begin these hearings by thanking my 
Republican colleagues for holding a hearing, inviting witnesses 
to testify on important issues before the Congress. But, you 
know, that's not appropriate today. The Republican majority 
closed down the Federal Government in a vain attempt to repeal 
or delay the Affordable Care Act; Obamacare, as they call it. 
Well, we're 15 days into a Republican-initiated government 
shutdown, and now the Republicans want to investigate why the 
national parks are shut down.
    Our Nation is already threatened with a credit downgrade, 
close to the point of default, because the Republicans have 
linked their shutdown now to the debt limit and could trigger 
the first default in our Nation's history, and here we are 
holding a hearing on why the Republican government shutdown led 
to a shutdown of our national parks. Instead of trying to 
prevent economic hardship, potential financial catastrophe, 
we're having a hearing that is at best nonsensical.
    I'm going to spend my time talking about how this Seinfeld 
shutdown, or the shutdown about nothing, has kept hunters out 
of refuges, crabbers out of the fishing season, loggers off our 
timberlands, and citizens out of our national parks.
    When you decided to shut down the government over 2 weeks 
ago, did you forget the National Park System, which includes 
memorials, is part of the Federal Government? No, you knew 
that, but you apparently forgot the economic impact our iconic 
parks have in gateway communities, and you forgot that the 
American people value their public lands and the solemn tribute 
of the World War II and other war memorials.
    The title of this so-called hearing is laughable: ``As 
Difficult As Possible: The National Park Service's 
Implementation of the Government Shutdown.'' If you want to 
spend your time here dissecting individual decisions about what 
monuments are open, which are closed, let me save you some 
time. Our National Park System is surprisingly part of our 
national government, which you shut down.
    And I'm going to demonstrate, if the Republican side would 
look at me, I will show you who is responsible. Right here. 
Here you are. This is who is responsible for shutting down the 
national parks and memorials. Guess what. The Republican-caused 
government shutdown is irresponsible, causing credible economic 
hardships to the public servants you have put out of work. And, 
yes, it is painful. It is painful for every single American. 
And that's why we don't shut the government down on a year-to-
year basis.
    This hearing is a sideshow, it's political theater. Are we 
meeting here today to amplify the efforts of Senator Cruz, 
Senator Lee and Sarah Palin last Sunday on the networks? Do we 
really need to give a platform for a group of people cheering 
when their leader, Larry Klayman, said: ``wage a second 
American nonviolent revolution, to use civil disobedience, to 
demand that this President leave town, to get up, to put the 
Koran down, to get up off his knees, to figuratively come out 
with his hands up while others went to the White House waving 
Confederate flags''?
    Maybe the majority wants to give a megaphone to groups like 
the Competitive Enterprise Institute. They are here today. They 
once called expanding our Federal estate ``rural cleansing.'' 
Really? Rural cleansing? Our parks, our monuments, that was 
rural cleansing? You'd take them away, you'd give them back, 
you'd sell them?
    Well, you can continue to engage in your irresponsible talk 
and try and make the Park Service and our Park Rangers the 
target of your own ineptitude and intransigence, but we're not 
going to play that game.
    I would yield the balance of my time to Representative 
Grijalva.
    Mr. Grijalva. Thank you, Mr. DeFazio.
    Let me just concur that we seem to be here at this hearing 
functioning in an alternative universe. We have the Republican 
majority and their leadership that created the shutdown. We 
have the Republican majority and their leadership that can't 
manage the shutdown. And we have the Republican majority and 
their leadership that can't get us out of the shutdown. So what 
do we do? We have a hearing. Today the majority holds this 
feeble hearing to scapegoat Director Jarvis and blame him for 
the fact that they can't cope with reality.
    The national parks, as Mr. DeFazio said, are part of our 
government. People love them people, people depend on them, 
economies depend on them. But--and the--to avoid reality of the 
shutdown or the responsibility for that is to neglect the job 
that we have as Members of Congress, and thus far this majority 
has neglected it consistently.
    And with that I yield back.
    Chairman Issa. The gentleman from----
    Mr. Hastings. Mr. Chairman, I want to recognize the 
chairman of the National Park Subcommittee on Natural 
Resources, the gentleman from Utah Mr. Bishop.
    Chairman Issa. The gentleman is recognized.
    Mr. Bishop. Thank you, Mr. Chairman, Mr. Jarvis and our 
witnesses. I don't know whether it was on purpose or whether it 
just happens to appear that way, but it seems to be our policy 
towards our public lands has been vindictive and petty and 
politicized. I wonder why the cooperation of the '90s does not 
exist.
    But what is very clear is that there is a better way. What 
we have seen are that the States are willing to step up and 
help people when Washington fails; not just when Congress 
fails, but when the agencies fail at the same time. I'm very 
proud that when your Department ordered the national park--the 
Federal lands that are administered and run by the State of 
Wisconsin to close down, the Governor basically said no, that 
he would run those regardless. I'm proud of the Governors in 
Arizona and Utah and South Dakota and Colorado, who have 
stepped up to pay to have those parks functioning.
    What we have simply found is that when the States and local 
governments are involved in the management of our public lands, 
it is a better process. If you look in the State of Utah, the 
Sand Flats, which is a wonderful recreation area, this time BLM 
property, that the BLM could not manage, didn't have the 
resources to manage, nor the desire. And when a near riot broke 
out one time in the recreation area, they decided to work with 
the county to come up with a county-managed plan, which is now 
a wonderful recreation area that not only provides 
opportunities for people to recreate, but is done without a 
cost to the taxpayer at the same time.
    The Coral Pink Sand Dunes in southern Utah is land that has 
been given back to the State of Utah, even though there is some 
Federal land there, and is managed--as one newspaper reported, 
1 of the 10 wonders--10 unheralded parks in the Nation. It's a 
great opportunity simply because local government was given the 
opportunity to be involved in the management process.
    In our hearings we've already shown how the forests in 
Idaho and Washington on State land are far more productive, 
have far less wildfires, and are much healthier than the 
Federal land that is right next door. The same thing happens on 
Park Service land and BLM land. And what we need to realize is 
that this shutdown has illustrated there is a better way, and 
that better way is the involvement of State and local 
governments in the management of our public lands so that this 
kind of situation does not necessarily have to happen. And what 
we need is to look forward in that.
    What I find is so frustrating, though, in due respect, is 
that this situation in which we find ourselves is not 
necessarily unique to the shutdown. This has been happening for 
those of us who live in the Intermountain West for years. When 
the Park Service harms outfitters and guides by insisting that 
their insurance payments have to go up from a 1- to a $5 
million policy, prohibiting them from doing issue; when a park 
in Washington bans an annual church picnic and concert for 
veterans because the noise that would be established would be 
too loud for the cultural and historic aspects of the rest of 
the park; when Park Service personnel says a murder victim in 
Nevada cannot be found, and the family wants to hire somebody 
to go in and look, and it takes them 15 months to raise the 
money to pay for the special use permit, and then when they go 
and they find that body within 2 hours after the Park Service 
said it was impossible; or an Air Force staff sergeant who was 
drowned as that same park, and the Park Service refuses to 
allow a private company that is an expert in underwater 
recovery to go and find the body, it takes 10 months for the 
family to finally get a lawyer and go to court, and then when 
it's allowed, that body is found within a matter of days; when 
on a wild and scenic recreation river, the Park Service decides 
to ban all sorts of paddling and oars so that the only--and 
obviously electronic motors--so the only thing you can do for 
recreation, I guess, is fish watching; when the Park Service 
writes a statement about the Keystone pipeline being an 
endanger to its parkland, and the closest land is 30 miles 
away, what we have found is there is a pattern not just in this 
shutdown, but a pattern that has recurred year after year and 
has been exacerbated in the last few. I find that disgusting 
and disheartening, to say the least.
    There is a better way. The States have stood up and shown 
that they can be better managers of the land. And if we really 
want to have a long-range policy for public lands in the 
future, we have to incorporate cooperation with States and 
local government and allow them to have a greater say in the 
management of our public lands. Federalism is the solution to 
our problems, and it may even be the salvation of this country.
    I thank the gentleman from Washington, and I yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the gentlelady from the District of Columbia, 
an area very much affected by this shutdown, for 5 minutes.
    Ms. Norton. Indeed the District of Columbia is a double-
whammy victim of this shutdown. And blaming the National Park 
Service for closing the parks is like voting for capital 
punishment and then blaming the hangman as executions proceed. 
Locally the District cannot meet the payment coming up for its 
charter schools. We cannot pay for disabled children in group 
homes because our local funds are held here. This in addition 
to the national parks which fund our tourist economy, that has 
collapsed.
    So the District of Columbia's local funds shouldn't even be 
here. And certainly, certainly our local economy, dependent on 
the opening of all of our monuments, should not now be 
collapsed because Republicans have shut down the Federal 
Government.
    And I yield the remainder of my time to Mr. Holt of New 
Jersey.
    Mr. Holt. I thank the gentlelady.
    Earlier this morning I spoke with my hundred-year-old 
mother, and she asked what we would be doing today in Congress. 
And I said I was going to hope to find that the Republican side 
found some backbone and got their act together to get the 
government operating. And she said, ``It sounds like you're 
going to have a long day.''
    Well, over the last 2 weeks, the Republicans seemed 
surprised to find out that the Federal Government actually does 
things to help people, but they can't agree on what to do about 
it. So today they found something they can agree on, which is 
blaming someone else for what they've done.
    So the Federal Government does perform very tangible 
functions, and when it's disrupted in a disrupting way, an 
abrupt way, you know, you find people affected in ways that 
weren't predicted.
    The solution is quite simple. They could bring a vote to 
the House this morning, it would pass, everything would be 
fixed, the barricades would be down, the hard-working members 
would be back to work.
    With that, I yield time to Mr. Connolly.
    Mr. Connolly. I thank the gentleman.
    We are in a Kafka novel. The Federal Government is shut 
down. We're on the brink of the first default, the 
creditworthiness, sovereign debt of the United States, and 
we're going to have a hearing to pillory Director Jarvis 
because he shut down national parks after the Republican 
majority shut down the government. Imagine their shock that 
there would be consequences that their favorite place to picnic 
is closed, and that the National Park Service is, in fact, 
enforcing it. And we saw that shameful moment where a member of 
the Republican Caucus actually berated a National Park Service 
ranger for doing her job.
    This is a Kafkaesque moment, and the solution isn't to have 
a hearing to pillory someone for doing his job. The solution is 
to reopen this government without condition, to avoid default 
without condition, and get on with the business of governance 
before we destroy all confidence in this legislative body.
    And with that I yield to my colleague Ms. Bordallo.
    Ms. Bordallo. Thank you very much.
    I wonder how many Republicans really thought about the far-
reaching effects of this shutdown. Nationwide the shutdown has 
furloughed more than 20,000 National Park Service employees, 21 
of them work for the War in the Pacific National Historic Park 
on Guam, that small island in the Pacific. I wonder, how many 
thought about that? So only 2 employees remain on duty there to 
provide security and emergency services, and we have 600 
visitors daily.
    The shutdown has negatively impacted Guam's tourism economy 
for something that could have been avoided entirely by passing 
a clean CR. We have failed in this Congress our National Park 
Service employees and our Nation. And I have made this point 
repeatedly at House Armed Services and will continue to do so 
until this Republican-led shutdown is completed.
    And I'll end my remarks saying let's shut down the 
shutdown. And I yield my time to Representative Tsongas.
    Ms. Tsongas. I want to thank you, Director Jarvis, for 
appearing before the committee today. As you know, my district 
is home to two great national parks, and I know firsthand how 
devastating the shutdown has been for our local economy, for 
hundreds of school children who haven't had access to the 
parks, and for our dedicated park employees who have been 
furloughed. Overall, millions of Americans have been impacted.
    Chairman Issa. The gentlelady's time has expired. Would you 
please conclude?
    Ms. Tsongas. Well, I think that if you really care about 
opening the national parks, about putting our government 
workers back to work, that we could have a vote today on a 
clean CR that would fund government and avoid a default for the 
first time in this country.
    Chairman Issa. All Members may have 7 days in which to 
submit opening statements for the record.
    And as I recognize the panel, I would admonish all Members 
that House rules prohibit questioning the intent or the 
character of another Member of the House or the Senate. So as 
we go through this hearing, you may quote from statements made, 
but the intent of a Member or adverse intent is not admissible.
    Additionally, I now ask unanimous consent that the USA 
Today article, last night, ``GOP Asks Where the National Park 
Shutdown''--or ``Why Were the National Parks Shut Down Anyway'' 
be entered in the record. Without objection, so ordered.
    We now recognize our panel of witnesses. Mr. Greg Bryan is 
Mayor of Tucson--Tusayan, not to be confused with the other 
similar name in Arizona. Ms. Anna Eberly is the managing 
director of Claude Moore Colonial Farm. Mr. Jonathan Jarvis is 
Director of the National Park Service. Miss Lisa Simon is the 
president of the National Tour Association. Mr. Myron Ebell is 
director of energy and global warming policy at the Competitive 
Enterprise Institute. And Mr. Dennis Galvin is a member of the 
Board of Trustees of the National Parks Conservation 
Association.
    Pursuant to the rules of the Oversight Committee, I would 
ask that all members rise, raise their right hands, and be 
sworn.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth? 
    Please be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    We have a large panel today. And in order to--on both sides 
of the dais. And in order to allow time, I would ask that your 
limit your opening statements to 5 minutes. Your entire opening 
record plus any other submissions you think pertinent to your 
testimony will be placed in the record.
    And with that, I now recognize Mayor Bryan.

                       WITNESS STATEMENTS

                    STATEMENT OF GREG BRYAN

    Mr. Bryan. Thank you, Chairman Issa, Chairman Hastings, 
Ranking Members Cummings and DeFazio, and Congressmen here. And 
also like to recognize Congressman Gosar for his assistance in 
many ways as well.
    I come before you today wearing two hats. I'm both the 
mayor of our small town of 558 people, 3 years old, Arizona's 
newest community, and also that of a general manager of a 
rather nice 250-room hotel. And our little town is located on 
the southern boundary of Grand Canyon National Park. We exist 
for one reason. We exist because Grand Canyon National Park 
brings 4-1/2 million people a year to visit it. Without the 
park being there, there's no reason for our community. We're a 
tourism industry, we're dependent upon the tourism industry, 
and without that park open, we basically are shut down.
    We have a good relationship with our park. We appreciate 
Governor--excuse me, Superintendent Uberuaga and his team that 
recognize that those workers, those rangers are there because 
they choose to serve and to share this beautiful wonderful 
resource. And we know that this shutdown has impacted them in 
many ways as well as our community. They recognize that 
relationship and want to protect that relationship. At the same 
time we feel like we have sincerely been--significantly been 
impacted by the decisions to close down the government and our 
national park.
    The month of October is a very wonderful month. It's a 
beautiful month to be in Grand Canyon. When we started out, it 
was 90-plus percent occupancy at the end of September, 
reservations on the books, ready to come. Our river outfitters 
had, I believe, seven or eight trips worth $900,000 ready to go 
down the Colorado River. Today I'll tell you that at least in 
one hotel we're in the low 40 percent and dropping. We've lost 
over $400,000 in one place alone.
    The impact to our community has been in the millions of 
dollars within a very short time. All this because elected 
Members of Congress and the President can't come to grips with 
passing and getting a budget going. In the meantime we in the 
front line feel kind of like cannon fodder. We feel like we're 
the ball bouncing back and forth, and we're the ones that are 
paying the bill.
    Suddenly our source of business, our source of income for 
our little community is closed, October 1st. We immediately 
began to ask questions with regard to how we can do it, how we 
can get our park back open. In 1995, same thing happened, and 
within a reasonably short period of time, there was an 
agreement worked out between the National Park Service, 
Department of Interior, and our Governor Fife Symington. That 
application, that policy could have been easily put into place. 
We don't understand why it wasn't. It could have been pulled 
out, dusted off, changed to apply today, and then applied.
    But we went in--out and asked, and we offered to put up 
funds. Within a very short time, our little town of 558 people 
put up $200,000 out of our coffers as a community. Within a few 
more days, we had well over $200,000 committed from the 
business community in our area and across the State. We were 
willing to put up and fund the expenses at no cost to the 
National Park Service to keep portions of the park open.
    We weren't asking for a full opening; we were asking for 
partial. We were asking the Highway 64, a primary conduit 
through the national park, comes up from I-40, it connects you 
between Albuquerque and Los Angeles, heavily traveled, tour 
buses, RVs; our connection, Highway 64, runs through the town 
of Tusayan, goes into the park, and turns east to connect to a 
Highway 89, which then goes into many other national parks and 
monuments.
    The first couple of days it was left open. We thank 
Superintendent Uberuaga for that. But the plan that was used 
was failed--was doomed to fail from the beginning. We were 
allowing people to traverse through the park, everything else 
was closed, but the parking spaces alongside the road were 
barricaded. It's kind of like offering a piece of candy to 
somebody and saying, you can't open it. You can't open it. 
They're going to find a way. Their frustration was there. 
Therefore, the buses, tour buses, RVs and personal cars were 
parking either on the shoulders or in the road to take a look 
at this great, magnificent World Heritage site.
    We understand that, and we agree with the Superintendent 
when he closed it because it was unsafe. We feel that--and we 
had offered--Coconino County Sheriffs Department said they 
would assist, and they have concurrent jurisdiction inside the 
park; offered to help patrol and keep it safe, open up the 
parking spaces, allow people to at least view. We offered to 
put up Porta Potties to help keep things reasonably clean. We 
were told no.
    We asked why we couldn't apply the thing--the agreement in 
1995. It's against National Park Service or Department of 
Interior or administration's policy. We never quite got it 
clear. We were told that either all the parks open, or none of 
the parks open. We have concerns about that. And we believe 
that when a national park is closed, that the individuals in 
the community, if they come forward and are offered to help and 
to support, ought to be able to open that.
    We really appreciate the work of Governor Jan Brewer in her 
efforts to reopen the park, and we're very ecstatic last 
Saturday morning, in a beautiful blue sky, to open up, with the 
Superintendent's help, Grand Canyon National Park for business 
again.
    We look forward to having some changes after the shutdown 
is done and come back to you and request some options with 
regard to clarifying a policy that says we be able to and a 
community that wants to stand up, take responsibility, be 
accountable when the government won't and pay the bills. We 
think the policy ought to be clarified to allow that to take 
place.
    I can tell from you being on the front lines, when you have 
a family come in from South Africa, or Australia, or Brazil or 
China, in many cases planning for 10 years to bring their 
children and experience that, and you got to tell them at 7 
o'clock at night after they've driven all that way, can't go in 
national park. They can't see it. Well, why not? With tears 
streaming down the children's face, we got to tell them, 
because our government has shut it down.
    We need to find different ways of doing this. And we would 
really appreciate the time afterwards to talk about a potential 
for the future of creating a clarity to the policy that would 
allow a national park to be run--not run, but assisted and 
expenses covered by local community. Thank you.
    Chairman Issa. Thank you, Mayor.
    [Prepared statement of Mr. Bryan follows:]
    [GRAPHIC] [TIFF OMITTED] T8621.001
    
    [GRAPHIC] [TIFF OMITTED] T8621.002
    
    [GRAPHIC] [TIFF OMITTED] T8621.003
    
    [GRAPHIC] [TIFF OMITTED] T8621.004
    
    [GRAPHIC] [TIFF OMITTED] T8621.005
    
    [GRAPHIC] [TIFF OMITTED] T8621.006
    
    Chairman Issa. Ms. Eberly.

                    STATEMENT OF ANNA EBERLY

    Ms. Eberly. Thank you, Mr. Chairman, members of the 
committee, for your invitation. I'm really honored to be here. 
I'm the managing director of the Claude Moore Colonial Farm in 
McLean. I'm representing our staff, volunteers, and visitors 
here.
    The farm is a living history site that shows the life of a 
poor family in 1771 struggling to survive while fight for 
freedom is growing around them. The farm is also a privately 
operated national park unit of the George Washington Memorial 
Parkway.
    I've been involved with the farm since 1972, first as a 
volunteer, then as an employee of the Park Service, helping to 
establish the farm, which opened to the public in 1973. Due to 
cuts in national park funding in 1981, the farm's public 
programs were going to be eliminated. And subsequently the farm 
became privately operated by the nonprofit organization Friends 
of the Farm. At the same time, I resigned my Park Service 
position to manage the farm for the Friends and have been there 
ever since.
    I came here today because I thought it might not only help 
the farm, but maybe even help other groups like us. Along with 
many other national park partners, we've been severely affected 
by the recent closing of our site as part of the continuing 
government shutdown. Fortunately, we were allowed to reopen on 
Wednesday of last week, but most others have not been so lucky. 
We still don't know why we were closed, nor do we know why we 
were allowed to open a week later. The farm has never been 
included in government shutdowns as there are no Park Service 
employees at the farm, nor have there been since 1981.
    During the previous shutdown almost 20 years ago, it made 
sense that if NPS personnel couldn't be paid to staff the 
parks, the parks couldn't open. No one was happy about that, 
but people understood. This time the NPS chose to close areas 
to the public that don't depend on NPS personnel. Locally that 
included us, a ball field at the end of our road leased to 
Fairfax County and rented to children's sports groups, the 
scenic overlooks on the north end of the parkway, and, of 
course, the closing down of the veterans memorials on the 
National Mall.
    I realize that in the proverbial heat of battle, someone 
could make decisions that have unintended consequences, but 
wasn't anyone watching the news? Couldn't someone have come 
forward and admit they have made a huge mistake? As the 
managing director of the farm, I've had to deal with people 
that are unhappy. Fortunately, not very often. And I have a 
choice. I can be defensive, or I can immediately reach out and 
say, I am so sorry that your experience at the farm wasn't 
perfect. How can we make this right, and how can we make sure 
we never do it again? Within a few emails or phone calls, that 
person has now become a friend of ours, not an enemy, and if I 
can't bring myself to do that, then I shouldn't be the director 
of the farm.
    I don't know who was responsible for the National Park 
Service actions this time. Maybe it was the White House, 
Department of the Interior; maybe the Park Service acted 
entirely on their own; or maybe no one is in charge there. But 
the results of the National Park Service looks foolish and 
inept and not worthy of managing the immense natural and 
cultural resources entrusted to them.
    As a lifelong Virginian, my big park is Shenandoah, which 
is a wonderful place, one of the very few unspoiled natural 
areas close to lots of people. Out of the entire year, October 
is the month. Everybody goes there to look at the leaves. The 
people who work for the concessions in the park and the 
businesses that depend on the visitors in that area are in 
terrible trouble. Their season is basically over by the end of 
this weekend.
    Virginia acquired much of that land and then gave it to the 
Federal Government to become part of the national park system. 
I'm sure there are people in Richmond now, just like in the 
western parks, saying, well, if you can't open it, maybe we 
can.
    For the farm worker on your farm, being treated with 
destain and contempt by the National Park Service is nothing 
new, and the details are in my written testimony. And if you're 
interested, I have all the documents to back up everything I 
wrote.
    The volunteer staff and public who care about the farm just 
want to get on with running the farm and doing the very best 
job that we can. What we do is hard enough, and we're just 
asking for fairness, honesty, and a partner that doesn't stab 
us in the back at every opportunity.
    I don't know what the future holds for the farm. As our 
original 1981 NPS agreement is up for renewal in 2016, I have 
been told the process now of developing a new agreement will 
take at least 3 years, and agreements now only last for 5 
years. That means almost as soon as we sign a new agreement, we 
will have to start negotiating the next one. In addition, the 
loss of the NPS maintenance contribution to the farm this year 
will have to come from somewhere. And, of course, we will have 
to make up the revenue that was lost because of the recent 
closure of the farm. But we're hopeful that we can find a way 
through these latest difficulties, and that the farm will 
emerge stronger and more committed than ever.
    We have only turned to our Congressman Wolf and Congressman 
Moran a few times over the years to help us in working with the 
national park service. The opportunity to come before so many 
of you was just too good a chance to pass up, and I'm happy to 
do anything I can to help fix it.
    Chairman Issa. Thank you. And thank you for your service, 
both public and private.
    [Prepared statement of Ms. Eberly follows:]
    [GRAPHIC] [TIFF OMITTED] T8621.007
    
    [GRAPHIC] [TIFF OMITTED] T8621.008
    
    [GRAPHIC] [TIFF OMITTED] T8621.009
    
    [GRAPHIC] [TIFF OMITTED] T8621.010
    
    [GRAPHIC] [TIFF OMITTED] T8621.011
    
    [GRAPHIC] [TIFF OMITTED] T8621.012
    
    [GRAPHIC] [TIFF OMITTED] T8621.013
    
    [GRAPHIC] [TIFF OMITTED] T8621.014
    
    [GRAPHIC] [TIFF OMITTED] T8621.015
    
    Chairman Issa. Director Jarvis.

                STATEMENT OF JONATHAN B. JARVIS

    Mr. Jarvis. Thank you, Mr. Chairman.
    On October the 1st, the National Park Service began to 
implement a shutdown of our activities due to the lapse in 
appropriations. Under the closure determination notice that I 
issued that day, we closed and secured all 401 national parks 
across the country and furloughed more than 20,000 of our 
employees, consistent with the Antideficiency Act. 
Approximately 3,000 employees were excepted from this furlough 
to respond to threats to the safety of human life and the 
protection of property. Absent appropriations, the National 
Park Service will continue to implement the approved 
contingency plan that was made public on September 27.
    The closure has had far-reaching impacts across the country 
on families with planned visits, businesses, gateway 
communities, and employees. The National Park System welcomes 
more than 282 million people per year and more than 700,000 
people per day in October. The parks are loved not only because 
they are beautiful and historic, but because they are well 
managed, protected, and interpreted, and maintained by a 
professional workforce, a workforce that is now largely on 
furlough.
    The national parks are incredible economic drivers. Visitor 
spending generates an estimated 32 million per day in 
communities near national parks and contributes 76 million each 
day to the national economy.
    In response to the economic impacts of the closures, 
Secretary Jewell announced on October 10th that Interior would 
consider agreements with Governors who indicate an interest and 
ability to fully fund the National Park Service personnel to 
reopen national parks in their States. This is a practical and 
temporary solution that will lessen the pain for some 
businesses and communities. Turning away visitors is not our 
culture, nor our DNA. We look forward to reopening all 401 
national parks.
    The closure did not apply to through roads in parks that 
provided primary access between points located outside of the 
parks, such as Rock Creek Parkway. It also did not affect First 
Amendment activities on the National Mall and memorial parks 
and at Independence National Historic Park in Philadelphia due 
to regulations and court cases specific to these areas. Because 
these two areas are long-standing venues for hundreds of First 
Amendment activities each year, we anticipated that there would 
be the potential for such activities during the shutdown.
    The National Park Service has maintained law enforcement 
services provided by the U.S. Park Police and rangers for 
emergency and disaster assistance. We also have maintained our 
firefighting programs, border and coastal protection, and 
surveillance activities. Projects that were funded with 
nonlapsing appropriations have also continued.
    There has been a lot of attention on the monuments, 
memorials on the National Mall. They are among the many places 
that the National Park Service cares for that honor for those 
that have fought and died for our Nation. We are proud of the 
special relationship we share with America's veterans, and we 
know that they will be here--we will be here to protect these 
memorials now and in future generations.
    On a normal day there are over 300 National Mall and 
Memorial Park employees on duty. The rangers provide the eyes 
and ears of the U.S. Park Police. They enhance the visitor 
experience by sharing the history of the war, keeping the 
grounds and the restrooms clean, maintaining the landscape and 
fountains, and overseeing special events. All but a dozen of 
these 300 employees have been furloughed.
    Even though the U.S. Park Police commissioned officers have 
been excepted from the furlough, given the limited staff 
resources, prudent and practical steps were taken to secure the 
life and property of these national icons.
    We know that the visits to our World War II veterans to the 
memorials are pilgrimages, and many of them will make them only 
once. Throughout the shutdown, we have worked diligently to try 
to ensure that no Honor Flight group, veteran, or their family 
has been turned away from visiting the veterans' memorials. 
Likewise, those also engaging in First Amendment activities are 
welcome to visit the war memorials.
    Congress has charged the National Park Service with the 
preservation and protection of the park's natural, historic, 
and cultural resources for the benefit of future generations. 
This requirement in law exists whether the parks are open or 
shut down. With very few employees available, we are 
endeavoring to fulfill our mission the best we can. We look 
forward to the end of the shutdown so that we can reopen all of 
our national parks for the education, inspiration, and 
enjoyment of the American people.
    Be glad to answer any questions.
    [Prepared statement of Mr. Jarvis follows:]
    [GRAPHIC] [TIFF OMITTED] T8621.016
    
    [GRAPHIC] [TIFF OMITTED] T8621.017
    
    [GRAPHIC] [TIFF OMITTED] T8621.018
    
    Chairman Issa. Thank you.
    Ms. Simon.

                    STATEMENT OF LISA SIMON

    Ms. Simon. Thank you, Chairman Issa, Chairman Hastings, 
Ranking Members Cummings and DeFazio, and members of the 
committees.
    I appreciate the opportunity to testify today on behalf of 
our members and the tourism industry. The National Tour 
Association membership includes 702 operators, who package 
tours to, from and within North America. They collectively move 
10 million travelers annually and represent $6 billion in 
annual sales; 74 percent work domestically, and 36 percent are 
bringing international visitors into the United States. They 
serve both groups and individuals, travelers of all ages, and 
various special interest groups, and the majority of our 
members are small businesses. The balance of our 3,000 members 
are suppliers of travel components like hotels, attractions, 
restaurants, transportation companies and destination 
marketers, such as national, state and local tourism 
organizations. Tour operators and their customers plan their 
trips 6 to 18 months in advance, so an abrupt shutdown of 401 
park units cannot come without significant disruptions and 
costs.
    Since October 1, tour operators and their supplier partners 
have been scrambling to reroute itineraries and find 
alternative destinations and activities on a daily basis. NTA 
has had a longstanding relationship with the National Park 
Service, and they generally recognize the planning cycle needed 
in the package travel industry, yet with this shutdown, neither 
NTA nor its tour operator members were advised about what park 
units would be closed during the shutdown. It has been 
difficult to locate information on what's closed, including 
roads through and around Federal lands.
    In many cases, our members and their customers discovered 
closures upon arrival or had to send colleagues in advance to 
find out what the situation was. Our association and members 
incorrectly speculated that some of the units would remain 
open, particularly those that had no limited hours, no 
admission desks, no security checkpoints and, generally 
speaking, no specific point of entry. As a result, our tour 
operators have spent the last 2 weeks constantly dealing with a 
myriad of challenges and finding alternative activities and 
lodging.
    We surveyed our members 1 week into the shutdown, and 82 
percent across the board reported an impact. Specifically, 85 
percent of the tour operators reported rerouting and changing 
itineraries; 46 percent reported cancellations; and 57 percent 
reported having to refund deposits and fees. Initial estimates 
of the financial loss totaled $114 million just in the first 
week.
    Some of our members are also the suppliers and destinations 
that are dependent on the national parks in their areas, and 
they reported an immediate decline in business; 91 percent 
reporting cancelled or postponed tours; 56 percent in the first 
week were already seeing fewer visitors in their areas.
    In addition to the immediate losses, the shutdown will have 
lasting effects on both the domestic travel industry and 
international visitation. The U.S. Travel Association estimates 
that we are losing $152 million a day. And the closure of the 
national parks is a big part of the reason that we see 
countries like the U.K., Germany and Australia have issued 
travel warnings for the United States.
    Another illustration is the burgeoning China market. NTA 
helps facilitate the MOU between the U.S. Department of 
Commerce and the China National Tourism Administration by 
certifying the U.S. tour operators who are able to handle that 
business from China. The beginning of October was Golden Week, 
which in China is a major vacation week. NTA tour operators 
reported not only disappointed customers, but angry visitors, 
who were unable to visit the national parks during their once-
in-a-lifetime visit to the United States. Many of these inbound 
China operators were also not familiar with what was Federal 
parks versus State parks, and thus had an even greater 
challenge finding information about their planned tours.
    We recognize that it is impossible to predict whether or 
not there will be a government shutdown and that coordinating 
immediate closures of hundreds of parks is an enormous task. 
However, we recommend that there be a better plan that would 
avoid this situation in the future and enable the most 
significant park destinations at a minimum remain open, and 
that there be a communications plan that pushes out information 
to the travel trade and to the public. With today's technology 
capabilities, it should provide ample opportunities to better 
communicate what's happening.
    Tour operators depend on advanced planning, and we're 
seeing the consequences of the disruption caused by these 
closures with no specific notice.
    Thank you for allowing me to testify today. I look forward 
to your questions.
    Chairman Issa. Thank you.
    [Prepared statement of Ms. Simon follows:]
    [GRAPHIC] [TIFF OMITTED] T8621.019
    
    [GRAPHIC] [TIFF OMITTED] T8621.020
    
    [GRAPHIC] [TIFF OMITTED] T8621.021
    
    [GRAPHIC] [TIFF OMITTED] T8621.022
    
    Chairman Issa. Mr. Ebell.

                    STATEMENT OF MYRON EBELL

    Mr. Ebell. Chairman Issa and Chairman Hastings, thank you 
for inviting me to testify here today at this important hearing 
on the way the National Park Service is implementing the 
Federal shutdown. My name is Myron Ebell, and I am director of 
the Center for Energy and Environment at the Competitive 
Enterprise Institute, a group that has been already recognized 
here today.
    CEI is a nonprofit and nonpartisan free market public 
policy institute that specializes in regulations. A large part 
of our work is devoted to environmental issues, including 
management of the Federal lands by the four Federal land 
agencies. Twenty years ago, I spent 4 or 5 years as the 
Washington representative of the American Land Rights 
Association, which was started in 1978 by Chuck Cushman as the 
National Park Inholders Association, so I have some firsthand 
experience of these issues. Later, I worked for a former member 
of the Natural Resources Committee from Arizona, and dealt with 
a wide array of Federal lands issues, including all the 
national park problems in Arizona.
    Now, clearly, a Federal shutdown is going to cause many 
Federal facilities to have to close, including parks. Director 
Jarvis explained how rational and well thought-out their 
program for doing that was, but that isn't the issue. The issue 
is all of these petty, malicious acts. How can you close down a 
parking lot at Mt. Vernon that you lease to the Mt. Vernon 
Ladies Association and have nothing to do with? You are 
spending extra money to come and close it down. Does that 
comply with the Anti-Deficiency Act to close down Glen Echo 
Park along the Clara Barton Parkway, which is funded and 
operated by Montgomery County; to close the Claude Moore 
Colonial Farm, as Anna Eberly has explained; to close Langley 
Sports Park in Fairfax County, which was--which is leased to 
Fairfax County and operated and maintained by them; to take 
cones and barricades and close off turn-offs on State highways 
so people can't stop to take photos and look at Mount Rushmore? 
Where does the personnel and the money for that come from? 
These are questions that I think need to be answered.
    Now, I think that the publicity for some of these small-
minded and almost unbelievable--unbelievably low actions by the 
National Park Service are--the public is starting to notice 
those, and I think they are figuring out an important point, 
and this is really what I want to concentrate on: Americans 
love their national parks, and the National Park Service has 
spent decades hiding behind that affection that Americans 
rightly have for those great natural wonders and historic 
sites. The National Park Service, for anybody who has followed 
its history, is a terrible steward of many of its parks, of the 
environmental conditions in those parks. They are also not 
visitor friendly in many cases. They are not people friendly. 
They are not good neighbors, they--they mistreat their 
inholders, and they act like they own everything and that 
everybody else can just lump it.
    So I hope that this starts a process, this public 
awareness, this opening to understanding that the National Park 
Service is not the same as our great national parks to 
investigate the problems in the National Park Service and to 
initiate much needed reforms.
    I was--I was somewhat--my anger about what has been going 
on was somewhat relieved by--this weekend when the veterans 
went to the World War II Memorial and picked up the barricades 
and put them in front of the White House. As President Obama 
often says, ``We're Americans. We can do that.'' Thank you.
    Chairman Issa. Thank you.
    [Prepared statement of Mr. Ebell follows:]
    [GRAPHIC] [TIFF OMITTED] T8621.023
    
    [GRAPHIC] [TIFF OMITTED] T8621.024
    
    [GRAPHIC] [TIFF OMITTED] T8621.025
    
    [GRAPHIC] [TIFF OMITTED] T8621.026
    
    [GRAPHIC] [TIFF OMITTED] T8621.027
    
    Chairman Issa. Mr. Galvin.

                  STATEMENT OF DENIS P. GALVIN

    Mr. Galvin. Mr. Chairman, my name is Dennis Galvin. Today I 
represent the National Parks and Conservation Association, its 
800,000 members and supporters. NPCA has advocated support for 
our National Park System since 1919. Perhaps more pertinent to 
today's hearing is the nearly 40 years I spent with the 
National Park Service, the last 16 years in Washington. Nine of 
those were as deputy director. I held that post under 
Presidents Reagan, Clinton and Bush.
    I am informed that there have been 17 shutdowns since 1976, 
ranging from 1 to 21 days. During my tenure, there were five, 
including the long shutdown, 21 days of 1995, 1996. I have been 
struck by the similarities between that 1995, 1996 event and 
today's.
    Let me say a little bit about preparing shutdown plans. 
They are by force of circumstance hastily prepared by people 
who hope that they will not have to be used. For a highly 
decentralized agency like the National Park Service, which 
literally stretches across the international dateline and today 
comprises 401 units, it simply is not possible to cover every 
eventuality. Because most closures have not been more than a 
few days, their shortcomings don't surface, but as closures 
lengthen, questions arise due to circumstances unforeseen or 
difficult to predict.
    Nevertheless, the trajectory of this closure parallels 
1995, 1996 to a remarkable degree. Did we barricade monuments 
and memorials then? Yes. Lincoln and Jefferson were barricaded. 
It was at the holiday season, so we had the Festival of Lights 
going on on the ellipse. That was closed and a chain link fence 
was put around it. The much discussed World War II Memorial did 
not exist then, but if it had, I think we would have barricaded 
it.
    Were State and local economies devastated? Yes. The 
counties around Yosemite petitioned for disaster assistance. 
Grand Canyon and Mount Rushmore were flash points. Governor 
Symington threatened to send the National Guard to Grand 
Canyon. It is not true that the Grand Canyon was opened without 
conflict in 1995, 1996. I negotiated many of the agreements 
that we reached in 1995, 1996.
    And one thing I will say about the unintended consequences 
of a shutdown, there were only two lawyers to work with in 
the--in the Interior building to negotiate those agreements. So 
that--so that it's more than just that there aren't any park 
service employees around; there aren't any support employees 
around, either. And when it all concluded, it had been a very 
bad idea; so bad that 17 years has elapsed before it happened 
again.
    It is worth asking why parks moved to the center of the 
closure discussion. They are a miniscule and declining part of 
the Federal budget, 1/15th of 1 percent of Federal 
expenditures. In 1981, by the way, they were 1/8th of 1 
percent. So we spend about--about 50 percent of what we spend 
in terms of proportions on our national parks, but they are an 
easily accessible symbol.
    Closure may be hard to understand in less visible agencies, 
but a closed campground, a child crying because she can't visit 
the Statue of Liberty become convenient and graphic metaphors 
of a much larger failure.
    As we discuss the parks today, our other public lands are 
inaccessible to varying degrees. Agencies such as the Veterans 
Administration, CDC, the Public Health Service, National 
Institute of Health, NASA work with skeleton staffs. They, too, 
deserve attention and support. It is time to reopen the 
government and get back to doing the Nation's business.
    The parks have been in the spotlight during the closure, 
and we hope they remain there when they reopen. The sequester 
has already resulted in curtailment of services. The reductions 
are the equivalent of about 7,000 seasonal employees or 1,750 
permanents. This comes on top of the long-range decline in park 
funding.
    Some years ago, I made a presentation that traced the 
national park idea back to the founding documents of this 
country. In the Constitution, it is found in the Preamble, ``To 
secure the blessings of liberty to ourselves and our 
posterity.''
    Open the government, open the parks, let park rangers go 
back to doing the work they love, and let the rest of us enjoy 
again America's best idea. Thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    [Prepared statement of Mr. Galvin follows:]
    [GRAPHIC] [TIFF OMITTED] T8621.028
    
    [GRAPHIC] [TIFF OMITTED] T8621.029
    
    [GRAPHIC] [TIFF OMITTED] T8621.030
    
    Chairman Issa. And although it would seem irresistible to 
ask Director Jarvis first, Whose land is it? Is it the 
government's, or the American people's, in your mind?
    I'm going to waive my going first and recognize the 
gentleman from South Carolina, Mr. Gowdy, to ask the first 
round of questions.
    Mr. Gowdy. Thank you, Mr. Chairman. Mr. Jarvis, 2 years 
ago----
    Chairman Issa. That is perfect. Please restart the clock. 
Thank you. The gentleman is recognized.
    Mr. Gowdy. Some may disagree with that. I want to thank the 
gentleman from North Carolina for giving me his microphone.
    Mr. Jarvis, in October 2011, Occupy protesters descended 
upon McPherson Square, and they decided to stay. Despite the 
clear language of the law, these protesters camped at McPherson 
Square, with the definition of camping being sleeping or 
preparing to sleep. For 100 days, they camped in violation of 
the law, and you did not make a single, solitary arrest for 
camping. So Congress decided to have a hearing and ask you why 
you were not enforcing the law, and you told us, Mr. Jarvis, 
that you had a great deal of discretion in how and when to 
enforce the law. You told us that you were, after 100 days of 
not enforcing the plain language of the statute, working with 
protesters to: ``gain compliance,'' whatever the hell that 
means, with the law and what you called: ``a measured and 
reasoned approach.'' By the way, Mr. Jarvis, those were your 
words, not mine.
    So the law says, No camping, but the protesters camped 
anyway, and you didn't do anything in terms of arrest or 
citations for over 100 days.
    So, Mr. Jarvis, I want you to fast forward 2 years. Parks 
are closing, access to monuments is restricted, even access for 
those who helped build the monument in the first place. Now, 
you didn't wait 100 days to enforce the law, Mr. Jarvis, with 
veterans who wanted to see their monument. You didn't work to 
gain compliance. Veterans weren't greeted with a measured and 
reasoned response, Mr. Jarvis. They were greeted with 
barricades on the very first day.
    Furthermore, they could not exercise their First Amendment 
rights to walk to a monument that they helped build, but yet 
some of our colleagues were allowed to exercise their First 
Amendment right to protest whatever it was they were protesting 
on the national mall.
    So I am going to read something to you, Mr. Jarvis, and I 
want you to ask me if you recognize who said this. Because of 
the lapse in funding, you are having to deliver difficult news 
to our visitors and partners. The functions we must perform 
under a shutdown are not the reasons any of us joined the 
National Park Service, but they are the duties we are required 
to perform by law and regulation.
    Do you know who said that, Mr. Jarvis?
    Mr. Jarvis. I believe I said that.
    Mr. Gowdy. You're right. You did. So can you tell me why 
you would not enforce the law at McPherson Square, but yet you 
greeted veterans with barricades on the very first day? What 
regulation can you cite to me that required you by law to erect 
barricades?
    Mr. Jarvis. The contingency plan that was approved on 
September 27th for the National Park System is in compliance 
with the Anti-Deficiency Act. I, under criminal----
    Mr. Gowdy. I'm looking for a statute, Mr. Jarvis.
    Mr. Jarvis. The statute----
    Mr. Gowdy. I'm looking for----
    Mr. Jarvis. --is the Anti-Deficiency Act.
    Mr. Gowdy. I am looking for a citation to the Code of 
Federal regulation or the--or the U.S. Code for why you erected 
barricades. We've established you did not enforce the law for 
100 days for protesters. Agreed? You agree with me you did not 
issue a single citation for camping, right?
    Mr. Jarvis. I believe that is correct.
    Mr. Gowdy. Either it is or it isn't. Is it? Not one single 
citation for camping.
    Mr. Jarvis. I do not remember exactly.
    Mr. Gowdy. Well, your previous testimony was that you had 
not issued a single citation for camping despite 100 days of 
non-compliance.
    Mr. Jarvis. That was 2 years ago.
    Mr. Gowdy. Okay. Well, I can cite you the regulation that 
you did not follow 2 years ago. Can you cite me the regulation 
that required you to erect barricades to prevent veterans from 
accessing a monument that they built?
    Mr. Jarvis. I can cite the Anti-Deficiency Act.
    Mr. Gowdy. Can you cite a regulation that required you to 
erect barricades? Mr. Jarvis, that is not a complex question.
    Mr. Jarvis. The Anti-Deficiency Act requires that I reduce 
all employees down to only those that are necessary for life 
and property. That required the closure of all 401 national 
parks.
    Mr. Gowdy. Mr. Jarvis, why did you fail to enforce the 
plain language of a statute for 100 days for protesters and yet 
on the very first day, you denied access to a monument that 
veterans helped build?
    Mr. Jarvis. On the very first day of the closure, I 
implemented a closure order for all 401 national parks in 
compliance with the Anti-Deficiency Act and immediately, 
immediately that day, also included as a part of that order 
that First Amendment activities would be permitted on the 
National Mall----
    Mr. Gowdy. Do you consider it First Amendment activity to 
walk to a monument that you helped build, or is it only just 
smoking pot at McPherson Square?
    Mr. Jarvis. The First Amendment activities, we are content 
neutral on First Amendment in the--on the National Mall.
    Mr. Gowdy. That wasn't my question. Do you consider it to 
be an exercise of your First Amendment right to walk to a 
monument that you helped build?
    Mr. Jarvis. If an individual declares they are there for 
their--to exercise their First Amendment----
    Mr. Gowdy. Who are they to declare it to? The barricades?
    Chairman Issa. The gentleman's time has expired.
    Mr. Gowdy. Could I ask a final question? Who were they to 
declare it to? The barricades?
    Mr. Jarvis. To the ranger on the site. On the National 
Mall, any group under 25 does not need a permit to exercise 
their First Amendment, and we set up the policy to allow our 
veterans in, including all of the honor flights under First 
Amendment, so they were not denied access.
    Mr. Gowdy. Mr. Chairman, I want the record to reflect that 
no statute or code of the Federal regulation was cited to 
justify the erection----
    Chairman Issa. The record will indicate that.
    Director Jarvis, in--pursuant to his question, Ms. Eberly 
looked like she wanted an answer to what statute provided for 
her to be closed. Would you please address your answer to her? 
If it's Anti-Deficiency, go ahead and say it to her.
    Mr. Jarvis. It's Anti-Deficiency. We--in the case of the 
Claude Moore Farm, along with many similar situations, we had 
to actually investigate whether or not we were providing direct 
services that would be in violation of the Anti-Deficiency Act. 
Utilities, trash pick-up, any of the things that are not 
related to life and property.
    In the case of the Claude Moore Farm, we had been providing 
funding to them in the tune of $100,000 a year every year. So 
we were not going to give it in 2014, and Ms. Eberly knows 
that, and that's a concern for both of us, but because of our 
decline in funding. So I had to make a determination whether or 
not I was going to be in violation of the Anti-Deficiency Act, 
which I cannot violate. It is a law passed by this body that I 
cannot violate. There are criminal penalties to my agency to 
violate that law. So, as we shut down, immediately we began to 
work towards figuring out how to get a work-around that would 
allow Claude Moore, Pisgah Inn, a whole variety of these 
partnership facilities open, and we've opened over a dozen or 
more already because we've determined that there is no 
violation of the Anti-Deficiency Act.
    Chairman Issa. Okay. I appreciate that, and I appreciate 
the fact that you discovered you were wrong on day one.
    I now ask unanimous consent that the--this historic news 
archive from the 1996 period be placed in the record in which 
it says in realtime in 1995, December 16th, 1995, tourists were 
free to wander the halls of the capital, touch the walls of the 
Vietnam Memorial and climb the steps of the Lincoln Memorial to 
read the Gettysburg address.
    Without objection, so ordered.
    Chairman Issa. Additionally, I now ask that your document 
from the United States Department of Interior, which is your 
declaration, National Park Service Closure Determination and 
Notice, be placed in the record, in which in line 7, it says, 
the Closure Determination and Notice does not apply to private 
owners of interest in real property located within the exterior 
boundaries and units of the National Park Service, et cetera, 
and line 8, which says, the Closure Determination and Notice 
does not apply to roads that pass through units of the National 
Park Systems and provide access.
    Without objection, so ordered.
    The gentleman from Maryland is recognized.
    Mr. Cummings. Director Jarvis, let me ask you this. 20--
you--how many employees does the Park Service have?
    Mr. Jarvis. About 24,000.
    Mr. Cummings. And you had to furlough how many?
    Mr. Jarvis. 21,328.
    Mr. Cummings. And what percentage is that of the employees?
    Mr. Jarvis. About----
    Mr. Cummings. About 87 percent?
    Mr. Jarvis. Yeah. Somewhere in that neighborhood, 87, 88, 
85 percent.
    Mr. Cummings. And so you--those folks, they--they were--it 
was basically mandated that they couldn't come to work. Is that 
right, pretty much?
    Mr. Jarvis. That's correct.
    Mr. Cummings. Now, what impact did that have on your 
decisions and what you did with regard to this--the matter that 
Mr. Gowdy was just asking you about?
    Mr. Jarvis. The monuments and memorials on the National 
Mall do not take care of themselves. Every day I have employees 
there that clean the restrooms, clean up the messes behind the 
public, pick up trash, ensure that the elevators are available 
for those that need to access the chambers of the Jefferson or 
the Lincoln. They--they provide the eyes and the ears for the 
U.S. Park Police, who are not duty stationed to stand and watch 
over monuments. They are there to respond. U.S. Park Police 
responded to the incident at the Navy Yard, they responded to 
incident with the Capitol Police recently. They are a response 
agency. And our rangers are there to prevent vandalism and 
impact to the monuments and memorials. All of those rangers 
have been furloughed. So the consequences are that, as much as 
there's a lot of talk about open air monuments and memorials 
that are unmanned, they are not unoccupied.
    My responsibility is to ensure that they are protected 24 
hours a day, and not just with somebody that might come in a 
late response. We have staff that are there in all of those. So 
out of 300 that would normally be on the mall, I have 12.
    Mr. Cummings. So--so, therefore, there are consequences, as 
Mr. Connolly says, to all of this. Is that right? In other 
words, when you've got to furlough people, you're going to have 
some consequences.
    Mr. Jarvis. Yes, sir.
    Mr. Cummings. And so you cannot cover everything you'd like 
to cover. Is that right?
    Mr. Jarvis. I cannot protect these monuments and memorials 
to the standard that this country expects me to do so.
    Mr. Cummings. Now, I already--now, one of the things that 
you said, going back to the hearing that Mr. Gowdy was talking 
about, that impressed me quite a bit is you talked about how 
important it is to you personally, and you said it again today, 
that when people come to visit our parks, our monuments, that 
you took it as a personal type of thing, that you wanted them 
to be able to enjoy that, that it was very significant, that it 
was just as significant to you for your--you would want the 
same thing for your family that you want for them. Do you still 
feel that way?
    Mr. Jarvis. Yes, sir. If I may, in 2016, the National Park 
Service will be 100 years old, and I will have worked for this 
agency for 40 of those years. I have been a law enforcement 
ranger. I have been search and rescue, firefighter, 
superintendent, regional director, and now director, under many 
Presidents, many Secretaries of the Interior. What--and I think 
I represent the agency of public servants that are dedicated to 
providing these places to the American public.
    It pains us to not be able to invite the American public 
into their national parks. This is as painful for the employees 
that take great pride in providing these 401 places for the 
enjoyment of the American people.
    Mr. Cummings. Somebody on the other side said a little bit 
earlier folks had been treated badly at the parks. And I got to 
say, even before I became a Congressman and the people did not 
know me in these parks, I have never had a bad experience with 
regard to employees.
    And I want to say to the employees that are watching us 
right now that we thank you for your service. We thank you for 
dedicating your lives to making life better and bringing life 
to light to so many people.
    Now, let me ask you something else. I already talked about 
some of the impacts the shutdown is having on veterans.
    I ask unanimous consent to insert in the hearing record a 
letter the Military Officers Association of America sent to me 
yesterday. They letter states in part: ``Veterans and their 
families, too, are experiencing reductions in certain services. 
Even though VA healthcare continues uninterrupted under the 
advanced appropriations, other services have been suspended or 
severely cut back, including veteran outreach programs, 
counseling for wounded warriors and student vets on campus, 
among others.''
    Mr. Hastings. [Presiding.] Without objection, that will be 
part of the record.
    Mr. Cummings. Thank you, Mr. Chairman.
    I would also like to insert into the record a written 
statement from the Student Veterans of America. This statement 
says: ``The current government shutdown has created an 
overwhelming sense of uncertainty for students, veterans. With 
the Department of Veterans Affairs resources like the GI Bill, 
hotline unavailable, many veterans are wondering whether or not 
they'll be able to pay next month's rent or even have GI bill 
benefits to remain enrolled in school.''
    Mr. Hastings. That will be part of the record also, without 
objection.
    Mr. Hastings. The time of the gentleman has expired.
    Mr. Cummings. Let me say this, Mr.--wait. The--in our 
committee, what we had just now was a total--between Mr. Gowdy 
and Mr. Issa, a total of 9 minutes. I'd like unanimous 
consent----
    Mr. Hastings. In my committee--in my committee, we go the 
5-minute route, but I'll give the gentleman leeway.
    Mr. Cummings. Thank you very much. I don't have much more, 
Mr. Chairman. I appreciate your courtesy.
    I also would like to insert in the record a letter from the 
Reserve Officers Association of the United States of America. 
The impact on veterans is just one example of the toll the 
shutdown is taking on Americans. As a result of the shutdown, 
seven Head Start programs were forced to close, leaving 7,000 
preschool children locked out of the classroom and their 
parents scrambling to find childcare. A private donation has 
been--has helped bridge the funding gap, but Head Start 
programs across the country are facing closures as the shutdown 
continues. The National Transportation Safety Board has 
suspended an investigation of a train derailment in Baltimore 
County, Maryland, as well as a train derailment in Ellicott 
City, Maryland, that resulted in the release of 20,000 gallons 
of vinyl chloride.
    I could go on and on with specific examples such as these, 
but let's talk about the impact of the Republicans governing 
tactics on the economy. The Peterson Foundation released a 
report this week titled: ``The Cost of the Crisis-Driven Fiscal 
Policy.'' The report finds that the arbitrary and shortsighted 
approach that governing by crisis is hurting the economy. The 
report concludes that these policies have: ``saddled a still 
struggling economy with the fiscal drag of a contraction of 
discretionary spending, created general uncertainty about 
fiscal policy that though its impact on financial markets has 
undermined economic growth, and finally forced the first 
prolonged shutdown of the Federal Government since the first 
term of the Clinton administration and failed to raise the 
Federal debt ceiling in a timely manner, conjuring the specter 
of a sovereign default with all its financial and economic 
fallout.'' The report finds that the result is that the----
    Mr. Hastings. Will the----
    Mr. Cummings. --growth of gross domestic product----
    Mr. Hastings. Will the gentleman wrap up.
    Mr. Cummings. --is slowed by as much as--I'm wrapping up 
right now, Mr. Chairman. Just taking my--my same thing that Mr. 
Issa did. Product--the report finds that the result is that the 
growth of the gross domestic product has slowed by as much as 
one percentage point since 2010.
    Director Jarvis, you are responsible for running an agency 
that is charged with protecting our national parks, which 
contribute to the national economy, and we thank you for your 
service.
    With that, I yield back.
    Mr. Hastings. I don't have to remind the gentleman that his 
time had expired 2 and a half minutes ago, but I just--I just 
want to--I'll recognize myself, and I am--I'm going to try to 
adhere to the 5 minutes.
    When you have government shutdowns, there's obviously going 
to be some displacement, that happens, but let's understand 
that these are decisions that the political class has 
difficulty sometimes reconciling. Our founders devised a system 
that was supposed to be hard. Government of the people is hard. 
If you want efficiency, then you go to a dictatorship, but if 
you want to have freedom and liberty, you have our form of 
government. And so now we're caught in this--in this situation 
right now, and we have to do our best to get through that.
    Ms. Eberly made an observation in her--her response about, 
I don't know who's responsible, but we ought to find out. 
There's a--that struck me and reminded me of the saying that a 
government that is big enough to give you something is big 
enough to take it away.
    Now, what's frightening about what we're going through 
right now, we have--we have had 17 shutdowns since 1980, I 
believe is what the figure is, but this is the first time, this 
is the first time that access has been denied to open--open air 
malls, open air monuments. Now, that, frankly, should be a 
little bit frightening, it seems to me, that if a government 
will go to that much effort to make it difficult for the 
American people to see their national treasures, that ought to 
be--that ought to be a red flag for everybody. I think--that's 
what this hearing is all about.
    Now, what I would like to--I'd like to ask Director 
Jarvis--and thank you for being here. You and I spoke briefly 
beforehand, and you said you've had better weeks. I suppose 
we've all had better weeks at some time. But I want to refer 
to--to the issue of the First Amendment activities, because the 
First Amendment is a constitutional activity. We all know that. 
In your directive, on number 9, you cancelled all previously 
issued permits, with the exception of those here in our 
National Mall, and you put that on the National Mall, I think 
the White House and Philadelphia and so forth, but what's--what 
got the--America's attention was when the World War I vets 
could not access--or World War II vets could not access, you 
know, their monument because of those barricades that's been 
well documented. So my question, were their permits--were their 
permits not acknowledged or what happened with the honor--with 
the honor flights?
    Mr. Jarvis. Prior to the shutdown, the honor flights were 
not a permitted activity.
    Mr. Hastings. Okay. So they weren't--they were not 
permitted?
    Mr. Jarvis. No.
    Mr. Hastings. Okay. But now you are changing--you changed 
course and said, okay, these honor flights can have First 
Amendment rights at the World War II--World War II mall, but I 
thought I heard you say in testimony that others less than a--
less than a size of 25 don't have those same rights. Did I hear 
you correctly?
    Mr. Jarvis. No. That--the regulations for the National 
Mall, because we host about 600 First Amendment activities here 
each year, if it's a group under 25, they can exercise their 
First Amendment activities without a permit.
    Mr. Hastings. Okay. Well, all right. So that's very--that's 
the interesting part, then. You had barricades for World War II 
veterans. Obviously, they were over 25, but individuals, 
individuals, you know, somebody from, say, my home town came 
here, they would be denied access, and yet you said they're 
exempt. I see an inconsistency here and how this is applied.
    Mr. Jarvis. No. If the--if your friends came and walked up 
to the ranger and said, I'm exercising my First Amendment 
activities, and I have a group under 25, then they would--they 
could do that.
    Mr. Hastings. Well, see now, I--in due respect, now I'm 
going to have to pursue this. You have an agency within the 
Park Service that defines what First Amendment rights are, and 
people have to go up and outwardly ask to have their First 
Amendment rights exercised by an okay from the Park Service? Is 
that what I'm hearing?
    Mr. Jarvis. There has been many, many cases of First 
Amendment----
    Mr. Hastings. No. I didn't ask that question.
    Mr. Jarvis. It's a body of law. I'm sorry. But there is a 
body of law associated with First Amendment activities on the 
mall. Let me give you a for instance. The chamber of the 
Lincoln Memorial is not available for First Amendment 
activities, so that's in statute--or in regulation, nor is the 
chamber of the Jefferson, but the plaza is. In the case of the 
World War II Memorial, the entire World War II Memorial is open 
to First Amendment activities. So----
    Mr. Hastings. Except--except in this case when the 
barricades were put up because of--of--well, I don't know. 
Maybe we will really find out where that came from.
    Let me--last question, and I'm--I'm over time, and I--I try 
not to--to do that. I really try to adhere to that in my 
committee.
    I guess the obvious question is, is all of this decision 
that was made regarding restricting activity, was that your 
decision?
    Mr. Jarvis. Yes, sir, it was.
    Mr. Hastings. Totally your decision?
    Mr. Jarvis. Yes, sir.
    Mr. Hastings. Okay. Thank you.
    I want to recognize now Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Chairman, I 
regret the committee chairman from Iowa isn't here at the 
moment, but this is a photograph from the 1995 shutdown, and 
that is the Lincoln Memorial, and the closure begins at the 
base of the steps. People were not allowed to go into the 
Lincoln Memorial.
    You know, I would say that we've got a lot more loose tools 
running around this country doing destructive things now than 
we did in 1995. We had someone attack the monument recently. So 
to say, gee, we shouldn't need any staff there to protect the 
memorials is absurd in this day and age, so----
    I also have a letter here I'd like to enter into the record 
from the National Park Ranger Lodge of the Fraternal Order of 
Police, and I'll quote just two things from this letter: 
Without any contrary court findings or changes in the law--
despite what the gentleman on the other side said--we will 
carry on with this miserable, thankless and pay-less task 
denying public access to parks during the government shutdown. 
You know, although our--our actions make sensational news 
stories and fodder for the pundits, it is supported by 
precedent, legal guidance from government lawyers under laws we 
are sworn to enforce.
    You know, the Park Service rangers want to be working. They 
want to be regularly admitting people to memorials and parks 
and then guarding those people and the memorials and the parks 
against destructive activities, but because of the Republican 
government shutdown, they cannot do that, plain and simple. You 
can't create something and then pretend you are outraged by the 
results, which is what I am hearing from the other side of the 
aisle.
    Director Jarvis, I do have a question. They--they seem to 
love our parks today, but I haven't seen that love much 
recently since the Republicans took over Congress 2010: 2010, 
your total budget was $2.75 billion. In 2013, $2.4 billion, 
which would be less than the 2008 spending levels. Since 2008, 
have you caught up on your capital backlog?
    Mr. Jarvis. No, sir. Our--our maintenance backlog now 
exceeds $11 billion.
    Mr. DeFazio. $11 billion maintenance backlog on these 
parks, which are now loved so much by the other side of the 
aisle. Well, given the reduction in spending and taking you 
back to 2008, have you had to cut back earlier this year before 
the closures?
    Mr. Jarvis. Yes, sir. Particularly with the sequestration, 
we had to cut back significantly on the program and hours. We 
currently have 1,000--for this last summer, 1,000 less 
seasonals, and we have 900 positions that are permanently--
that--permanent positions that are unfilled.
    Mr. DeFazio. Okay, 1,000 less seasonals, 900 less 
permanent, and the Republicans are saying the sequestration, 
which they created, which has cut your budget back to below 
2008 year levels, is politically motivated, the things you're 
doing there. Is it politically motivated when you noticed those 
people that, you know, they weren't going to be working this 
summer?
    Mr. Jarvis. No, sir. There's no--no politics involved here. 
This is just our responsibility to take care of the national 
parks with--with what resources we have.
    Mr. DeFazio. I thank the gentleman. You know, I'd note 
further, you know, there are some other perverse impacts on our 
Federal lands. Wildlife refuges are closed, and those on the 
other side of the aisle, who day in day out are there to defend 
the Second Amendment, aren't doing much to defend those who 
want to hunt on those lands during this hunting season and the 
losses that are being caused there. They aren't doing anything 
by keeping the government closed to help those in rural areas 
who want to work. I got timber industry folks who've been 
noticed that their contracts are going to be suspended. Now, 
they're going to have a right to sue the government and get 
money back for suspending their contracts.
    Unfortunately, we won't have those logs this winter to tie 
the mills over to the spring in areas where you can't get into 
the mountains in the wintertime. And yet that's because of the 
government shutdown. They might say, oh, well, they should just 
let them go forward. Well, they can't let them go forward, 
because they have a fiduciary duty to monitor the timber sale. 
There have been instances where people have cut trees they 
weren't supposed to cut. They've gone beyond the boundaries of 
the cut. Timber theft, it's called. Those things happen. The 
government needs to have officials there to monitor this. They 
can't do it under your shutdown. We're losing money. We're 
losing jobs. Now you pretend you care about rural America, you 
care about our parks, which you've slashed the budget for.
    You know, this is absolutely the height of hypocrisy, the 
fact that we're here today trying to figure out why the parks 
are closed because of a government shutdown and what bizarre 
things have happened----
    Mr. Gohmert. Mr. Chairman, I would like to make an inquiry 
for a point of personal privilege.
    Mr. Hastings. The gentlemen will make his--I think he's 
probably asking for a parliamentary inquiry, so I'll recognize 
him for that.
    Mr. Gohmert. When the gentleman says that you pretend that 
you care about the parks, are you speaking about anybody on 
this dais, so that I will know whether to have the gentleman's 
words taken down or not?
    Mr. Hastings. Any member has the right to ask a--another 
member's words to be taken down, but I think what this 
discussion is here, the gentleman was addressing it in the 
proper way that we address those sort of things in the third 
person, and so I didn't intervene. He obviously has----
    Mr. Gohmert. I heard the second person, Mr. Chairman.
    Mr. Hastings. He obviously has strong feelings, like 
Members on both sides of the aisle have on that.
    Mr. Gohmert. I heard the second person instead of third 
person, which is not proper.
    Mr. Hastings. I did not hear--I did not hear the second 
person.
    The time of the gentleman has expired. The chair recognizes 
the gentleman from Florida, Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman.
    And I think it's important that we conduct this oversight 
hearing in a joint fashion. I think it--of all the things 
that's happened--and nobody favors a shutdown, Republicans or 
Democrats. Our side believes that we're--we're on the verge of 
a permanent shutdown of our government, which would be much 
worse, when you spend so much money and incur so much 
indebtedness that we lose our financial credibility, our 
national security as a result of that. So this is a legitimate 
debate. There have been more than a dozen shutdowns. There have 
been--I just heard today, I never realized that under Carter, 
we actually went beyond the debt limit, not that we want to 
follow that model.
    The problem here is that it--it appears that what took 
place by the Park Service was offensive to the American people, 
to the Congress and to just the concept of common sense, 
Director Jarvis. That's what this is about. I mean, I think 
nothing has resonated more with the public than to see an open 
air monument, such as the World War II Memorial and close by, 
the Martin Luther King Memorial. It just seems that common 
sense did not prevail.
    Did you--now, you said you take full responsibility for 
that action. Is that correct?
    Mr. Jarvis. That's correct.
    Mr. Mica. And did you discuss this with the Secretary of 
Interior Jewell at any time?
    Mr. Jarvis. Yes, I did.
    Mr. Mica. And did she--did you--and you didn't discuss it 
with anyone in the White House, did you?
    Mr. Jarvis. In--in--several times on the phone with the 
White House, I presented, with the Secretary, my decision, but 
it was never the reverse. There was never any----
    Mr. Mica. So you discussed with officials in the White 
House your action.
    Mr. Jarvis. I did.
    Mr. Mica. And you also discussed it with her. Now, the 
common belief among even Park Service employees, and I quote 
one of them, who's--this is a press account October 3rd. It's a 
cheap way to deal with the situation, an angry park service 
ranger in Washington says of the harassment. We've been told to 
make life as difficult as we can. It's disgusting.
    This is the common belief of people who work for you, and 
he believes he was told to make this as difficult and as 
painful as possible. How would you respond to that?
    Mr. Jarvis. I have no idea where that--that information 
came from.
    Mr. Mica. It's a park ranger quoted from a news----
    Mr. Jarvis. That's hearsay. What I'm telling you is that--
--
    Mr. Mica. It may be hearsay, sir----
    Mr. Jarvis. I'm in communication with my employees, the 
ones that are still on work, and they do not believe that. So 
to say that this is the belief of the National Park Service 
employees, that's incorrect.
    Mr. Mica. Okay. Well, here's one. And I can tell you that I 
am in contact with my constituents as an elected 
representative, and nothing has appalled the American people 
more that I've seen in my two decades of service than what 
you've done. To close an open air monument like the World War 
II or across the street, across the way, where people could 
walk. Now, granted, that was not in existence in 1995, maybe 
you didn't have a precedent, but it was offensive to close a 
place where you could walk.
    You said your job is to protect the monuments. How--how 
would the monuments not be protected if people walked there?
    Mr. Jarvis. They are protected--if we don't----
    Mr. Mica. The monuments, now. The people are protected by 
the Park Police and the District Police, and I'm told that--and 
we have evidence that there were--there were almost as many to 
protect the people and----
    Mr. Jarvis. That is incorrect. If I may correct the record 
here. The U.S. Park Police has been excepted from furlough. The 
U.S. Park Police are in New York, San Francisco and Washington, 
D.C. They have responsibilities for the George Washington 
Memorial Parkway, for traffic, for the regular commuting in 
here every day.
    Mr. Mica. But I am told in the District of Columbia, 
extraordinary measures were available to make certain that, 
again, that--that our monuments, the streets, we have had a 
horrible incident that took place.
    Mr. Jarvis. That is correct.
    Mr. Mica. They were on the job protecting the people.
    Mr. Jarvis. Correct.
    Mr. Mica. But your job is to protect the monuments. Now, 
somebody--you talked to folks in the White House. Who did you 
talk to in the White House?
    Mr. Jarvis. I actually do not know who was on the phone. I 
do not. It was only informing----
    Mr. Mica. And did they relate to you that you should 
continue to inflict pain?
    Mr. Jarvis. They did not.
    Mr. Mica. All right. And can you provide to the committee 
that information of who you spoke to and when on this matter?
    Mr. Jarvis. We are retaining all of our records as 
requested by the committee chairman, and once we get out of the 
shutdown, we will be providing those.
    Mr. Mica. Well, we will subpoena them or get them one way 
or the other.
    Mr. Hastings. The time of the gentleman----
    Mr. Mica. Thank you. I yield back.
    Mr. Hastings. The time of the gentleman has expired. And I 
appreciate the director saying he's going to comply with our 
request that we sent on October 2nd.
    The gentleman from American Samoa, Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I certainly want to welcome all witnesses and for the 
testimony that they've provided before the joint hearing this 
morning.
    Mr. Jarvis, I want to commend you for the distinction and 
the outstanding job that you have done, or is doing as the 
director the National Park Service with a track record of some 
40 years of service to our Nation and to the American people, I 
think should be recognized.
    Mr. Jarvis, you mentioned that the Park Service takes in 
about 232 million visitors a day--I mean, a year, with some 
700,000 people each day in the 401 national parks, and you have 
to operate on a budget that is 1/15th of 1 percent of our 
national budget? Is this--am I correct in putting these before 
you?
    Mr. Jarvis. Yes, sir, that is correct.
    Mr. Faleomavaega. Mr. Jarvis, I--it's sad that I seem to 
see that you have become a political punching bag for this 
hearing, and it's really unfortunate. And I think what we're 
trying to do here is to give a real sense of the challenges and 
the problems that you're faced with as the director.
    When you were given notice that you need to shut down, you 
mentioned that the shutdown occurred on the 1st of October?
    Mr. Jarvis. That is correct.
    Mr. Faleomavaega. And how do you go about shutting down an 
agency? I believe 70,000 Federal workers work for the 
Department of the Interior, and out of that, some 68,000 have 
been furloughed.
    Mr. Jarvis. That--somewhere in that neighborhood, yes.
    Mr. Faleomavaega. And the Park Service is part of that.
    Mr. Jarvis. That's correct.
    Mr. Faleomavaega. And all of the responsibilities that you 
bear, and I think it's been a common interest explained here 
this morning, the fact that a tremendous economic disaster has 
been created because of the shutdown. Am I correct on that?
    Mr. Jarvis. We calculate that for every dollar invested in 
the National Park System, you get $10 back to the economy.
    Mr. Faleomavaega. And, Mr. Galvin, I am very interested in 
your statement. You said you represent the National Parks 
Conservation Association, with a membership of some 800,000 of 
our fellow Americans?
    Mr. Galvin. That's correct, Mr. Faleomavaega.
    Mr. Faleomavaega. And what are some of the most classic 
things that the association has been able to achieve and you as 
a trustee of this association?
    Mr. Galvin. Well, as I said in my opening statement, the 
National Parks Conservation Association is uniquely focused on 
supporting the national parks since 1919, and in--we do--we do 
that by providing information to the public, by providing 
information to our visitors, by involving ourselves in issues 
at the park level, by--by----
    Mr. Faleomavaega. Mr. Galvin, my time is short. Let me--let 
me go on. I got one to send you. You--I'd like to quote your 
statement that you made here as an observation at the hearing 
this morning, and I quote, the National Park Service is not to 
blame for the failure of Congress to keep our government open 
and provide the resources needed to maintain our parks and keep 
them completely open. Blaming National Park's employees for the 
abysmal results of such a failure of national leadership is 
unconscionable.
    Can you share that with us more?
    Mr. Galvin. Well, you know, I think this hearing is about 
how the shutdown has worked out. Okay? And as I said in my 
statement, doing shutdown plans isn't easy for a 401-unit 
system that extends beyond the international dateline, but 
there isn't any question about why there was a shutdown. There 
is no appropriation. There is no continuing resolution. There 
is no money to pay employees. Even the few employees that John 
has at his disposal today are not being paid, so that--so we 
can--we can debate about the World War II Memorial or Grand 
Canyon. The fact is 401 units of the National Park Service are 
mostly closed, over 380----
    Mr. Faleomavaega. Mr. Galvin, I'm sorry. My time is 
getting--thank you, Mr. Galvin.
    Mr. Jarvis, how much--how much of an economic benefit--
well, what has it done to the economy of this country the fact 
that what the national parks has done in terms of just like 
Mayor Bryan, Ms. Eberly and Ms. Simon in terms of their 
responsibilities, how much this--of an economic impact because 
of the closure?
    Mr. Jarvis. Well, at this moment, October, which is a peak 
period for many of our gateway communities, the impact is 
enormous. And, you know, they're not going to recover that. I 
mean, even if the Federal employees are paid at the end of 
this, our concessioners, our gateway communities, those hotels, 
restaurants will not recover this loss. And so we have already 
begun to figure out how we can get some of these back open. And 
as--as the mayor of Tusayan indicated, we've reopened the Grand 
Canyon, we've reopened Rocky Mountain, eight parks in Utah, all 
of these, because, you know, frankly, we shut these down on 
October 1, and immediately began to figure out how we can work 
to get those back open without violating the Anti-Deficiency 
Act. And I think the evidence shows, from Claude Moore to the 
Peaks of Otter, to the Grand Canyon that I have been working 
very hard with a very small staff, there are only nine of us 
left in the park service in the Washington office, to get these 
parks back open so that we can get the $76 million per day that 
the National Park Service is contributing to the national 
economy.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Hastings. The time of the gentleman has expired.
    The gentleman from Utah, Mr. Bishop.
    Mr. Bishop. Mr. Jarvis, you said you had about 3,000 exempt 
employees. I'm assuming those are all security personnel?
    Mr. Jarvis. There are----
    Mr. Bishop. The numbers----
    Mr. Jarvis. I've got the numbers.
    Mr. Bishop. The numbers aren't important. Are those 
security personnel?
    Mr. Jarvis. Not all of them.
    Mr. Bishop. Most of them?
    Mr. Jarvis. Most of them.
    Mr. Bishop. Do you have roughly the same number of security 
personnel on the mall as you had before the shutdown?
    Mr. Jarvis. Yes.
    Mr. Bishop. Okay. Is there a specific threat to the 
property or life of anything that is taking place on the mall 
that is different now than before the shutdown?
    Mr. Jarvis. Our intelligence indicate that there has been 
an uptick in activity and interest during the shutdown in 
potential threats.
    Mr. Bishop. Can you give me a specific one?
    Mr. Jarvis. I cannot give you the specifics.
    Mr. Bishop. Is putting barricades up a normal practice 
after the interpreters and the maintenance service have left 
those particular areas?
    Mr. Jarvis. No.
    Mr. Bishop. If there is no greater threat--if there is no 
specific threat and you actually put up barricades on those 
monuments, you have violated the Anti-Deficiency Act. You have 
created a new obligation with no new threat. If there is not a 
specific threat, you have violated the Anti-Deficiency Act.
    Now, Mr. Speaker, with your permission, I'd like to yield 
the remainder of my time to Mr. Stewart.
    Mr. Stewart. Thank you. Thank you, Mr. Bishop.
    And I represent some of the Nation's greatest national 
parks. I represent the Second District of Utah. We have Zion's. 
We have Bryce Canyon, many others. To the American people and 
particularly to some of my colleagues on the other side of the 
aisle, I would like to make what I think is a very obvious 
point. It's entirely the point of this hearing. Yeah, the 
government's in a partial shutdown, and there are implications 
that come from that. The question to consider is this: In the 
midst of a crisis, should the Federal Government choose to make 
things better or should they choose to make things worse? 
Should the administration seek to alleviate some of this 
inconvenience and some of this pain or should they seek to 
exaggerate those? Should the Federal Government be viewed as a 
friend to the people or as an enemy.
    And, Mr. Jarvis, surely you must realize that because of 
some of your actions, many Americans view you not as an 
advocate, but as an adversary. And I think--you know, we're in 
a political conflict right now, and we'll move on. We always 
do. We find a way to move through this, and 6 months from now 
the American people will move on with their lives. A year from 
now or 5 years from now, some of this will be forgotten, but I 
think that the lasting impression that most Americans will have 
will be of those veterans standing at the World War II Memorial 
and being denied access to that.
    And so, Mr. Jarvis, let me ask you, if I could, you are not 
here voluntarily. Is that right?
    Mr. Jarvis. I volunteered to come after the shutdown when I 
would have staff to prepare.
    Mr. Stewart. Are you here because of the force of a 
subpoena?
    Mr. Jarvis. I am.
    Mr. Stewart. Okay. That would seem to be not voluntarily, 
then. If you view your actions as defensible, then why didn't 
you volunteer to come and sit before this committee and answer 
questions?
    Mr. Jarvis. I did volunteer to come, but not on this date. 
I don't have any staff to prepare. Normally I would have a 
staff that would work on developing testimony----
    Mr. Stewart. You said before----
    Mr. Jarvis. They're all furloughed.
    Mr. Stewart. You said before these are your decisions. I 
wouldn't imagine you would need staff to explain to you why you 
made the decisions that you claimed you have made.
    Mr. Jarvis. I don't need staff to explain to me, but I do 
need staff to prepare testimony, because this committee 
requires testimony be submitted in advance, and those staff are 
furloughed.
    Chairman Issa. Would the gentleman suspend?
    Mr. Stewart. Yes.
    Chairman Issa. Mr. Chairman, a point of--not inquiry, but 
parliamentary clarification.
    Mr. Hastings. Parliamentary clarification, or actually it's 
inquiry would be a better one, but the gentleman is recognized 
for that.
    Chairman Issa. When we subpoenaed the director, our staff 
had already made it clear, and I believe the director is aware, 
that essential personnel under the act would include such 
personnel as are necessary to respond to Congress. And that was 
the basis under which we subpoenaed him, because waiting till 
afterwards simply meant that he was unwilling to return such 
personnel as were necessary to prepare for today's hearing. And 
I just wanted to make that point that--that there was a 
dialogue in preparation to make the determination that he could 
bring back on a daily basis such personnel as were necessary if 
he wanted to be better prepared for today's hearing.
    Mr. Hastings. That's my--my understanding also.
    The gentleman from Utah, Mr. Stewart, is recognized for the 
balance of the time.
    Mr. Stewart. Well, thank you both to the chairman. And I 
think it emphasizes my point that if we considered these--these 
decisions and actions as being defensible, you would not be 
reluctant. I would think you would be anxious to come before 
the committees and to defend those--those decisions.
    In the few seconds I have left, let me make this point, if 
I could. My State has worked an agreement with Secretary Jewell 
to reopen the national parks within Utah, and I'm wondering, 
Director, do you support that decision to work in concert with 
state governors and others to open these parks?
    Mr. Jarvis. Absolutely.
    Mr. Stewart. Would you support--you know, expecting that we 
may find ourselves in this situation again, maybe in a year, 
maybe in 20 years, but at some point we may find ourselves in a 
government shutdown again, would you support my efforts to have 
agreements in place that would immediately open up these parks 
with the support of the States so that we don't find ourselves 
in this situation again?
    Mr. Jarvis. You know, we have talked about this, in that we 
really have set a new bar here by entering into these 
agreements--very simple agreements, frankly--with Colorado, New 
York, South Dakota, Utah. And so we have sort of started the 
new point that if we go into a shutdown we now have the 
template fairly easy to do this.
    Now, I want to mention two things, though. We did set a 
standard, and we worked it out with your Governor and the other 
Governors. One is that the National Park Service would run 
these parks and that the States would pay for the National Park 
Service to operate them. This is the professional staff that 
have been doing this, and we could open them instantly using 
our employees.
    So it was not--I would not support the States themselves 
taking over the national parks. But entering into an agreement 
like this, and then it pays for the entire park operation, not 
just cherry-picking components of parks? Absolutely, I would 
support putting this into policy so that we can execute on it 
very quickly.
    Mr. Stewart. Okay. Thank you. My time has expired. Thank 
you.
    Mr. Hastings. The time of the gentleman has expired.
    I would just note that there probably was a template after 
the 1995-1996, too, that probably should have been followed.
    The chair recognizes the gentlelady from the District of 
Columbia, Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I could not identify more with our witnesses on the effect 
of the shutdown on your local economies. And I think every red-
blooded American would similarly identify with the outrage of 
the residents of your host city, the Nation's capital, who, in 
addition, have seen the shutdown not only of our tourist 
economy, as you have, but Congress is holding $6 billion--that 
is more than four States--collect of local funds, not one penny 
of it Federal funds.
    I thank you, Mr. Chairman, and the Republicans and 
Democrats who voted with us to free the District's local funds. 
We are finally making some headway with the Senate and the 
administration.
    Mr. Jarvis, sitting here in the District of Columbia as a 
third-generation Washingtonian, I cannot bear to hear the 
employees of the Park Service maligned. Yeah, we have trouble 
with our civil servants, but I want to say for the record how 
unfair I think it is for the Republicans to shut down the 
government and then blame the National Park Service. I thank 
you for the way in which you protect our monuments and the 
people who visit our monuments.
    Some of us are still recalling when green paint was 
splattered on the Lincoln Memorial, even though there was no 
shutdown, because of the difficulty of guarding the memorials. 
In 2007, I remember there was a horrific, a horrific incident, 
vandalism as well, on the Vietnam Memorial.
    Is it true that there are about 2,000 cases of vandalism 
every day on the memorials of our country throughout the United 
States?
    Mr. Jarvis. That is correct.
    Ms. Norton. I also can't bear the way in which our veterans 
have been made poster children by my Republican friends, making 
them look as though they are victims.
    My own paper, The Washington Post, carries an article this 
morning about a coalition of 33 veterans organizations--the 
American Legion, all of them. Of course they came to complain 
about the cutoff of their own benefits. But let me read you 
what they said. The executive director of the Iraq and 
Afghanistan Veterans of America: ``Put the country first and 
end this shutdown.'' That is veterans. That is how they talk. 
Not, ``Let us out, and maybe the rest of you will get out 
too.'' They go back for everybody who is victimized.
    Here is another of the speakers. ``Several speakers said 
they oppose measures that would restore funding to VA but not 
to some other parts of the government. 'Fixing a little by 
little is not going to resolve this problem for veterans.''' 
And that was the director of the Veterans of Foreign Wars.
    ``In contrast to some demonstrations over the 2-week 
shutdown, including a protest Sunday during which demonstrators 
pulled down barriers, Tuesday's rally was peaceful and civil in 
tone. No Members of Congress delivered speeches.'' Probably 
because they weren't invited. ``One veteran who held a sign 
blaming Tea Party activists for the shutdown was asked by 
organizers to stand outside of the memorial grounds.''
    That is how veterans respond when everybody is at risk. 
They go back, as the Army veteran who received the Medal of 
Honor yesterday from the President went back to even get his 
dead comrades.
    I want to ask perhaps Mr. Jarvis, perhaps the 
representative from the tourism industry to explain something 
that really alarmed me. Apparently, it is Mr. Simon who said 
that the shutdown will have lasting effects on international 
visitation. Now, of course, our international visits start 
here, but then they hear about all those wonderful sites, 
especially in the far West, and they don't want to go home 
without seeing them.
    Now, my Republican friends say, ``Oh, you know, this will 
blow over, just like a default will blow over.'' Could you tell 
me what you mean by lasting effects----
    Mr. Hastings. Will the gentlelady ask the question, so we 
can get a response very, very quickly? The time has expired.
    Ms. Norton. So will you tell me about lasting effects and 
perhaps what we might do to keep these effects from becoming 
more lasting? Ms. Simon?
    Mr. Hastings. Ms. Simon, very quickly.
    Ms. Simon. Yes.
    We anticipate the--well, let me start by saying the 
national parks is a huge part of what is promoted to 
international visitations through Brand USA, which is our 
Federal marketing arm for tourism. And so we know that the 
international visitors are coming here to see the parks. They 
come into the gateways; they also see the parks generally on 
their first visit.
    So we anticipate there will be lasting effects in terms of 
international visitation, particularly in the fall as they look 
toward next year's trips coming in October and November.
    Mr. Hastings. The time of the gentlelady has expired.
    The chair recognizes the gentleman from Tennessee, Mr. 
Duncan.
    Mr. Duncan of Tennessee. Thank you very much, Mr. Chairman.
    A big part of the Great Smoky Mountains National Park is in 
my district. And, without objection, I would like to place a 
statement by Blount County Mayor Ed Mitchell in the record.
    Mayor Mitchell has been a great leader in trying to find 
ways to open the park back up. And he has asked the Park 
Service to let the county operate the park and has said that 
they could do so just as capably if allowed to do so. Of 
course, they weren't allowed to do so, but now fortunately our 
State has come up with really more money than is necessary to 
open the park back up until Sunday.
    There is a private community in the Smokies called Top of 
the World. Two dozen school children are picked up each day to 
go to school on the school bus. They were picked up the morning 
the government shut down, and then the Park Service closed the 
roads so that the school children could not get back home on 
their school bus after school, which I thought was a very sad 
and needless thing to have done.
    I have said many times that you can never satisfy 
government's appetite for money or land; they always want more. 
Along with more money, they always want more staff. And one 
thing this government slowdown has shown is that the Park 
Service is greatly overstaffed across this Nation.
    Many thousands have visited the World War II Memorial and 
other monuments in spite of the barricades. Hundreds of 
thousands could safely and comfortably visit the Smokies and 
other national parks if the roads were not closed. These 
barricades and closures were obviously done to try to make the 
shutdown as unpopular as possible, as inconvenient as possible, 
and not because it was actually necessary. This is using the 
Park Service for political purposes. This has all shown, as I 
have said, that the Park Service is greatly overstaffed.
    Mr. Ebell has in his statement a quote from a former 
Secretary of the Interior who said, ``The National Park Service 
has a long history of dramatizing budget issues by 
inconveniencing the public. They often choose the most dramatic 
type of action in order to get their message across.'' It is 
unfortunate that the Park Service has allowed itself or 
cooperates--to cooperate in political purposes such as this.
    And there has been some mention here earlier by several 
Members that the Republicans shut down the government. The 
Republicans in the House voted four different times to keep the 
entire government open before anything was shut down, but 
Senator Reid would not allow that to be taken up in the Senate.
    At this time, I yield the remainder of my time to Mr. 
Gohmert.
    Mr. Gohmert. I thank my friend very much.
    Let me mention, Director, because you called somebody 
earlier on hearsay, I am going to give you something that is 
not hearsay.
    I was out there at the World War II Memorial on Tuesday 
morning because Representative Steve Palazzo of Mississippi 
emailed that he had a bunch of World War II veterans that were 
coming by bus and there were barricades that had been put up. I 
get out there. Sure enough, there are barricades on the north 
entrance, the south entrance. And the entrance facing the road 
had barricades across, and it had yellow tape woven in and out. 
They did not intend for anyone to cross that line, First 
Amendment or not.
    So whoever was supposed to get the message out about First 
Amendment protests did not. We went up and down the barricades. 
We talked to the Park Police. And, by the way, on Wednesday, 
when I was out there, I asked a park ranger, how many people 
normally are out here when we are not in shutdown? She said 
four. Now, you could object to hearsay, except it is not 
hearsay. It is not for the evidence of the statement of the 
facts asserted in the statement, but simply that the statement 
was made. So you could say maybe it wasn't four, but whoever 
that park ranger that said they were out there every day seemed 
to think it was four.
    And on Thursday and Friday--I can't remember if it was 
Thursday or Friday--I counted nine Park Service people out 
there to protect the World War II Memorial from our World War 
II veterans. And I can tell you, if Steve Palazzo and I had not 
picked up the barricades, separated them, after establishing 
with the Park Service who we were, those barricades were not 
going to be opened and those World War II veterans were not 
being allowed in, First Amendment or otherwise.
    And that is not hearsay. I was there, and I watched with my 
own eyes, I heard with my own ears.
    I yield back.
    Mr. Hastings.Time of the gentleman has expired.
    The gentleman from Illinois, Mr. Davis, is recognized.
    Mr. Davis. Thank you, Mr. Chairman.
    Mr. Hastings.Turn your microphone----
    Mr. Davis. I thought I did.
    House Republicans have forced the government shutdown on 
the American people. And the testimony provided by some of the 
witnesses today highlights the local economic impact that this 
shutdown has on small towns and businesses that serve employees 
and visitors of our national parks.
    The National Park Service has estimated that the government 
shutdown will result in total economic losses of $76 million 
per day to local communities surrounding national parks.
    Director Jarvis, is that correct?
    Mr. Jarvis. That is correct.
    Mr. Davis. Thank you.
    Mayor Bryan, in your testimony, you stated that your town 
and the small businesses there estimate a loss of more than $1 
million in revenue just during the first 7 days of the 
shutdown. Is that correct?
    Mr. Bryan. Yes, sir, it is.
    Mr. Davis. In fact, one estimate found that Arizona will 
have the third-largest economic impact of national park 
closures, amounting to almost $5 million a day.
    Marie Lopez Rogers, the current president of the National 
League of Cities, penned an op-ed titled: ``Federal Shutdown 
Has Dire Impact on Local Governments,'' which describes some of 
the practical impacts of the shutdown on residents and 
communities around the country.
    Ms. Lopez Rogers wrote: ``The antics in Washington are 
threatening to unravel the progress our cities have made over 
the last few months and cause harm to the entire Nation. It is 
a reckless approach to governing.'' She went on to say, again, 
that: ``every day the government is shut down is another day of 
economic uncertainty. We need to focus on what matters to our 
communities, our neighborhoods, and our residents.''
    Director Jarvis, I have heard people indicate that somehow 
or another you did not provide the sensitivity that was 
necessary as you made some decisions. Do you contend and are 
you concerned about the impact of shutdown on businesses and 
communities surrounding national parks?
    Mr. Jarvis. Yes, sir, I am very concerned about that.
    Immediately upon the closure, we opened lines of 
communication with our concessioners in particular. These are 
the private-sector businesses that operate food, beverage, and 
lodging within the parks--the National Hospitality Association. 
I even conducted a conference call with the CEOs and leaders of 
those organizations that first week to really begin to convey 
our concerns and talk about what we can do for them after the 
shutdown is over and what we can do in between.
    And as a result of those conversations, we really began 
to--I mean, on Wednesday of the first week, I contacted the 
people that were involved in 1995 in the agreement with the 
Grand Canyon to understand how that was negotiated. We even 
tracked down the former attorneys that negotiated that, as 
well, so that we would have the information to build a--you 
know, 20 years later, new rules and regulations and all of 
that, the very small staff--how we could get these things back 
open so that we could reduce the impact to the tourism 
industry, which we rely upon.
    Mr. Davis. Thank you very much. I commend you for your 40 
years of service to the Park Service.
    And I have no further questions, and I yield back.
    Mr. Hastings. The gentleman yields back his time.
    The gentleman from Texas, Mr. Gohmert, is recognized.
    Mr. Gohmert. Thank you, Mr. Chairman.
    Director Jarvis, I am just curious, the philosophy that you 
have as Director of the Park Service. Do you believe our rights 
come from our creator or from our government and Constitution?
    Mr. Jarvis. I believe they come from all of the above.
    Mr. Gohmert. Well, check your Constitution. It is a 
Constitution that prohibits activities by the government, not 
gives them--give them rights. The Declaration of Independence 
established what our Founders believed where our rights came 
from.
    But, Ms. Eberly, what has happened to you is pretty 
outrageous. You have heard all of the insults thrown out today 
about the shutdown. And I am curious, were you notified before 
October 1st, that Tuesday, that you might be closed, even 
though you had been operating totally independent and you had 
saved the farm because of your efforts in your 32 years as 
director? When were you notified you were being shut down?
    Ms. Eberly. I had a phone call on my cell phone from the 
superintendant Monday late morning, and I returned it early 
afternoon. I was out of town.
    Mr. Gohmert. Okay. And what were told in that conversation?
    Ms. Eberly. We were told, or I was told that the farm was 
going to be part of the shutdown. And I said, but we have never 
been part of other shutdowns. And he said, well, it will be 
illegal for you to open the farm, and if you do, then you risk 
arrest. And only one employee, only one private employee, will 
be allowed in to feed the animals.
    Mr. Gohmert. How many National Park Service employees are 
at your farm each day?
    Ms. Eberly. None. Not since 1981 when we were----
    Mr. Gohmert. No, now, wait a minute. We have heard about 
the law being that, in a shutdown, you have to revert to 
minimum manpower unless there is a specific threat. Are you 
aware of any threats that were emanating from the Claude Moore 
Farm on September 30th or October 1st?
    Ms. Eberly. No. We are pretty low-key. Not only that, but 
our next-door neighbor is the CIA, so they pretty much take 
care of any threats that might come along.
    Mr. Gohmert. So you are not worried the CIA is a threat to 
the Claude Moore Farm, apparently.
    Ms. Eberly. Nope. They are our best friends.
    Mr. Gohmert. How about--I read that the McLean Chamber of 
Commerce had paid a bunch of money to use the farm on October 
1st in the evening for a gathering. Were there any indications 
that the McLean Chamber of Commerce was a threat to your farm?
    Ms. Eberly. No.
    Mr. Gohmert. Have they ever been a threat to your farm? I 
mean, chambers can be pretty rowdy.
    Ms. Eberly. Yeah, they can.
    Mr. Gohmert. But----
    Ms. Eberly. This one is pretty okay. And we belong, so.
    Mr. Gohmert. All right. So what happened on Tuesday?
    Ms. Eberly. Tuesday, the employees came in as normal 
because we decided we weren't going to leave the farm 
unprotected. And I had asked for this decision in writing, 
because we had received nothing in writing, and so the 
superintendant emailed me a statement about 3:30 on Monday. And 
we appealed that, thinking that we could get it changed, 
thinking that this was just sort of a booboo.
    And then about 2 o'clock on Tuesday we got a phone call 
saying, no, absolutely no. And then Park Police showed up and 
made the Chamber members and all the people setting up for the 
event leave.
    Mr. Gohmert. On Monday, when you returned the call of the 
superintendant from the Park Service, did they say your park 
might be closed, to be on alert, or what did they say?
    Ms. Eberly. They said, if the government shuts down, then 
we would be a part of the shutdown, and that they had been--
they had had this plan in place since Thursday. But that was 
the first notice we had received.
    Mr. Gohmert. All right. And so, did you happen to notice 
how many Park Service Police came out to run off the McLean 
Chamber of Commerce and put up barricades?
    Ms. Eberly. You know, I wasn't there.
    Mr. Gohmert. Okay. Do you know where the barricades came 
from?
    Ms. Eberly. They brought them. Not the Park Police. The 
park maintenance crews brought them.
    Mr. Gohmert. The park maintenance crew brought them. Have 
you ever had park maintenance crews out there since you became 
an independent-operated park or farm?
    Ms. Eberly. Oh, yeah. I mean, early on, the parkway 
maintenance crews were very helpful to me----
    Mr. Gohmert. ``Early on'' being when?
    Ms. Eberly. In 1981.
    Mr. Gohmert. Okay, but in the last 13 years, have there 
ever been any park maintenance service people come out to your 
farm?
    Ms. Eberly. To perform maintenance?
    Mr. Gohmert. To do anything.
    Ms. Eberly. I think a broken waterline, but that was 
probably about 9 years ago, maybe.
    Mr. Gohmert. All right. Mr.--thank you. My time has 
expired, but----
    Mr. Hastings. The time of the gentleman has expired.
    Mr. Gohmert. --I would note for the chairman that the law 
was violated by the Park Service in sending police and 
maintenance personnel out to the park.
    Mr. Hastings. To the extent this is being recorded, that is 
part of the record.
    The gentlelady from Guam, Ms. Bordallo, is recognized.
    Ms. Bordallo. Thank you, Mr. Chairman.
    And I, too, would like to commend Mr. Jarvis for his long 
many, many years of service to the National Park Service, and 
also to all of the witnesses here.
    Mr. Jarvis, the shutdown was the final hit to the national 
parks after years of cuts in your budget--and I think you 
mentioned this earlier in your testimony--and to your 
operations and construction accounts. Can you speak about how 
the cuts in funding over the last several years have impacted 
your organization?
    Mr. Jarvis. In a number of ways they have impacted us.
    In terms of our facilities, we are in steady decline. Most 
of the facilities in many of our classic national parks were 
built 50, 75 years ago--water systems, wastewater systems, 
roads, and the like. So we now have an $11 billion maintenance 
backlog that is declining. We receive less than half of what we 
would need in order to just maintain that.
    On the other side is our ranger staff, those that provide 
interpretation, visitor protection; has also been in decline. 
And so we are not capable of providing the level of visitor 
service that really the public expects and deserves.
    Ms. Bordallo. Thank you.
    As the National Park Service gears up for its 100 years in 
2016, what do the continued cuts mean to the future of the 
National Park Service? What are you--I am sure it must be very 
impactful.
    Mr. Jarvis. Well, a couple things that we are working on.
    One is to develop as many partnerships with States, with 
nonprofit organizations, with the tourism associations, to 
assist us in providing these places. We cannot do it alone. 
Increasing our volunteer workforce, increasing philanthropy, 
leveraging what dollars that we have, both appropriated and 
non-appropriated, such as our fee dollars, all of those--we are 
looking at as many opportunities as possible. There has been a 
hearing in the Senate on a variety of ways we can find 
additional funding for the National Park Service leading up to 
the centennial.
    We are also working with the National Tour Association, the 
Hospitality Association, and Brand USA on a major marketing 
campaign for 2016. We feel that the national parks are an 
integral part of this American economy as well as standing for 
really the best of this country. And we believe the centennial 
is a huge opportunity to remind all Americans of their national 
parks as well as draw tourism from around the world.
    Ms. Bordallo. Thank you, Director Jarvis. It is commendable 
that you are thinking ahead and you are looking into all these 
possibilities to continue on.
    Now, what is the impact with your employees, I mean, the 
overall morale and so forth of those still on duty and those 
that you had to furlough?
    Mr. Jarvis. This is extremely----
    Ms. Bordallo. I know a couple of my colleagues----
    Mr. Jarvis. This is extremely--and thank you for this 
question, because it is extremely painful to the employees that 
are on furlough. They want to work. They want to be bark in the 
parks. They want to be greeting the American public. And--along 
with the rest of the Federal Government.
    For the employees that are on duty, this is extremely 
difficult. You know, our rangers, our U.S. Park Police are 
accustomed to welcoming the public. We are, I think, the only 
Federal agency that has enjoyment in its mandate. It is a part 
of our mission to provide these places so that the public can 
enjoy them unimpaired for future generations. And right now we 
are having to turn people away because of the shutdown and the 
lapse of appropriations, and that is very, very difficult.
    Now, I have instructed, in spite of what you are hearing 
here today, I have instructed my law enforcement folks to take 
a very low-key approach to enforcement at the park level, to 
not confront, to stand back and just inform the American public 
that these places are closed.
    Ms. Bordallo. Uh-huh.
    Mr. Jarvis. And, as a consequence, there have been very, 
very few citations across the country. It has mostly been a 
respectful reminder to the American public when they come, 
obviously with their disappointment. It is, again, 
extraordinarily difficult and painful for us to have to deliver 
of message. And we hope that this will end very soon and we can 
open all----
    Ms. Bordallo. And with the few seconds I have left, Mr. 
Jarvis, I do suppose the ones that are not furloughed feel sort 
of guilty with other colleagues that had to be furloughed that 
they are still on and the others have been, you know, 
furloughed. So I can imagine it must be a morale problem, as 
well, in the agency.
    And I thank you very much again for your service.
    And I yield back my time.
    Chairman Issa. [presiding.] The gentlelady yields back.
    We now go the gentleman from Colorado. But prior to that, I 
am going to ask unanimous consent so that it be in the record 
for later discussion--and we will have a copy of it given to 
the Director. This is the donation agreement for the National 
Park Service from the State of Oregon--I am sorry, from the 
State of Arizona back in the 1990s. And it details what the 
chairman said was a template.
    I might note that, instead of $96,000 a day, it was $17,000 
a day. So after you get a copy of it, I hope you can explain 
the inflation rate over this period of time.
    The gentleman from Colorado.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Mr. Jarvis, this is painful for me because I do love and 
support and appreciate the national park system. And to see 
what you have done really pains me, and to have to have this 
conversation. I have been to over 200 units of the National 
Park Service--like I said, I love the parks--many of those 
visits with my wife and children.
    And yet, when I was at the World War II Memorial the second 
day of the slowdown and I helped moved the barricades because 
those World War II veterans should not have been denied their 
access, it was so reprehensible.
    I talked to one gentleman there who was in a wheelchair. I 
asked him how old he was; he was 97 years old. And he had 
fought in the Pacific theater in World War II in Guadalcanal, 
among other places. And yet he wasn't being allowed, had those 
barricades stood, he wasn't being allowed to touch or see the 
plaques where the fallen are memorialized, his buddies. My own 
father couldn't ever make it out there. He turned 93 years old 
before he died, but he was never in good enough health to go 
out there.
    And so it was wrong, what you did. This decision of yours 
was not good. It was not good for the American people, and it 
is not good for the park system either. Like I say, I 
appreciate the park system, and yet I think you have besmirched 
its reputation and you have soured its relationship with 
Congress. And, in my opinion, sir, you have failed and you are 
a liability to the National Park Service.
    I do have a couple of questions I would like to ask you 
about.
    Whose decision was it to try to shut down Mount Vernon? 
Mount Vernon is privately owned and operated. I know there is 
some parking off to the side that you have responsibility for. 
Was that your decision also, to try to shut down Mount Vernon?
    Mr. Jarvis. I think you are incorrect in that regard. We 
did not try to shut down Mount Vernon. We barricaded one 
parking lot that belongs to the National Park Service. And that 
was done in execution of the closure order for all 401 national 
parks. That parking lot is part of the George Washington 
Memorial Parkway. It did not block the use of Mount Vernon.
    Mr. Lamborn. Well, if people can't park there, I don't know 
how they can access----
    Mr. Jarvis. There are many parking lots at Mount Vernon. 
This is just one.
    Mr. Lamborn. Was that your decision, though?
    Mr. Jarvis. I was not involved in that decision directly, 
no, sir.
    Mr. Lamborn. I would like to ask about reimbursement to the 
States. My own State of Colorado is one of the four or so 
States that have talked with the National Park Service about 
paying for continuing the Park Service until this government 
slowdown is over.
    Will States like Colorado be fully reimbursed for their 
expenses that they are incurring right now?
    Mr. Jarvis. Not unless Congress authorizes it.
    Mr. Lamborn. The document that Chairman Issa just had 
introduced into the record shows--this is from 1995-1996--that 
the pattern was, in the past, that States would be reimbursed.
    If they are paying for things like salaries of park 
rangers, maintenance, law enforcement, and so on, then those 
people don't have to be reimbursed later by you because that 
would be--I am assuming they wouldn't get twice their salary. I 
assume they only get paid once. So when you get reimbursed, 
that is a windfall to you if you don't reimburse the States.
    Mr. Jarvis. Well, here is the way it actually works. So the 
States are depositing a set amount that we negotiate with the 
Governors into the Treasury, and as soon as we open the parks, 
we are charging against that account. So that account is drawn 
down.
    Now, if the shutdown ends before we expend all of that 
money, then whatever is remaining absolutely will be 
immediately returned to the States. But for the money that is 
charged against, I have no authority than to take Federal 
dollars that, once reimbursed when the shutdown ends, and give 
that to the States unless directly authorized by Congress. 
Which I would support, by the way, but I don't have that 
authority just outright.
    Mr. Lamborn. So, at this point in time, you are not 
pledging to reimburse the States.
    Mr. Jarvis. No. We made it very clear in each of these 
agreements and very clear in the agreement that was negotiated 
that there is no guarantee that they are going to get this 
money back. It would only be if Congress were to authorize it.
    Mr. Lamborn. Well, I think you should have to be 
responsible for that.
    Thank you, Mr. Chairman. I yield back.
    Chairman Issa. I thank the gentleman.
    I might note for the record that in every case of shutdowns 
all Federal employees have been paid and these types of debts 
have been paid. So there is a high expectation, even without a 
contract.
    We now to the gentleman from Virginia for his round of 
questions. Mr. Connolly?
    Mr. Connolly. Thank you, Mr. Chairman.
    And welcome to the panel.
    Ms. Eberly, I have been to the Claude Moore Farm many 
times, and thank you for running such a beautiful spot in our 
community.
    By the way, the land on which the Claude Moore Colonial 
Farm is located, is that federally owned or is that privately 
owned?
    Ms. Eberly. Federally owned.
    Mr. Connolly. Federally owned.
    Ms. Eberly. Uh-huh. It is a former landfill.
    Mr. Connolly. Okay. So could it be that Director Jarvis, 
looking at the Antideficiency Act and trying to figure out what 
is covered and what isn't, looks at a place like Claude Moore, 
federally-owned land--you manage it, but it is federally 
owned--and it gets a subsidy of $100,000 a year, apparently 
down to $92,000 this year because of sequestration and down to 
zero next year because of budget cuts, that he might have just 
included that in, sort of, the larger penumbra of the 
Antideficiency Act and things he might have to decide? Could 
that be an explanation?
    Ms. Eberly. I was told by the superintendant that it was 
entirely his decision, that he had----
    Mr. Connolly. Which superintendant?
    Ms. Eberly. The parkway superintendant.
    Mr. Connolly. The parkway superintendant.
    Ms. Eberly. Uh-huh. And he had decided to leave open the 
Memorial Bridge and the George Washington Memorial Parkway.
    Mr. Connolly. And from your point of view--well, you 
obviously didn't like the decision; none of us did. But it was 
also a matter of communication. Explaining the rationale was 
not very consistent, from your point of view.
    Ms. Eberly. We have never gotten an explanation.
    Mr. Connolly. Okay.
    Director Jarvis----
    Ms. Eberly. Because now we are open.
    Mr. Connolly. Director Jarvis, I would like you to address 
that in a second. But you have, you said, 401 national parks; 
is that correct?
    Mr. Jarvis. That is correct.
    Mr. Connolly. Would Claude Moore and, say, the Mount Vernon 
parking lot be included in that number? Or are they, because 
they are sort of hybrids, are they over and above the 401?
    Mr. Jarvis. No, they are components of those 401. There are 
literally hundreds and hundreds of similar situations as to the 
Claude Moore Farm within those 401.
    Mr. Connolly. Okay. And you were advised presumably by your 
ethics office or by your attorneys when you go about to 
organize for the shutdown in anticipation of the shutdown that 
you are going to have to make thousands of discrete decisions 
in a very collapsed timeframe. And you are concerned about 
complying both with the law, that is to say the shutdown, and 
with the Antideficiency Act. Is that correct?
    Mr. Jarvis. That is correct.
    Mr. Connolly. Would you remind us what the Antideficiency 
Act is and does?
    Mr. Jarvis. Essentially, it is a statute that prohibits 
doing work for which there is no Federal appropriation, except 
for the limitations on protection of life and property.
    And so, in the case of Claude Moore, if I may, the Claude 
Moore Farm has since 2001 received $1.3 million of Federal 
appropriations from the National Park Service. We recently 
spent several hundred thousand dollars repairing their sewer 
system. We do ongoing food and safety inspections, trash 
removal, and road maintenance.
    So we had to evaluate, in the case of Claude Moore, in the 
case of dozens of these, of whether or not we would be in 
violation of the Antideficiency Act by allowing these to 
continue to operate. And so, if you may, let me just say, we 
took the closure date on October 1, and then we began to 
evaluate each of these operations individually to ensure that 
we were not violating. And those that we felt we could honestly 
and clearly and legally reopen, we have done that.
    Mr. Connolly. By the way, I have a limited amount of time 
left, but I want to say, at least speaking for this Member, I 
just heard my colleague from Colorado make some rather strong 
statements about you and your service. I completely disavow 
those comments. I think you have been an exemplary public 
servant. I think you have done the best you could under very 
trying circumstances.
    I think you have put up with some criticism because some--
no one here, of course--want to deflect public attention from 
their own actions, namely, the consequences of a shutdown. But 
to trash somebody's good reputation, who has served his country 
well as a labor of love as well as your professional commitment 
to the national parks and making them the best they can be, I 
just want you to know there are many of us here and many 
throughout the country who very much value your service and 
deeply regret any suggestions that somehow you are responsible 
for the shutdown and the consequences.
    Mr. Hastings. Will the gentleman yield?
    Mr. Connolly. I have 7 seconds, Mr. Chairman, but I would 
be glad to yield.
    Mr. Hastings. Well, I just want to point out--and I thank 
the gentleman for yielding. Real quickly, I just understand 
that the Antideficiency Act goes back to the 1860s, and yet it 
was not employed in 1995 for whatever reason. And I just 
thought for the record that ought to be----
    Mr. Connolly. Mr. Chairman, could I at least ask----
    Chairman Issa. You can have your 6 seconds.
    Mr. Connolly. Thank you.
    Mr. Galvin, is that true or not?
    Mr. Galvin. It is not true. The Antideficiency Act ruled 
the shutdown in 1995-1996, the same way it does now.
    Chairman Issa. I thank the gentleman.
    I will now recognize myself.
    Director Jarvis, do you remember April of this year coming 
before one of these committees, the Oversight Committee?
    Mr. Jarvis. Yes, sir.
    Chairman Issa. And between April 16th and October 1st, you 
were not shut down, you had the ability to operate fully; is 
that correct?
    Mr. Jarvis. That is correct.
    Chairman Issa. So for those many months after you promised 
to deliver us the discovery, including 400 pages previously 
identified before that hearing, and didn't do so, you did so 
out of contempt for your promise to this committee?
    Mr. Jarvis. I----
    Chairman Issa. Or was it just an oversight? Do you just not 
know that you promised to deliver documents related to 
discovery and you don't do it?
    Mr. Jarvis. No, sir. Those decisions are made by the 
Department of the Interior. I----
    Chairman Issa. Well, I am going to take that decision away 
from you. I will be issuing a subpoena to you before the close 
of this hearing, and I will expect, as soon as the government 
reopens, for you to comply with it.
    Additionally, I am going to ask our clerks to go through 
the record and find each and every document and request made 
during this hearing and again issue a subpoena. Since it is 
very clear that the promises you make have no value because 
someone in the Department of Interior simply doesn't bother to 
deliver documents already known. And those documents are 
related to our accusation of prior abuse under sequestration.
    So Mr. Connolly may want to say you are exemplary. I find 
it questionable.
    Let me ask you a very simple question I started this 
hearing with: Whose land is it? Is it your land? Is it the 
government land? Or do you oversee the people's land? And, 
please, think before you answer.
    Mr. Jarvis. It is the people's land.
    Chairman Issa. If it is the people's land, then don't you 
have an obligation to absolutely, positively mitigate to the 
greatest extent possible the adverse effects on people?
    Mr. Jarvis. I operate under the----
    Chairman Issa. No, no.
    Mr. Jarvis. --law passed----
    Chairman Issa. I know. Don't tell me about the law. Do you 
have an obligation--you are restrained by laws, but do you have 
an obligation to deliver to the best of your ability with the 
limited funds you may or may not have?
    Mr. Jarvis. I absolutely do.
    Chairman Issa. Then, in the case of Ms. Eberly, isn't it 
true that, in fact, every day her organization saves the 
American people money they would otherwise spend to operate 
that park or the park would be gone? Isn't that true?
    You kept talking about the million dollars you delivered. 
She delivered twice, three times, four times that in value, 
through volunteers, through fundraising. Isn't that true?
    Mr. Jarvis. Absolutely. We love our partners.
    Chairman Issa. Okay. So here is your public-private 
partner, and you shut her down and cost her far more than any 
potential savings. You spent money to barricade so that she, in 
fact, couldn't operate, and you did so without prior notice.
    And let me ask you an important question. What was the 
first day in your job--you talked about 2016 and what you are 
anticipating and who you are working with. What was the first 
day you began asking the question over the last year--we will 
just use 2013--what do I do in the case of a shutdown related 
to a lack of appropriations? What was the first day?
    Mr. Jarvis. Well, we were facing a potential shutdown in 
2011 when the----
    Chairman Issa. Okay. So, since 2011, your testimony is 
that, in fact, you have known there was a potential for a 
shutdown.
    Mr. Jarvis. That is correct.
    Chairman Issa. You were with the Park Service and you were 
aware of the agreement made with Arizona in 1996. You were 
aware, could have been aware, of course, Ms. Eberly was not 
shut down back then.
    You were aware that, contrary to what was shown in an 
earlier picture, that, in fact, the Lincoln Memorial was not 
closed, as that picture falsely shows, at some earlier 
barricade. This is a repair period of time. It may, in fact, be 
an actual picture. But the pictures we have seen show that 
people walked up. This barricade was not, in fact, keeping 
people from going. People went all the way up.
    You will notice the--Mr. DeFazio, you will notice the 
construction.
    This picture is also from that period and shows people 
actually being seen, with the sign up there, going there.
    The fact is you had a history and a tradition. Why did you 
not make the effort and the contacts to find out how to 
mitigate? Why did you not talk to the mayor's people or 
representatives? Why was there not an attempt to see what they 
could do to mitigate it? Why were those contracts not dusted 
off in preparation? Why didn't you do anything to mitigate this 
whenever possible?
    And why did you cause Ms. Eberly to sit there and lose 
money and perhaps her organization go into an inability to 
maintain it when, in fact, you know and I know that that road 
maintenance is being deferred whether she is open or closed? 
Isn't that true?
    Mr. Jarvis. I immediately upon the closure began to look at 
the documents from the Grand Canyon----
    Chairman Issa. Okay, yes, that is a great answer. And my 
time is expiring.
    You waited till after October 1st and then began--after you 
asserted pain on people through a lack of planning, you began 
planning, so that a week, 2 weeks, 3 weeks after you had made 
your point, you had made your point that you could punish the 
American people by shutting down and taking away assets they 
cared about, then you began, because of public opinion, opening 
back up.
    For the record, isn't it true that everything you have done 
to reopen could have been anticipated and done in advance? In 
other words, if you can reopen her parking lot, then, in fact, 
you had the authority never to close it. Isn't that true?
    Mr. Jarvis. We did not have----
    Chairman Issa. The 1860s law didn't change----
    Mr. Jarvis. In all due respect----
    Chairman Issa. --so isn't it true----
    Mr. Jarvis. In all due respect, the National Park Service 
is a very big, complex organization. I did not know about 
Claude Moore any more than the dozens of others out there. I 
rely on my field representatives, my superintendents to tell 
me.
    And so what we had to do is we shut it down in compliance 
with the lapse of appropriation and then immediately began 
assessing which ones we could reopen. And we did that with that 
Claude Moore. I have over a dozen here more that we have 
reopened, as well as----
    Chairman Issa. Yeah, the Grand Canyon is, you know, kind of 
hard, it gets overlooked, you didn't see it, you know. And we 
all know that terrorists are going to go in and blow up the 
Grand Canyon, too. So, you know, the fact that you overlooked 
the Grand Canyon is not credible.
    We go to the gentlelady from Massachusetts now for her 
questions, Ms. Tsongas.
    Ms. Tsongas. Thank you.
    And thank you, Mr. Jarvis, for being here.
    You know, as I said in my early comments, I do have two 
national parks. They really do commemorate--one commemorates 
the American Revolution; the other commemorates the Industrial 
Revolution. The communities that host these national parks take 
such pride in all the great work you do and the tremendous 
leadership you have brought, the high standards you create. And 
we as an American people, I think, are proud of those standards 
and hate to see anything happen that undermines them, as the 
sequester is certainly doing and as shutting down the 
government is doing.
    But I want to address first the whole issue of our 
veterans' access to the World War II Memorial. My father was a 
survivor of Pearl Harbor. He went on to serve across the South 
Pacific. He is no longer living, but I can't imagine that he 
would not be so dismayed by the circus that has been created 
around the access issue to the memorial.
    And I happened to be in the airport when an Honor Flight 
group was coming from Arkansas. It was a very celebratory 
moment. These were older, older men who were so proud of their 
service to this country, and it was a touching thing to be near 
them.
    I just want to reference that Politico today reports that, 
despite my Republican colleague attempts to turn the World War 
II Memorial into the government shutdown's poster child: 
``Veterans streaming into Washington to see the monument don't 
really face any obstacles in their visits. And many complain 
that they are being used for political gain.''
    Jim McLaughlin, a lead organizer for the Honor Flight 
Network told Politico: ``We have had no problems at all.'' He 
said the Park Service has been: ``very cooperative and very 
polite,'' in allowing veterans groups to visit under the 
auspices that they are conducting: ``First Amendment 
activities.''
    Director Jarvis, veterans have been able to visit the World 
War II Memorial, haven't they?
    Mr. Jarvis. Yes, ma'am, they have.
    Ms. Tsongas. Thank you.
    I would also like to go back to the issue--and I thank you, 
Ms. Simon, for your testimony. Are we really surprised that the 
government shutdown would have an impact on our gateway 
communities, on our tourism industry? Isn't it just something 
one could have foreseen?
    Ms. Simon. I don't think the fact that there was an impact 
was a surprise. No, I think everyone anticipated it. It was 
really not knowing what to expect come the first day of the 
shutdown.
    Ms. Tsongas. And that is why it is such a dismaying 
activity, given that it could have been avoided. A bill could 
have been brought to the floor that would have Democratic 
support, the Senate bill that was passed by the Senate on a 
bipartisan basis, brought to the floor of the House of 
Representatives, supported by Democrats, supported by 
Republicans, and it would have avoided this altogether.
    The national parks are where a lot of the discussion has 
gone because they are very visible to the American people, and 
it is happening at a moment in time when visitation has 
historically been very high. But I don't think we can overlook 
all the other people and all the other institutions that have 
been so impacted.
    Last week, I had a heart-wrenching conversation with a 
nurse at a military installation in my district who is 
furloughed because of the Republican shutdown. As a Federal 
contract employee, she is terrified that she won't be able to 
recover her lost pay, putting her family at financial risk. 
``We are the ones suffering,'' she told me. ``We are 
hardworking Americans working paycheck to paycheck. Something 
like this can destroy us.''
    We have to remember the servicemembers who have returned 
from combat duty who may lose their college tuition assistance 
that they have been promised. Clinical trials for cancer 
patients have been delayed, and veterans are being told that 
they will have to wait even longer to have their benefit claims 
reviewed.
    And, yes, it is so unfortunate that our national parks, 
some of our Nation's most treasured sites, are closed to the 
public. But that is what happens when the Federal Government 
shuts down. We need to end this and end it today.
    Thank you, and I yield back the balance of my time.
    Chairman Issa. The gentlelady yields back.
    We now go to the gentleman from Michigan, Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chairman.
    And thanks to the panel for being here.
    I certainly agree with one of my colleagues who mentioned 
earlier, on the other side of the aisle, that we live in a 
parallel universe--a parallel universe of fact and of fiction.
    Five years of government by crisis has been taking place, 
beginning with the first 2 years of this administration when 
the Democrats controlled the White House, the Senate, and the 
House. A budget wasn't passed either of those 2 years. 
Continuing resolutions. Continuing resolutions certainly work 
toward crisis, don't they?
    And now we have come to a big crisis where the Democrats' 
shutdown of this government has taken place. Now, they would 
call it something else, and they have been effective with the 
use of pawns in the media and pawns, sadly, in the bureaucracy, 
Mr. Jarvis, of making pain on the American public.
    But I am concerned more about the pain that has been put on 
the private-sector economy--Mayor Bryan, Ms. Eberly, tourist 
associations. This was knowingly done. I am concerned about the 
pain that will be coming even worse for Mayor Bryan and Ms. 
Eberly and other private concessioners when Obamacare has its 
full results and we have a part-time economy, not a full-time 
economy.
    Because then it won't be a shutdown that stops people from 
visiting these wonderful sites that, Director Jarvis, I visited 
when I was just a kid that led me in 1969 to go to Western 
Illinois University and major in forestry and land management. 
Over 40 years ago, my intentions were to be in the service that 
you are in. And since that time, I have visited parks all over 
this country in 50 States, and I still do with my grandkids.
    But in the future, they won't have that opportunity because 
of a economy that has gone to a part-time economy. And our 
people, maybe not foreigners, which we hope continue to come, 
but our people won't be able to afford to go to see that 
magnificent Grand Canyon that I saw as a boy and as a teenager 
and as a college student and as a father.
    I am sick of hearing of this shutdown called anything other 
than a Democrat shutdown. We have offered four bills to fund 
the entire government, rejected by the Senate-controlled 
Senate. We have offered now 15 bills to open up necessary 
components of government--oh, and by the way, one of those was 
the Park Service and the monuments, one of those was the 
Veterans Administration, WIC, and I could go on down the line--
rejected in the Senate, supported in a bipartisan fashion in 
the House. Where is the problem?
    Let me ask a question. Ms. Eberly, I heard you interviewed 
on TV, I think, after the first week. I appreciated your spunk. 
What has this cost you, or cost the Claude--the Colonial Farm?
    Ms. Eberly. So far, probably about $30,000, I guess. That 
probably doesn't seem like very much money down here, but to us 
it is.
    Mr. Walberg. To you it does. Twenty thousand when I first 
heard you, so it has gone up $10,000 more.
    My brother, without me, took a motorcycle trip along the 
Blue Ridge Parkway just a few weeks--well, the week before the 
shutdown, had dinner at the Pisgah Inn. I have been there 
myself. Beautiful part of the world. A week later, it shut 
down, a private concessionary making money for the U.S. Park 
Service.
    Let me ask a question, Director Jarvis. What does the Park 
Service think will happen if they don't close private 
businesses?
    Mr. Jarvis. Private businesses that are both within and 
outside the national parks are essential to public service. I 
mean, that is--so we have Pisgah Inn, Peaks of Otter, Northwest 
Trading Post, Folk Art Center, and the Mabry Mill are all open 
as a result of the policy change I made to get them open along 
the Blue Ridge----
    Mr. Walberg. How many others are closed still?
    Mr. Jarvis. I don't really know. But I have opened over a 
dozen--Cliff House, the Avon Pier at Cape Hatteras, a number of 
these--that really do not require our support and do not 
violate the Antideficiency Act.
    Mr. Walberg. And hundreds are still closed.
    Mr. Jarvis. I have opened the window for anybody to 
request, and we are evaluating each one of those requests.
    Mr. Walberg. Well, let me just--because my time is 9 
seconds here. And I would refer to you as well as Mr. Galvin.
    1995, we had a shutdown. 1995 to the present, Mr. Galvin, 
we had the opportunity to put in place for--that large 
government entity called the Park Service to put in plans so 
this type of thing wouldn't happen. You say it is large and it 
takes a lot of effort. Well, it sure does. But why wasn't it 
taken care of between 1995 and now? I contend it was because we 
wanted to inflict pain upon the taxpayer, the citizen, to make 
them go along with policies that will ultimately make it more 
problem for Mayor Bryan, Ms. Eberly, and others.
    And I yield back.
    Chairman Issa. I thank the gentleman.
    I now ask unanimous consent to place in the record a letter 
dated March 27th, 2013, to Mr. Jarvis concerning the oversight 
discovery responsibilities and request, and then the response 
dated April 19th, 2013, from your bosses at the United States 
Department of the Interior in which they promised that they 
were diligently working on the discovery that we have never 
received.
    We now go to the gentleman from Nevada for 5 minutes.
    Mr. Horsford. Thank you.
    Our national parks belong to the American people and they 
should be open, along with every other essential part of the 
government. I have twice met with Honor Flights this month that 
brought our veterans to see the World War II Memorial. For 
some, this was a once-in-a-lifetime opportunity, and it was an 
honor to shake the hands of these service members. Their 
service should not be politicized, and they should not be used 
as pawns.
    Our Nevada veterans were not stopped by barricades. In 
fact, they were warmly greeted and welcomed by park rangers, 
allowing access to the memorial for First Amendment activities. 
And I'd like to thank the Park Service rangers for their 
courtesies.
    You know, half the truth is often a whole lie, and I'm 
sorry that the Representative from Texas is not here, because 
one of the days that I was there, he was there, and for him to 
say that those veterans were turned away or that the park 
rangers treated them with disrespect is not the case.
    Now, I represent Nevada's Fourth Congressional District, 
and we are home to several national parks, including the 
national--the Lake Mead National Recreation Area, which is the 
fourth most visited unit in the National Park System of over 
400. National parks are a vital part of our tourism industry 
and our economic base.
    In between votes on last Saturday and Monday, I was able to 
go back home to my district to meet with my constituents, and 
during one of our town halls, the former Superintendent of the 
Lake Mead National Recreation Area came, and this is what he 
told me. First, the blame should not be placed on the National 
Park Service or the individual park, but clearly on the 
shoulders of Congress that caused the shutdown in the first 
place. The last thing the National Park Service wants to see is 
our precious parks closed to the American public.
    He went on to share that since the closure, the park has 
already had to cancel 7 events, with an expected participation 
of 1,925 participants, and there are several additional events 
in the next 2 weeks with over 10,000 expected participants, 
having an effect on our local economy, on jobs and on tourism.
    So, Mr. Chairman, I ask for unanimous consent at this time 
to enter Mr. O'Neill's entire statement into the record.
    Chairman Issa. Without objection, so ordered.
    Mr. Horsford. Thank you.
    Director Jarvis, thank you for your service. Do you agree 
with Mr. O'Neill's statement that the Park Service 
professionals would like to do their job and open the parks to 
the public?
    Mr. Jarvis. There's nothing on this planet that we would 
prefer to do than to get back to work and reopen all 401 
national parks.
    Mr. Horsford. Ms. Simon, I talked about some of the impacts 
to local communities surrounding national parks like Lake Mead. 
Can you share other impacts that you've experienced and how 
it's affecting the private sector?
    Ms. Simon. Yes. Just in the first week, we surveyed all of 
our members, and our tour operators reported collective losses 
estimated at $114 million just in that first week. So, you 
know, projecting that out in terms of what they have 
experienced so far as well as what they're continuing to 
experience, because they're having to reroute tours without an 
end date in sight, they're having to reroute tours on into the 
future and will be experiencing, you know, financial 
implications to having to find alternatives to those tours.
    Mr. Horsford. Thank you.
    Mr. Chairman, let me just close by saying one of my 
colleagues on the other side said something about Director 
Jarvis' failure to do his job. Well, if Director Jarvis or any 
of the other public service professionals have failed for 
having to carry out the shutdown, then what does that say about 
the Republican Members who caused the shutdown in the first 
place?
    Mr. Hastings. [Presiding.] The gentleman yields back his 
time.
    The gentleman from Virginia Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    I have the honor to represent America's First District in 
Virginia, which includes Jamestown, Yorktown, Williamsburg, and 
also the historic battlefields there in Fredericksburg, 
Virginia.
    Director Jarvis, I want to ask you, if you go back 
historically and look at the shutdown in '95-'96, and you look 
at how the Park Service handled specifically Jamestown 
Settlement, which, as you know, is run by Preservation 
Virginia, it's a private entity, they've been running that--
that area since 1835, it's a nonprofit organization, the access 
is through the Colonial Parkway. In '95, operations there at 
Jamestown Settlement continued without interruption.
    This time around, unfortunately, Historic Jamestowne, that 
Jamestown Settlement, was told to close by the Park Service. 
There is actually a Park Service employee there at the gate 
turning people away. They came from all over the country. You 
know, Preservation Virginia relies on the revenue generated 
there at Jamestown Settlement for their operations. That costs 
them about $6- or $7,000 a day. It took 10 days to work out an 
agreement so that access to that facility, owned and operated 
by Preservation Virginia, could reopen.
    Can you give me some indication about why this time around 
things were different than they were back in '95, and why we 
couldn't have used the mechanism in '95 to assure that--that 
Jamestown Settlement could stay open through--through this--
this shutdown?
    Mr. Jarvis. Well, I will defer to Mr. Galvin to talk 
specifically about what occurred in '95, because I wasn't here 
then. But I would say that we didn't anticipate this closure to 
last as long as it has, and what has happened as a result of 
its extension is that we've had to--to figure out whether or 
not in each individual case, whether or not we would be 
violating the Antideficiency Act because of the revenue, the 
amount of money, the facilities, whatever partnership aspect 
that we have with places like Historic Jamestowne. And we had 
to take that to our attorneys and say, this is what we're 
investing, and then we had to say, can somebody else cover 
that, and then reach an agreement. And I--I was not involved 
directly in the one at Colonial and Jamestown, but I think we 
did work it out.
    I apologize that it took so long. That's certainly not our 
intent to drag these things out, but the 1995 agreement was not 
ready to be just--change the date and the names on the bottom. 
All different attorneys, all different people in play now. And 
we've got the template now, so we're moving through these 
rather quickly, including the State of Virginia. The 
Commonwealth has requested an interest, and we're quite willing 
to work with them.
    Mr. Wittman. It just seems like to me with that framework, 
that even though the names and the times were different, it 
seems like to me that the framework is in place to quickly get 
that done. And in anticipation, it seems like to me, of 
potentially where things were going, there should have been 
some effort to say, well, wait a minute. While we had staff in 
place, while we had the opportunity to do this, why wouldn't 
you look at those agreements to say if this does come, we have 
a contingency plan that we will be ready for this if it does 
happen; and if it doesn't happen, then it's not time that's 
wasted or resources that are wasted. So it seems like, to me, 
that, you know, anybody looking at this said maybe--maybe we 
ought to have a contingency plan.
    Was there any contingency thought given to these agreements 
to say, listen, if this does happen, we're going to be ready to 
go, there will not be a cessation of operations in places like 
Historic Jamestowne?
    Mr. Jarvis. We did set policy initially that is consistent 
with '95 that, you know, through roads, you know, obviously the 
George Washington Memorial Parkway in Rock Creek and the 
Natchez Straights Parkway in the Blue Ridge Park would remain 
open, and we--we set that standard, and that was obviously 
similar to 1995.
    But I think you make a good point. We haven't done this in 
20 years. Shutting down is hard and complicated. And I think 
there are some lessons learned here. We now have a very good 
template agreement to work with States. We now better 
understand the Federal investment in each of these facilities. 
We don't have, like, a standing database on every one of our 
partnerships in Washington; we had to receive that information 
coming in from the individual parks in order to assess it and 
to assure that we were not violating any--any current statute. 
I think--
    Mr. Wittman. And----
    Mr. Jarvis. I think we have learned. And probably if--
hopefully there's not another one of these, but if there is, I 
think we will be better prepared.
    Mr. Wittman. And I want to point out, too, we have some 
other concessionaires like in the town of Yorktown right next 
to where my office is, a great restaurant, the Carrot Tree 
Restaurant, that said, listen, we--we just want to continue to 
operate. The problem is that under their rent agreement, they 
have to continue to pay rent while you have told them to shut 
down. You know, the--the economics of that just doesn't work 
out. I'm paying rent, yet I cannot have customers come to the 
restaurant.
    It's an open thoroughfare. There's no requirement for any 
expenditure of park resources during any period of time, yet 
they were told to shut down. And you can imagine how frustrated 
they are, how frustrated the community is with that, because 
logically it makes no sense. Separate from the political 
aspects of the shutdown, people look at that and go, what in 
the world is going on?
    So I would urge that when these instances, if they do occur 
in the future, that these instances be planned for, and that 
businesses, by no fault of their own that are being asked to--
to shut down, that we give consideration for them.
    With that, Mr. Chairman, I yield back.
    Mr. Hastings. Time of the gentleman has expired.
    The chair recognizes the gentleman from California Mr. 
Huffman.
    Mr. Huffman. Thank you, Mr. Chair.
    You know, I--I've almost run out of adjectives to describe 
this unfortunate hearing that we're having today. The one that 
I'm left with is ``sad.'' I'm a freshman Member of Congress. 
I'm very proud to represent my district, to serve in this 
institution, but I am embarrassed by the committee process in 
this hearing, this sham of a hearing that we're having today.
    I came to Congress to solve problems. I came to Congress to 
try to work across the aisle and raise the political discourse 
in this country and try to--to set a better tone, and instead I 
am taking part in a hearing that makes the McCarthy era look 
like the Enlightenment. The fact that it's taking place during 
a government shutdown manufactured for political purposes by my 
Republican colleagues just makes it even worse. This is worse 
than fiddling while Rome burns. This is fanning the flames 
while Rome burns. This is looting and dancing while Rome burns.
    We have heard all manner of over-the-top accusations from 
members of this committee, and we've heard made-for-right-wing-
media sound bites, charges of malice, of deliberate infliction 
of pain, of a secret plan to maximize public inconvenience and 
impact. We've heard unnamed, anonymous witnesses from a media 
report talk about these nefarious intentions, and then we've 
heard a member of this committee extrapolate from that and say 
it was the common belief among National Park Service employees. 
All of this, of course, is going to be played on YouTube 
tonight, it'll be played on Fox News, all of these made-for-
right-wing-media accusations and claims, but there is zero 
evidence to support any of it. We've heard from folks who 
actually are on the ground, who know, who can give us the 
facts, and there is zero evidence.
    If this was a court, you know what would happen? The judge 
would bring the prosecutor or the plaintiff's attorney up to 
the sidebar and say, you know, I'm not only dismissing your 
case; if you ever bring a case like this and make over-the-top 
accusations like that that you can't support with evidence, I'm 
going to sanction you, and I might even report you to the bar 
for ethical violations. But there are consequences. There's 
accountability in an actual court, and this is a kangaroo 
court. And so we will continue bouncing further into the rabbit 
hole, I am sure.
    Director Jarvis, I can only imagine how difficult it is for 
you, as somebody who has dedicated your life and your career to 
the mission and the work of our National Park Service, to be 
going through the shutdown of those very parks that you've 
dedicated your life to operating and serving. You're in the 
business of opening parks and--and managing them and running 
them. This is such a wonderful success story for our country, 
the National Park Service. To be asked to shut them down, 
especially under these circumstances, just must be awful.
    And I remember--I just served 6 years in the California 
State Legislature. I chaired the parks committee. We went 
through our own parks crisis, and it was your agency that was 
helping us save parks from closure. In fact, you saved three 
parks in my district because you stepped up, you believe in our 
public lands and our parks and people and communities they 
serve, and I want to thank you for your service.
    I can only imagine the indignity of having to sit there and 
listen to all of these baseless accusations; to have to listen 
to a witness who fronts for the oil and gas and coal industries 
and sues environmental agencies to try to prevent them from 
implementing environmental laws tell you that you are a 
terrible environmental steward, accuse you of hiding behind the 
veneer of the popularity of our parks to actually do harm to 
our parks and our environment. It is a disgrace that you have 
had to listen to this indignity, that you've had to sit there.
    We've had to listen to people romanticize about 1995 as if 
this were some shining model of how you can close down the 
National Park System and not have anyone feel the pain. But 
we've also, fortunately, had a witness who actually presided 
over that disgraceful chapter and could tell us that, yes, the 
Antideficiency Act actually applied in that case, too; who can 
tell us that, no, it wasn't some shining model of success. 
Monuments were closed, people were impacted, communities were 
impacted, pain was felt, some of it very high-profile pain.
    So, again, I am struck by the fact that despite the over-
the-top, made-for-media accusations and sound bites in this 
kangaroo court, we have no facts at all to suggest you've done 
anything wrong.
    Closing all of these parks, shutting down a huge Federal 
agency is a hard thing to do. There's no easy way to do it. 
There's no perfect way to do it. My only hope is that you are 
able to hang in there while we work through the terrible 
politics that have brought us to this government shutdown, and 
that we can get back to the business of running our Park 
Service and serving the people and the communities that depend 
on it as soon as possible.
    Thank you for your service.
    Mr. Hastings. Time of the gentleman has expired.
    The chair recognizes the gentleman from Arizona Mr. Gosar.
    Mr. Gosar. Thanks, Chairman Hastings.
    First I'd like to thank Mayor Bryan for showing up and 
having breakfast with me in the Governor's office as well. I 
mean, maybe we ought to make politicians have breakfast every 
morning, because that's, I think, a good start to the day.
    But thank you, Mayor Bryan, for your leadership in regards 
to Tusayan. Tusayan is--is so interwoven with the park system, 
particularly with the Grand Canyon. But the situation we're 
examining today is simply unacceptable. Without a doubt, the 
Obama administration has tried to make the government shutdown 
as painful as possible for communities like Tusayan to achieve 
political gain. In a district like mine, dominated by the 
presence of Federal resources, two large military facilities, 
and over 70 percent of federally administered land, the fact 
has been painfully evident. And, of course, it is Arizona, and 
we know the relationship between this administration and 
Arizona.
    As soon as the National Park Service announced it would 
shut down facilities like the Grand Canyon, I worked with our 
Governor Jan Brewer and local leaders like Mayor Bryan to 
ensure it was reopened. While I am pleased that all parties 
were able to come to an agreement late last week, we have to 
make sure some of this type of nonsense never happens again, 
and to make sure that there is a seamless transaction.
    While I would like to avoid future shutdowns, the reality 
is that they will inevitably happen. This certainly isn't the 
first and, unfortunately, probably not the last. And if we need 
any excuse, $17 trillion and growing of debt is going to the 
acknowledgement that we will bounce around this--the idea for 
some time.
    But our national parks are the people's parks, and they 
should not be manipulated by political purposes. For 10 days 
the Park Service refused, refused to work with our local 
governments and businesses to keep these important economic 
drivers operating. Our State wildlife agency and State parks 
agency offered to shoulder the burden of management, and our 
local governments offered to chip in their scant dollars, but 
instead of working with us, the administration actually 
committed resources to further inconvenience our constituents 
rather than alleviate some of the burdens.
    What changed in those 10 days? Nothing. The political 
pressure from Congress and the local communities simply forced 
the agency to come to the table, like they have in previous 
shutdowns, and come to a solution. And I am committed to 
introducing legislation or doing anything else I can within my 
capacity as a Member of Congress to ensure that there is a 
clear legal path, a seamless pathway towards keeping our parks 
open regardless of what happens in Washington, D.C.
    Director Jarvis, can you identify one of the seven wonders 
of the world located in Arizona?
    Mr. Jarvis. Are you speaking of the Grand Canyon?
    Mr. Gosar. Oh, absolutely. So it's one of the seven 
locations in the world.
    Mayor Bryan, I--I watched your eyes, you know, in regards 
to Mr. Jarvis talking about immediately reaching out to 
communities. Was that the truth?
    Mr. Bryan. Well, Congressman, I know that Congresswoman 
Kirkpatrick, our Senators Flake and McCain, as well as myself 
tried to contact and get information as to why we couldn't 
apply the 1995 to what we needed to do now, and from their 
office, nothing other than the local superintendent saying no.
    Mr. Gosar. Absolutely no. I mean, I--I was involved also in 
those mitigations with the Governor and that.
    Mr. Jarvis, would you be prepared to turn over all 
documentation in regards to the attempts trying to reach your 
offices in regards to opening the Grand Canyon?
    Mr. Jarvis. Yes, sir.
    Mr. Gosar. That would be emails and phone logs.
    So you didn't reach out to the Grand Canyon, the folks in 
the Grand Canyon, and the Governor of Arizona when you were 
looking at the shutdown?
    Mr. Jarvis. Me personally? No, because I can't talk to 
every Governor and every community, but our local 
superintendent--I guarantee you that Dave Uberuaga, the 
Superintendent of the Grand Canyon, was talking to the 
community.
    The reopening of the Grand Canyon, along with the reopening 
of all the national parks, was front and center in our 
discussions in Washington. I--just as a little bit of history, 
and this would be in my records, is that immediately upon the 
shutdown, I called the former Superintendent of the Grand 
Canyon in 1995, Rob Arnberger, and I asked him specifically 
what happened on that day with respect to the closure so I 
could understand that.
    Mr. Gosar. That's all in the record, you know.
    Mr. Jarvis. Okay.
    Mr. Gosar. Let me ask you your connotation of what we did 
in 2011. You knew there was contentions, right, in government 
about debt? So there's contingency plans. I was a dentist, and 
so every patient that walks in my office, I have to be prepared 
for an emergency, so I go through it and I rehearse it day in, 
day out, day in, day out. And I find it fraudulent that we 
weren't prepared to have a seamless transaction with our State, 
particularly one of the greatest marvels of the world, a 
natural resource, one of the marvels of the world, one of the 
seven natural wonders of the world, that you were unprepared 
for that dictation. That's part of leadership, and I find it 
offensive that there was 10 days of absolutely no, no, no and 
no, when we had a State and local municipalities trying to work 
on behalf of keeping these open. So I'll be looking forward to 
those answers.
    Thank you.
    Mr. Hastings. The time of the gentleman has expired.
    The chair recognizes the gentlelady from New Hampshire Ms. 
Shea-Porter.
    Ms. Shea-Porter. Thank you.
    I sit on the Natural Resources Committee, and I hope and I 
wish that the concern for the national parks and the people 
continues after this. We actually had a hearing. The 
Republicans invited a witness whose suggestion was to basically 
allow all the national parks to charge market value, and if 
they charge market value, that would leave out the very people 
that we're talking about: average Americans who want access to 
their parks.
    So we shouldn't be sitting here acting shocked that closing 
the parks was part of closing the government; of course it was. 
But what I am shocked about is the tone in this place, and I'm 
embarrassed to be sitting here, and I would like to apologize. 
We can all have differences of opinion, and we clearly do, and 
I hope the differences of opinion will be solved today. I urge 
my colleagues across the aisle to accept that vote tonight, if 
we have it, that the Senate--the bipartisan Senate agreement 
will be coming to us. So we do have disagreements, but we 
shouldn't be talking like this.
    And the attack on you, Director, I--I apologize. It's as 
ugly as I have seen, and I have seen some pretty ugly things 
here. This is my--my fifth year here. So I am very, very upset 
about this. I thought about walking out, and I thought, no, I 
need to tell all of you that we recognize how difficult this 
is. You didn't shut down the government. You didn't. They did, 
and they need to acknowledge that.
    I can't imagine that there's anybody who works in a 
national park or dedicates his or her life to serving the 
public, that anyone would say, oh, let's close it during their 
busiest season. Let's keep Americans out of the parks. These 
parks belong to Americans, and our American workers have 
protected the parks and loved the parks and served the American 
people every single day until they shut the government down.
    Now, the reason the government was shut down was not 
because they had a problem with the parks. It wasn't anything 
else that they were worried about. Their problem was that the 
Affordable Care Act was still there, and so they shut the 
government down in their pursuit to try to either alter or end 
the Affordable Care Act, which happens to be law, also was 
upheld by the Supreme Court. And so their last stand here is to 
insult the people, insult the Federal workers, insult all 
those, and also to try to deny culpability for the impact, the 
economic impact, that this has had on our Nation.
    In my great State of New Hampshire, we have people who 
travel from all over the world to see the leaves. It's an 
annual event, and it's a pretty special show that God has 
provided for all of us. And yet we've been seriously impacted. 
Small businesses in New Hampshire and our New Hampshire economy 
was impacted not because of the Federal workers, but because of 
the Congress.
    And so to turn around and try to shift the blame and the 
responsibility is stunning. And that alone would be awful, but 
to hear the tone, and the meanness, and the accusations and the 
insults, my stomach has been twisting the whole time.
    I had a note that I had written. I was hoping to--to hand 
it off to the chairman, but he left. I said, please, can you 
and everyone else leave out these personal attacks and nasty 
tones? Americans expect us to ask tough questions, make tough 
statements, but be civil.
    Civility. We can disagree. We do disagree. But, again, I 
apologize for the tone here, I apologize for the insults. I 
thank you, Director Jarvis, for the work that you have done for 
this country. And they have a right and an obligation to ask 
questions, but we don't have a right to bring in Federal 
employees and treat them as if we're just batting them around 
like a cat with a mouse, and for that I apologize.
    And I yield back.
    Mr. Hastings. The gentlelady yields back her time.
    The chair recognizes the gentleman from California Mr. 
McClintock.
    Mr. McClintock. I thank the gentleman. And I would remind 
my friend from New Hampshire that three times the House voted 
to fund the government. Three times the Democratic Senate 
rejected those measures and refused to resolve our differences 
through the negotiation----
    Ms. Shea-Porter. Will the gentleman yield?
    Mr. McClintock. No, I will not--that served our country for 
225 years. I would also remind her that on October the 2nd, the 
Republican House voted to reopen the parks. We were joined by 
23 House Democrats, who courageously defied their party 
leaders. The Democratic Senate killed that bill, once again 
refusing to resolve our differences. I would remind my 
colleagues that incessantly repeating a falsehood does not make 
it a truth.
    Mayor Bryan, why is Grand Canyon National Park open and yet 
Yosemite National Park is closed?
    Mr. Bryan. I can't speak to Yosemite, Congressman, but 
Grand Canyon National Park is open because after 10 days we 
were able to, through the Governor's office, negotiate a deal 
to reopen it at $93,000 a day, 426,500----
    Mr. McClintock. If--if the Governor of California had taken 
the same action, would Yosemite be open today?
    Mr. Bryan. I would assume so.
    Mr. McClintock. Thank you.
    Mr. Jarvis, do I understand you correctly that you ordered 
the barricading----
    Ms. Shea-Porter. Mr. Chairman? Mr. Chairman, I seek to be 
recognized.
    Mr. McClintock. Mr. Chairman, I----
    Mr. Hastings. The gentleman----
    Ms. Shea-Porter. A point--a point of order.
    Mr. Hastings. The gentleman from California has the time. 
If you ask the gentleman to yield and he yields----
    Ms. Shea-Porter. A point of order.
    Mr. Hastings. The gentlelady will state a point of order.
    Ms. Shea-Porter. The suggestion that I was repeating a 
falsehood, I would like to know, was that suggesting that I was 
lying, and if so, I would like to--to have you deal with that.
    Mr. McClintock. Mr. Chairman?
    Mr. Hastings. The chair is going to rule that the 
timeliness of that has to be immediately, and the timeliness of 
your remark was not--was not timely in this case, and so the 
chair recognizes the gentleman from California.
    Ms. Shea-Porter. But I have to say, Mr. Chairman, that 
after the dialogue that we had earlier, I thought--I thought 
the chairman would address that if that happened. I remember an 
earlier conversation here, and I thought that what I heard you 
say at that time suggested that you would indeed step in if 
there were any--any----
    Mr. Hastings. Well, what's the--if the chair is asking--if 
the gentlelady is asking the chairman whether there is 
consistency with a--with a conversation with another Member on 
this side of the aisle earlier, I think I am absolutely 
consistent on that, because the gentleman from California was 
talking in the third term.
    Mr. McClintock. And Mr. Chairman----
    Mr. Hastings. The gentleman from California is recognized.
    Mr. McClintock. And if I may clarify, I was merely saying 
that the statement that this shutdown is the fault of 
Republicans, when Republicans have repeatedly voted to keep the 
government open, is simply false. And that is a fact.
    Mr. Jarvis, did I understand you correctly that you ordered 
the barricading of public property to which the public would 
normally have unrestricted access?
    Mr. Jarvis. I ordered the closure of all 401 national 
parks.
    Mr. McClintock. Did anybody instruct you to barricade 
these--these public venues?
    Mr. Jarvis. No, sir.
    Mr. McClintock. So that came from you?
    Mr. Jarvis. That's correct.
    Mr. McClintock. Let me read you an email that's typical of 
what--complaints flooding into my office. This one involves 
Kings Canyon National Park. The gentleman writes, to get to my 
place of residence and work, I have to travel through the Big 
Stump entrance station on Highway 180. Currently the entire 
roadway is barricaded, and it appears as though the Park 
Service is attempting to prevent anyone from traveling to or 
through the national park.
    My concern is twofold. First, I personally live here on 
private property, and there's the appearance that the 
government is trying to prevent us from accessing our private 
lands.
    Second, I was in the area 17 years ago as a young adult 
during the last government shutdown, and this type of thing 
didn't happen. Sure, the facilities at the visitor centers were 
closed, but the land was still accessible.
    I fear that our Federal Government is overstepping in this 
area, and I don't know where to turn in order to get this 
corrected.
    Mr. Jarvis, by what authority did your agency barricade 
public highways and impede the public from accessing their own 
private homes and businesses?
    Mr. Jarvis. My closure order that I issued on October 1 did 
allow for people to access their private property, and even if 
it was on a closed road, but only for the purposes of accessing 
their private property, not for recreating in the park.
    All through roads through the National Park System have 
been remained open, such as the Tioga Pass in Yosemite and the 
through road through the Great Smokies, but the spur roads or 
roads that only lead directly into the park and not through to 
access the other side are all closed as a part of the lapse in 
appropriations.
    Mr. McClintock. And yet this gentleman says 17 years ago 
they were open, and that your action has impeded him from 
reaching his private property.
    Mr. Jarvis. I would defer to Mr. Galvin, but I would say in 
1995, Kings Canyon was closed.
    Mr. McClintock. Mr. Jarvis, at Yosemite, the Park Service 
have posted guards at pull-outs and parking lots where none are 
normally posted. You've said that this is in response to the 
Antideficiency Act that only allows acts to protect life and 
property. I would wonder if you could explain, how is life and 
property threatened by parking in an open parking lot and 
simply taking pictures of Bridal Falls?
    Mr. Jarvis. If you're taking a picture of Bridal Falls, 
you're not on a through road.
    Mr. McClintock. No. You're on a turnout or a public parking 
area.
    Mr. Jarvis. On a through----
    Mr. McClintock. How is parking in a public parking area a 
threat to life and property?
    Mr. Jarvis. These pull-outs are maintained by Federal 
appropriations. We pick up the trash. We protect the resources 
from fire, from damage and vandalism. And I----
    Mr. McClintock. Do you think taking a picture is vandalism?
    Mr. Jarvis. No. Taking a picture is not vandalism, but use 
of these facilities that are closed because we do not have an 
appropriation----
    Mr. Jarvis. Mr. Ebell, my time's very limited. I'm working 
on legislation that would forbid barricading or restricting 
public access to any open-air public space to which the public 
normally has unrestricted access, or to interfere with normally 
permitted public recreation on public land. Would that 
alleviate a lot of the problems that are being reported to us?
    Mr. Ebell. Yes, indeed it would alleviate some of them.
    Mr. McClintock. Thank you.
    Mr. Ebell. But I think, as you see, the Antideficiency--the 
Director of the Park Service hides behind the Antideficiency 
Act when it's useful, and he ignores it when it's not. And this 
is, I think, going to continue as long as these kinds of people 
are allowed to run the National Park Service and the Department 
of the Interior.
    Mr. Hastings. The time of the gentleman has expired.
    The chair recognizes the gentleman from Arizona Mr. 
Grijalva.
    Mr. Grijalva. Thank you very much, Mr. Chairman.
    And I--I have been trying to get something out of this 
meeting, and thus far it's been very difficult. But a couple of 
questions, and--and it was not dual, parallel universes with 
alternative universe. An alternative means that you're not 
dealing with reality quite well. I just want to make the 
distinctions of what I said.
    Mr. Jarvis, thank you for being here. I know that--that--I 
wish this was an honest effort to discuss your--why you were 
forced to respond to congressional efforts to shut down our 
government, why the sequestration continues to mount increased 
burdens on--on the agency, but this is a media event and has to 
be treated like such. There's not a--there's not a look for 
solutions.
    What I did find interesting, though, Mr. Jarvis, is one of 
the things that I learned is that there--the idea that we have 
to have a shutdown preparedness program within every agency; 
that because what has been admittedly by--admitted by my 
colleagues, this phenomena will continue, and there will be 
other shutdowns. So there's a--there's a preparedness plan that 
you must now put together, so you minimize that publicity for 
Members, so that special parks in their areas are left open, so 
there's not any public criticism, so that the most visible, 
like the Grand Canyon, are left open so that we minimize that 
public opinion and public response to the fact that one of 
their treasures and all of their public lands are being closed 
as a consequence of a shutdown.
    It's an interesting preparedness issue. I don't know how 
you will do it, but that--that will require you to be able to 
still furlough 20,000 people, keep the parks open, all access 
open, do it with 4- or 500 people, and, in that preparedness 
plan, make sure that the public lands are left alone, yet do 
not have the money to operate.
    It's an interesting request. I don't know if it's a 
foregone conclusion that you can come up with a plan. I would 
suggest that it's probably an effort that it doesn't require 
any time. It just requires that--that all the parks be left 
open, that there be no oversight, that there be no security, 
that there be no maintenance, and they're just open. It--it is 
a silly request and a silly idea to deal with the adverse 
publicity that's been generated by the closure of our 
government, and in particular in this area, the government--the 
public lands.
    The other thing I learned is that we should start, as part 
of preparedness, have preexisting templates with each State so 
they can assume the payment of--of keeping the parks in their 
States open, like the Grand Canyon in Arizona being one of 
many.
    I would also hope that we extend that same idea to HUD, 
Department of Education, Health and Human Services, all the 
other agencies that are being affected by the shutdown, so that 
we have with the State of Arizona a preexisting memorandum of 
understanding that they will take over and fund Head Start; 
that they will take over and fund LIHEAP; that they will take 
over and fund education; that they will take over and fund 
veterans--veterans services, Native American services, and 
programs in the State of Arizona. I think that--that would be a 
gesture that would be felt across the State of Arizona. And I 
would certainly urge our Governor Ms. Brewer that just as she 
worked on the Grand Canyon opening, that those are legitimate 
concerns that the people of Arizona are facing as well.
    And I would suggest, Mr. Mayor, that you would join with me 
in making sure that uranium mining is kept away from the Grand 
Canyon, because that is a--that is a threat, an imminent 
threat, and the shutdown doesn't mitigate that at all. That's 
still--that's there for 20 years, and I'm very appreciative of 
the Secretary's moratorium, but that is an imminent threat to 
the Grand Canyon as well.
    Let me ask you, Mr. Mayor, do you agree that the entire 
shutdown was not needed, should never have happened, or do you 
support the government shutdown efforts? You do support some 
government shutdown efforts as long as the parks in your region 
remain open?
    Mr. Bryan. Is the Congressman asking if I support a 
shutdown of the United States Government?
    Mr. Grijalva. Yeah.
    Mr. Bryan. No, I do not.
    Mr. Grijalva. And I ask you that because--and I'm glad that 
you worked with Governor Brewer, because her October 1st media 
release right after this whole shutdown thing started, she said 
she would not--she said--saying the Grand Canyon opening is not 
a top concern. She said on Monday she won't be trying to use 
State resources to keep the Grand Canyon open during a Federal 
Government shutdown. I don't know if the Grand Canyon's a 
priority for the State of Arizona, the Governor said, following 
a closed-door meeting with her cabinet. We have a lot of other 
priorities out there, like our national guardsmen, children and 
people that will be hurting desperately with this shutdown.
    I--I established that in the record, and I yield back.
    Mr. Hastings. The time of the gentleman has expired, and he 
can't yield back time you've used over, so----
    Mr. Grijalva. You're not on the 8-minute rule?
    Mr. Hastings. The chair recognizes the gentleman from 
Pennsylvania Mr. Meehan.
    Mr. Meehan. Director Jarvis, thank you for being here 
today, albeit under duress, but I'm appreciative and 
appreciative of your service for--for numbers of years on 
behalf of the national parks.
    But I have a--look, apart from all this other stuff, I have 
a commonsense thing I need to resolve with you. I've got 5 
minutes, and I want to walk through something if we can.
    You know, you've--you've identified a couple of different 
times the Antideficiency Act, and that has motivated some of 
your actions. Now, you're aware in the 120 years of the 
Antideficiency Act, there has never been an indictment or a 
conviction under that act? You're aware of that?
    Mr. Jarvis. I was not aware of that.
    Mr. Meehan. Well, there hasn't been. Okay. So I guess what 
that suggests is there's moments in which even despite we use 
discretion--I know you've identified yourself as having worked 
as a park enforcement officer at a previous time. Have you been 
to Valley Forge Park at any point in time during your service?
    Mr. Jarvis. I've never worked there, but I've been there.
    Mr. Meehan. You've been there. It's a marvelous place. I'm 
privileged to be able to represent that area. But my problem is 
I have 20 people who are my constituents that happen to be 
joggers, and I'm holding in my hand United States District 
Violation 3928431 from John Bell. He gave me permission to 
raise this issue with you. He was fined $100 for jogging in the 
park.
    Now, I'm asking you--you have identified yourself as having 
significant prosecutorial discretion, and I'm asking you right 
now--this has nothing to do--these are the people being called 
in. Mr. Bell and others are going to have to take time off of 
work, they're going to have to hire attorneys, they're going to 
have to--you are going to have your people go to court and 
spend hours sitting in the Federal district court in 
Philadelphia miles away simply to enforce a $100 citation.
    You have discretion. I'm asking whether you will remove 
these citations, the $100 fines, from the 20 joggers who used 
Valley Forge Park.
    Mr. Jarvis. I'm not in the position or have the authority 
to change a ticket that has been issued. That is up to the 
court system.
    Now, what I will say----
    Mr. Meehan. Well, let's go through the record, then. Okay? 
Now, because I want to establish on the record that you have 
allowed this enforcement to take place. So it's your position 
that they are obligated to pay this fine?
    Mr. Jarvis. If they were issued a citation for violating 
whatever they----
    Mr. Meehan. What violation is it that they did by jogging 
in the park?
    Mr. Jarvis. It would be on the citation. I don't know.
    Mr. Meehan. It says--it says, park closed. That's what it 
says.
    Mr. Jarvis. Then they're violating a closure.
    Mr. Meehan. By being in the park?
    Mr. Jarvis. I believe that was a parking ticket, actually.
    Mr. Meehan. No, no, it's not a parking ticket. Look at--the 
parking ticket goes to the vehicle. This was--they parked in 
that lot. You have an obligation--in order to identify the 
areas where the enclosures are, you had barricades, not much 
signage. Again, under the law--this is the public notice 
requirements that you have under the law. The barricades were 
placed in a place where it was entirely foreseeable on a Sunday 
morning when this jog took place that they were still there 
from Saturday night. The signage was no bigger than this, and, 
in fact, he went to a parking lot in which there was no 
signage. And you have an obligation under the law to make sure 
that it's all along the boundary of the affected park locale. 
So as a matter of law, I question whether or not you gave 
appropriate notice.
    Did you in addition publish in the newspaper that the parks 
were closed?
    Mr. Jarvis. We published on our Internet Web site.
    Mr. Meehan. And the local newspaper. As it says, along--you 
have obligations to publish in newspapers of general 
circulation in the affected area. So did you do that?
    Mr. Jarvis. I do not know.
    Mr. Meehan. So you didn't fulfill any of the requirements.
    Now, here's the third, and I want to ask you again. You 
said that people were entitled to sit in the parks here, 
Occupy, because they were protesting, and any group of less 
than 20 is entitled to be in the park in protest. How do you 
know by jogging in the park they weren't protesting either for 
or against the healthcare law by exercising their right to be 
out in the open and showing what good, healthful lifestyles can 
do?
    Mr. Jarvis. In the closure order that I issued on October 
1st, we did----
    Mr. Meehan. Is that or not--is that--could that possibly be 
an expression of their First Amendment rights?
    Mr. Jarvis. I would say that would be a very difficult 
case----
    Mr. Meehan. You said it was content neutral. May not 
exercising in a space be concerned to be an exercise of their 
constitutional rights, their First Amendment constitutional 
rights?
    Mr. Jarvis. Sir, if you'd let me finish my--my sentence, 
the--all of the national parks across the system, except for 
the National Mall and Independence, are closed to First 
Amendment activities. That's in my closure order. So----
    Mr. Meehan. Why--why are they closed? What's the selective 
enforcement? Why can't somebody in Valley Forge Park have the 
same ability to use their First Amendment rights as somebody at 
Independence Hall 20 miles away?
    Mr. Jarvis. Because Independence and the National Mall are 
treated nationally as sites for First Amendment. The parks are 
closed because we don't have an appropriation. In the case of 
Acadia----
    Mr. Meehan. What's the appropriation needed? Are you aware 
that this--that the jogging paths are entirely contiguous to 
the public throughway that goes through, and the alternative is 
for those joggers not to jog on the paved path next to the open 
highway, which you have already identified the throughway; that 
they run in the street where they have the opportunity to be 
hit by cars?
    Chairman Issa. Real quickly, a response.
    Mr. Jarvis. I'm not aware of that detail.
    Mr. Meehan. So the last thing, you're going to make these 
people go to court over $100; is that accurate?
    Mr. Hastings. The time of the gentleman has expired. The 
time of the gentleman has expired.
    Mr. Meehan. May he answer the question? Is it your position 
that this was not a First Amendment right, and that they must 
go to court to protect their First----
    Mr. Hastings. The time of the gentleman has expired. And 
what we--what you can do, as the gentleman from Pennsylvania 
knows, there is always an opportunity for follow-up questions, 
and I suspect that one needs to be answered in some way, and 
the gentleman can follow up with that.
    The chair recognizes the gentleman from Pennsylvania Mr. 
Cartwright.
    Mr. Cartwright. And I'd like to thank Chairman Hastings, 
Ranking Member DeFazio, Chairman Issa, Ranking Member Cummings 
for bringing us together, and also to the witnesses for showing 
up today and giving us your input and your and your testimony.
    This hearing looks at a very narrow impact of the shutdown, 
but one that has directly impacted my district. I represent the 
17th Congressional District of Pennsylvania, which has two 
shuttered national parks right now, the Steamtown National 
Historic Site and the Delaware Water Gap National Recreation 
Area. During the month of October, these two parks combined to 
attract an average of nearly 14,000 people a day, adding over 
$400,000 to the local economy every single day.
    These parks are also important sites to visit for my 
constituents. Just the other day a young girl from my district 
wrote me a letter begging me to open these parks to avoid 
ruining her birthday celebration.
    Everybody in this room knows that there is a simple 
solution to the problem here. The solution doesn't lie with the 
Park Service, which is following the law and doing its best 
with a terrible situation Congress has created. The solution 
has been and still is simply to pass the continuing resolution 
crafted in the Senate, refund the government with no strings 
attached, continue to work out our policy differences while we 
have an open and functioning Federal Government.
    I can honestly reply to this young girl who wrote to me 
that I and my party are doing everything in our power to reopen 
the national parks and our entire national government. I have 
voted 16 times to bring up the Senate clean continuing 
resolution opening the government with no strings attached. 
I've gone on the floor and I've asked unanimous consent to 
bring up this clean CR, we call it. I've cosigned letters and 
discharge petitions to that effect.
    All of this has fallen on deaf ears, with the majority 
refusing even to allow a vote on a clean CR opening our 
government with no strings attached.
    As of tomorrow the government shutdown will be the second 
longest in our Nation's history. And the impact of the shutdown 
goes well beyond the topic of today's hearing. Soon Federal 
funding for the WIC assistance program may not be sufficient to 
cover all benefits. Thousands of poor children are going to 
lose access to preschool programs. Low-wage Federal employees, 
many of whom live paycheck to paycheck, continue to suffer 
without salaries, and some 71,000 Federal employees in 
Pennsylvania alone have either been furloughed or have suffered 
a pay cut.
    The lapse in Federal funding may also halt employment and 
training programs for people who rely on SNAP benefits to eat. 
The Housing Choice voucher program is running out of funds, 
meaning thousands of my constituents are facing possible 
eviction. Last year SBA approved over 1,000 loan applications 
for small businesses in Pennsylvania every day. Now these loans 
have completely stopped. For companies in my district, like 
Trivec Contracting Company, which connects disabled veteran-
owned businesses, the shutdown has disallowed the purchase of 
SBA bonds, making it difficult to hire new employees, and 
jeopardizes the businesses' contracts themselves.
    Now, of course, we've all heard about the threats to Social 
Security, veterans benefits, Head Start, military pay, and a 
myriad of other Federal programs that people rely on.
    We have to reverse our course. We have to pass a clean CR, 
reopen the government with no strings attached. We have to 
reach a broader deal to undo the sequester and restore funding 
to many programs, including the Park Service. These goals are 
not out of reach. I urge the majority to act by passing a clean 
CR and a clean debt ceiling bill.
    The outrage displayed by the majority at this hearing is 
unreasonable, given that they caused this mess. I urge my 
colleagues on both sides of the aisle to act together for the 
good of the country.
    And with that, I yield back, Mr. Chairman.
    Mr. Hastings. I thank the gentleman for yielding back.
    The chair recognizes the gentleman from Michigan Mr. 
Benishek.
    Mr. Benishek. Thank you, Mr. Chairman.
    Mayor Bryan, when we--earlier we heard Director Jarvis talk 
about the through roads in the parks. I noticed you were, like, 
shaking your head there as if the through roads were open. He 
said that the through roads were going to be open. What was 
your--what was your thoughts as that testimony was taking 
place?
    Mr. Bryan. Congressman, to the best of my knowledge that 
during the closure, Highway 64, which is a through road from I-
40 through Tusayan, through the national park and to Cameron, 
Highway 89, was closed all except for the first 2 days. And it 
was reopened last Saturday when the park was--was fully 
reopened, but during the rest of the time, it was closed.
    Mr. Benishek. So what--do you know why that was done? 
Apparently his--his letter is dated October 1st directing that 
closure. The parks allow--directed that through roads remain 
open.
    Mr. Bryan. Congressman, my understanding was that the first 
2 days, Superintendent Uberuaga did keep it open, but closed 
all the parking spaces. So people parked in the roadways and 
created, I agree, a safety hazard, because those parking areas 
were closed. And then after looking at that, they did close the 
road in its entirety.
    We had offered Coconino County assistance. We offered to 
assist in any way we can, and also identified that Highway 64 
was crucial, was crucial to keep open to the--to the tourism 
industry.
    Mr. Benishek. Director Jarvis, do you have any response to 
Mr. Bryan's comment there?
    Mr. Jarvis. Well, we looked at every--the through road 
policy that I issued as a part of the closure order was 
specifically to routes that are specifically designed to go 
through the park from, like, one town to the next. And the road 
that the mayor is mentioning here is really a park road. It 
travels along literally the rim of the Grand Canyon.
    Mr. Benishek. But it's a through road. It's a through road, 
though, along the----
    Mr. Jarvis. Well, you come out on the other end, yes. 
There--you absolutely can come out on the other end, but it is 
not designed as a--what we consider a through road, which is 
through----
    Mr. Benishek. So it is a through road, but it's not a 
through road in the sense that your--your statement to not 
close through roads doesn't apply to it?
    Mr. Jarvis. That's correct.
    Mr. Benishek. That doesn't make any sense to me.
    Let me just go on another little direction here. You know, 
my district is in Michigan. We've got several national parks 
and national park units that have been impacted by the 
shutdown, and although they haven't--they're not as high 
profile as the World War II Memorial or--or, frankly, the Grand 
Canyon, you know, it's important to the people in our district, 
you know, to keep those parks open. There's--there's businesses 
that rely on those parks.
    And I want to submit some photos for the record, Mr. 
Chairman, that show that the park is actually accessible 
through county roads that remain open. Although there's--you 
know, there's--there's signs at the main entrance of the park 
that says closed, that, you know, our county roads remain open, 
and you can still access the beach and many of the recreation 
areas of the park, because we have a system in the Sleeping 
Bear Dunes Park that county roads shall remain open.
    And this is something that Mr. Bishop brought up earlier, 
and that is, whenever we cede authority to the Federal 
Government of our lands without having local input or local 
people being involved, we risk these arbitrary rules coming 
forward that affect the people locally. So I know in the 
Natural Resources Committee, we're working hard to try to be 
sure that rules are developed with local input and--and State 
and local government intervention. And unfortunately, I think 
Ms. Eberly is gone here, apparently----
    Voice. Ms. Eberly had to step out. She'll be right back.
    Mr. Benishek. I just wanted to--so let me ask you, Mr. 
Bryan, do you have a relationship with the park Superintendent 
that is different than it is with the national park--you know, 
the higher-level authorities? Do you have a good working 
relationship with your--your guys there at the park?
    Mr. Bryan. Congressman, I thoroughly enjoy our relationship 
with the Park Superintendent, Dave Uberuaga. We firmly believe 
that he was acting in a difficult situation and responding to 
the directions that came from--from the administration, whether 
it be Director Jarvis or Secretary Jewell or the President, but 
we believe he was trying to do the best he could and had no 
choice.
    Mr. Benishek. It's my contention that that's the case in 
many a situation. There was a local park superintendent, you 
know, who was willing to work with the local governments to 
make things work, but sometimes the guys in Washington, you 
know, they have these directives that go down to make these 
arbitrary, difficult rules. And I think that it's very, very 
important that we consider national park rules that have local 
input and not allow folks in Washington to determine how we use 
our land in the States. And I think I'm out of time.
    Mr. Hastings. The time of the gentleman has expired.
    I ask unanimous consent that the gentlelady from South 
Dakota Ms. Noem--Ms. Noem be allowed to participate in today's 
hearing. And without objection, so ordered.
    The chair recognizes the gentlelady from New Mexico Ms. 
Lujan Grisham.
    Mrs. Noem. Thank you for that, Mr. Chairman. I certainly 
appreciate the opportunity. I have some specific questions for 
Director Jarvis in relation to our----
    Mr. Hastings. Oh, yeah. We're going back and forth. The 
gentlelady from New Mexico is recognized. I just--my unanimous 
consent----
    Mrs. Noem. I see.
    Mr. Hastings. --was simply to allow you to sit. And since 
you're not a member of either committee, unfortunately, you are 
the last one, but that is--that's how that works.
    The gentlelady from New Mexico is recognized.
    Ms. Lujan Grisham. Thank you very much, Mr. Chairman. And 
thanks to the ranking members for--for putting this committee 
hearing together. And, again, I share with my colleagues in 
thanking the panelists. Difficult issues, very difficult 
situation that we find ourselves in.
    Mr. Jarvis, has the National Park Service received any 
funding since September 30th?
    Mr. Jarvis. No, they have not.
    Ms. Lujan Grisham. So I'm going to see if I understand this 
now. You manage over 400 national parks, 84 million acres of 
land, and you currently have no money, resources to spend on 
your responsibilities to preserve and maintain our national 
treasures, responsibilities that Congress gave you through law. 
How do you not have any money? Did you lose it or mismanage it?
    Mr. Jarvis. There was a lapse in appropriations. The 
employees that are currently working are working without pay.
    Ms. Lujan Grisham. So you're here before the committee 
today because Congress allowed there to be a government 
shutdown, which causes you and your employees to be furloughed 
and not be in a position to manage 84 million acres of land and 
400 national parks; is that accurate?
    Mr. Jarvis. We have no appropriations, that is correct, to 
pay or operate the parks.
    Ms. Lujan Grisham. So, Mr. Jarvis, these are mostly 
rhetorical questions. I thank you for trying to make the best 
out of a very bad situation that Congress has created. The 
Federal Government employees responsible for closing our 
national parks and shutting down the government are sitting 
here behind the dais today. And I want to point out to you 
that, in fact, there have been administrative penalties against 
Federal employees who have not followed the letter of the law 
of the Antideficiency Act, and I assure you that if you had 
tried to do that and used discretion--and we understand these 
are difficult issues. And I'm in my district suffering from the 
same issue. New Mexico's known for tourism and visiting 
national parks and State parks, and it's a--it's a disaster for 
all of us and all of the businesses that we rely on to help 
build our economy. It's a partnership. But I would tell you 
before you would be before at least the Government Oversight 
Committee if you decided to implement and have discretion that 
you're not entitled to do under the law.
    I think we should change the hearing title to ``I Know It's 
Not Your Fault, But I'm Still Going to Blame You,'' should be 
the title of the hearing today, and I--I think it's really--I 
think it's shameful.
    And New Mexico's got a 27 percent reliance on Federal 
funds. Our private-sector partnerships are critical. We had a 
very fragile economy. For a long period of time in my district, 
we were the only district in the country with a negative job 
growth. So just as we were seeing those incremental changes--
and, Mr. Mayor, your testimony was very compelling about it's 
fragile, and to allow it to get to this point so that I'm not 
in a position to both support my town and to run my business, 
and neither is anybody else, because it's a partnership, 
there's symbionic relationships that make a difference to 
everyone, I think it's shameful that we are asking you to 
explain your decisions when we have the power to stop all of 
this nonsense, and we should do it immediately.
    I want folks to know that we're about to furlough 9,000 
employees in my district at Sandia National Labs; that I had a 
meeting with Federal employees who are living paycheck to 
paycheck. These couples are hired by the Federal Government. 
They're not going to make their mortgages, they can't afford 
their child care, they can't pay their credit card bills or 
their car loans. I heard from a civilian air traffic controller 
at Kirtland Air Force Base who's worried about the safety of 
the airmen because he's not allowed to work. So the very men 
and women who protect our country don't get the same 
protections that I get as a private citizen by flying 
commercially.
    The faster Congress realizes that we are hurting millions 
of people across the country, that every single day, by failing 
to accomplish one of our fundamental responsibilities, the 
faster this senseless shutdown ends, and we stop having 
hearings about what discretionary decisions you can or cannot 
make, but what kind of partnerships we have and what our 
priorities are for the resources in this country.
    And with that, Mr. Chairman----
    Chairman Issa. Would the gentlelady yield?
    Ms. Lujan Grisham. I will.
    Chairman Issa. I guess the question--and perhaps you 
weren't here earlier. The questions that we had, the reason for 
the title, and I take responsibility for the name of the title, 
were people like Ms. Eberly, who, in fact, was--cost the--cost 
the Park Service nothing, and ultimately Director Jarvis has 
already said under testimony that he began after they closed 
everything on October 1st--he began going through and 
discovering organizations like hers that he could reopen.
    So I hope the gentlelady appreciates that, yes, we are 
looking at the part of failure, not the part of success, and 
we're not looking at the shutdown, because this is--neither of 
these committees are appropriation committees, we can't affect 
it per se, but we are looking at whether or not there was a 
plan to keep as much open as possible, or there was a failure 
to plan, which I think is what, if you stayed for the whole 
hearing, you will see a pattern of.
    Ms. Lujan Grisham. May I respond, Mr. Chairman?
    Mr. Hastings. Very briefly.
    Ms. Lujan Grisham. Thank you so much.
    I appreciate that, and recognize that we have an 
obligation, particularly in a government oversight hearing, to 
get at best practices. But to get at best practices in a crisis 
management, in a situation that we created as voting Members of 
this body, I disagree that this is the most useful time here 
and believe that we could do a much better job by supporting 
them to enhance these partnerships by having the resources to 
do so. So with all due respect, I disagree.
    And thank you, Mr. Chairman, for allowing me to respond.
    Mr. Hastings. The time of the gentlelady has expired.
    The chair recognizes the gentleman from California, Mr. 
LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman. I appreciate it.
    First of all, I would preface the remarks here. I 
appreciate my colleague from New Hampshire a little while ago 
talking about the tone of what goes on around here. I am one of 
the newer ones here in the Congress. And so her remorse at that 
is something, I guess, that we should all share.
    Because it seems every speech or nearly every speech on the 
floor or in committee from the other side of the aisle is 
talking about the Republican this or Republican that and the 
Republican shutdown when at least an equal amount of the blame 
could lie with the director of the Senate, the pro tem of the 
Senate on the other side, or with the White House that has been 
unwilling to talk to us until very recently.
    So we are all duly elected. We have a majority in this 
House, as sent here by our districts, to work through things 
that we might disagree on. And so the partisan rhetoric just 
doesn't help a whole lot with that. Indeed, we have issues of 
budget deficits, we have huge national debt issues. And, yes, 
there is disagreement on the Affordable Care Act, as it is 
called, and its implementation as we see failing Web sites, 
higher prices, people complaining all over the country, and 
then being subject to fines if they choose not to sign up.
    So, yes, we are going to have some differences of opinion 
on some very giant issues, and we should be allowed to express 
those differences and hash them out here in a process we have 
in this Republic. Instead, it seems the other side wants to go 
to a one-party system of input by shutting us out when things 
get out of this House, like the measures we have sent in recent 
weeks to fund the government in many different aspects, many of 
those with approximately 30 Democrats supporting. Because they 
have looked at the politics and they don't want to be against 
opening the parks, so they have supported our measures. They 
don't want to be against our veterans, they have supported our 
measures.
    And here, all the time, it is always the Republican 
shutdown. There is plenty of blame to go around on this, but 
there are certainly some big issues that we stand for that have 
to be stood up for.
    So going into what we are really here for today, Mr. 
Jarvis, you know, we talk about, yes, the Park Service is a 
very big and complex organization, like a lot of what our 
government is and what some of us believe needs to be tamed.
    I have in my district in northern California, near the 
Whiskeytown Reservoir, which is a Federal project, along 
Highway 299, there is a lake with a two-lane road. Now, you 
were talking about a low-key approach during this slowdown. The 
highway has numerous turnouts and lookout vistas to park for 
both safety and scenery. During the shutdown, my office has 
received numerous reports of Federal officers preventing people 
from stopping at these turnouts, again, along a two-lane 
highway. A truck with flashing lights would pull up behind them 
and threaten them with a ticket if they do not keep moving.
    So how can you justify people from stopping at a rest stop 
or a turnout on a State highway? These things are there as much 
for the safety or a place just to pull over as it is for the 
scenery. How was hurting driver safety in the Federal interest, 
and how is it a critical function, especially if you are trying 
to assert a low-key approach? To me, a truck pulling somebody 
over with flashing lights isn't very low-key; it can be quite 
startling.
    Mr. Jarvis. I have instructed our law enforcement rangers 
throughout the system to take a low-key approach to this. And I 
know in a number of cases they actually have, due to safety, 
removed any barriers or cones from these pull-outs and parking 
lots, but for safety purposes.
    They are closed because the National Park Service has a 
lapse in appropriations, and we can't do any maintenance, we 
can't pick up trash, we can't protect the resources. So----
    Mr. LaMalfa. You are not protecting anybody when you have a 
pull-out area that would actually be a safety factor for 
somebody maybe having a little car problem, maybe they just 
want to pull over and use their phone or do something. Because, 
you know, if you have been down 299, there are long stretches 
where you can't pull over on a narrow, two-lane highway going 
from the valley to the coast.
    And so, yeah, if they happen to take a picture of 
something, yet they run into cones and you got people pulling 
up behind them with trucks threatening them, that really seems 
to be over the top. I would think there should be maybe just a 
little bit of embarrassment after a point with some of the 
heavy-handed measures that have been coming out of this 
department.
    Anything?
    Mr. Jarvis. Again, I tell you that I have told my officers 
to take a low-key, soft approach to enforcement, recognizing 
that the American public are--this is a painful impact----
    Mr. LaMalfa. Okay.
    Mr. Jarvis. --on them----
    Mr. LaMalfa. All right.
    Mr. Jarvis. --as well as it is to us.
    Mr. LaMalfa. All right. Now, just the other day----
    Mr. Jarvis. But I cannot direct----
    Mr. LaMalfa. --there was a demonstration held by our 
veterans out at the memorials here in town. And so, the day 
after, immediately after, bright and early, the Monday morning, 
which was a national holiday, there was staff out there re-
erecting those barriers, with wire, with tape, the whole works.
    Were these furloughed folks? Were they getting overtime 
since it was a national holiday?
    Mr. Jarvis. Everybody that is working at this time is not 
being paid. So there is no overtime----
    Mr. LaMalfa. Were they being paid overtime because it was a 
national holiday?
    Mr. Jarvis. They are not getting paid overtime. They are 
not getting paid at all.
    Mr. LaMalfa. Will they be accruing overtime when this is 
all settled?
    Mr. Jarvis. They will not be accruing overtime.
    Mr. LaMalfa. Pardon?
    Mr. Jarvis. They will not be accruing overtime.
    Mr. LaMalfa. On a national holiday.
    Mr. Hastings. The time of the gentleman has expired.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    Chairman Issa. Mr. Chairman, I ask unanimous consent to be 
allowed to make a procedural matter.
    Mr. Hastings. The gentleman is recognized.
    Chairman Issa. Director Jarvis, before you you have a 
subpoena related to your noncompliance with the earlier 
promise, in which you blamed the Department of Interior for 
your noncompliance with what you said you would do and they 
said they would do in a letter.
    I would ask that you look at the board, recognize that that 
is the ranking member's statement, refresh your memory, and 
then please acknowledge receipt of the subpoena.
    Mr. Jarvis. I acknowledge the receipt.
    Chairman Issa. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Hastings. The chair recognizes the gentleman from 
California, Mr. Lowenthal.
    Mr. Lowenthal. Thank you, Mr. Chairman.
    You know, all of us are here today because we truly care 
about our national parks and our public lands. And I hope that 
all of us here really are here also because we want to ensure 
that these treasures are fully supported and receive the 
budgets and the attention that they deserve.
    You know, national parks have provided the country with an 
abundance of benefits, from spiritual retreat to becoming vital 
economic engines of rural America. For example, I am going to 
give two small quotes that exemplifies this. One that says 
that, ``Everybody needs beauty as well as bread, places to play 
in and pray in, where nature may heal and give strength to body 
and soul alike.'' That was John Muir in 1912. And then more 
recently from the Governor of Utah, Governor Gary Herbert: 
``Utah's national parks are a backbone of many rural economies, 
and hardworking Utahans are paying a heavy price for this 
shutdown.''
    In order to put these numbers--or, to put numbers on these 
sustainable economic benefits, let's talk about one park that 
is in my district--not in any district, in my State, and that 
is in Yosemite.
    In 2011, there were over 3 million, actually almost 4 
million recreational visits to Yosemite. And those visitors 
spent a cumulative $379 million--money that was injected into 
the local economy and supported local jobs. We know that 
overall in 2011 over $30 billion was economic activity.
    And so I am really glad to hear that national parks are 
being recognized and applauded by many Members of Congress for 
the truly renewable and sustainable benefits that they provide 
Americans.
    So when I saw the heading today about, ``As Difficult As 
Possible,'' I imagined we would be talking about how do we look 
to better support the national parks by stopping their budget 
slide and working on essential maintenance backlogs. For me and 
many of my constituents, ``As Difficult As Possible'' really 
describes Congress' treatment of national parks and public 
lands over the past 3 years.
    Since the 112th Congress, National Park Service has been--
their budget has been cut by 13 percent. At the same time, the 
NPS has not been able to handle almost $11.5 billion in park 
maintenance backlog. And because of decreasing budgets, they 
have been forced to cut seasonal employees, we have heard about 
furloughing today, educational programs have been canceled, 
they have limited environmental monitoring.
    You know, I am just going to read, and then ask a question, 
from a letter from over 300 businesses affected by these 
irresponsible cuts over the last few years to the National Park 
Service.
    ``Dear Mr. President and Members of Congress, we own, 
operate, and support the restaurants, shops, equipment rentals, 
motels, gas stations, and other small businesses that provide 
services to national parks visitors. Our business and 
livelihood and that of our employer and their families depends 
on them keeping on the national parks open and in good 
condition. Watching the political jockeying in Washington from 
afar, frankly, we are worried about the impact to our business. 
Simply put, even more cuts to national park budgets would be 
pennywise and pound-foolish. Our families and our communities 
and our national economy will suffer without much real fiscal 
benefit to the Federal budget.''
    Mr. Chairman, I ask for unanimous consent to place this 
letter into the record.
    Mr. Hastings. Without objection, it will be part of the 
record.
    Mr. Lowenthal. Okay.
    So if we want to find out how we can productively spend our 
time in investigating, the question that I have to you, first, 
to Director Jarvis: Do you think I am right, Director Jarvis, 
that in order to ensure public safety at our national parks and 
manage the sites during the shutdown of the Federal Government, 
that you have had to close sites--I think you have already 
touched on this--you have had to close sites due to limited 
staff? Is it not true that these closures are not site-specific 
or aimed at any individual group?
    Mr. Jarvis. They were not aimed at any individual or group. 
They are not political. They are a part of our responsibility 
to protect these places for future generations. They are a 
consequence of the lapse of appropriations.
    Mr. Lowenthal. Thank you.
    And the next question is, we know the park services opposes 
the piecemeal approach to opening national parks. Do you think 
this piecemeal approach is appropriate for any other of our 
agencies? Should the Department of Defense only open Army bases 
but not Navy bases, for instance? Should FDA only inspect dairy 
products but not meat products?
    Mr. Jarvis. I believe that the entire Federal Government 
should be funded. I believe that this piecemeal approach that 
we have taken within the National Park System to open the parks 
where the States have been able to enter into agreements leaves 
a lot of parks closed.
    Mr. Lowenthal. And, finally, have the cuts made under 
sequestration limited budget flexibility within the Park 
Service?
    Mr. Jarvis. Absolutely. They were across the board and at 
every budgetary item, so they impacted every park in the 
system.
    Mr. Lowenthal. Thank you.
    And I yield back.
    Mr. Hastings. The time of the gentleman has expired.
    The chair recognizes the gentleman from Florida, Mr. 
DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Director Jarvis, Abraham Lincoln's home in Springfield, 
that is under your jurisdiction, National Park Service?
    That is a ``yes''? Verbalize.
    Mr. Jarvis. I believe so, yes.
    Mr. DeSantis. And do you know, is it just the home or--my 
understanding is that the area around it would also be under 
the jurisdiction. Do you know if that is the case?
    Mr. Jarvis. I honestly do not know specifically in that 
regard.
    Mr. DeSantis. Okay. Because I saw some news reports where 
there was a political congressional candidate that was holding 
a news conference basically right in front of the home. And if, 
in fact, that was an area that was under your jurisdiction that 
was closed, would that have been an appropriate thing to have 
done, to kind of stage a media event there for partisan, 
political purposes?
    Mr. Jarvis. I don't know anything about that incident or 
case, and I would really--I would have to look into it.
    Mr. DeSantis. Well, just as a general matter, if a park was 
closed, would it be--and so an American citizen may not get in, 
would there be some type of an exception where a political 
candidate would be able to stage a media event if it was closed 
to rest of the public?
    Mr. Jarvis. The park is closed for all events.
    Mr. DeSantis. Okay.
    You had mentioned earlier, and I have been running around, 
so I don't know if you elaborated, but the Antideficiency Act. 
Can you just articulate for me why you think that act forced 
you to erect the barricades at the World War II Memorial?
    Mr. Jarvis. The Antideficiency Act, as applied to the 
National Park Service, required us to reduce expenditures--of 
course, we don't have any funding--limited only to life and 
property, life and property.
    Mr. DeSantis. For people who can do essentially voluntary 
service. In other words, they are showing up to serve; they are 
not getting paid right now because there is no appropriation. 
So those are the only people you can put to work, who have that 
nexus, correct?
    Mr. Jarvis. That is right. And so we literally went through 
employee by employee and determined whether or not they were 
excepted from the furlough. Anybody that was excepted had to 
meet this standard of life and property. And so that is about 
3,000 out of the entire 24,000.
    Mr. DeSantis. And so that certainly is one part of the 
Antideficiency Act. It is also the case that you are not able 
to obligate the government for expenses that have not been 
appropriated. Is that correct?
    Mr. Jarvis. That is correct.
    Mr. DeSantis. So my question is, you know, I saw the photos 
of people operating this big crane to bring all these 
barricades out to the World War II Memorial. And a lot of my 
constituents were like, well, that is going to cost more time 
and effort to do that than if they had just left it as an open-
air memorial.
    So how were you able to obligate the Park Service to incur 
the expense of having a crane and having other people out there 
erecting it if, in fact, you were operating according to the 
Antideficiency Act?
    Mr. Jarvis. The memorials are property. Now, they stand for 
big ideas, but they are physical properties that I have the 
responsibility to maintain and protect. We get hundreds of 
thousands of visitors on the National Mall every day, every 
week, and they have an impact.
    There is this overlying assumption that I continually hear 
in this committee that these places take care of themselves. As 
a 40-year veteran of the National Park Service, these places 
require maintenance and operation----
    Mr. DeSantis. But the question is, where did you get the 
authority--you are saying it prohibits you from doing things. 
But it seemed to me that you had to dedicate more resources by 
getting--so, for example, when you had the forklift bringing 
out, did you have to rent that? Or how were you able to obtain 
that?
    Mr. DeSantis. We have equipment. I have no idea whether 
that forklift was rented or one of our own. But in order to 
execute the closure, we had to do work.
    Mr. DeSantis. But wouldn't that matter, though? In other 
words, you are saying that the Antideficiency Act means you 
can't spend money that hasn't been obligated. So if you had to 
go out and rent equipment, would that be consistent with that 
or not? I am just trying to figure out how you are interpreting 
this.
    Mr. Jarvis. At a generic level, if I needed a piece of 
equipment in order to ensure something is protected, a piece of 
property or life, I would have the authority to do that.
    Mr. DeSantis. So you are saying it gives you flexibility to 
be able to----
    Mr. Jarvis. For life and property.
    Mr. DeSantis. --do essential functions. Okay. Very good. 
Well, thank you for that.
    I have no more questions. I yield back the balance of my 
time.
    Mr. Hastings. Would the gentleman yield to me?
    Mr. DeSantis. I will.
    Mr. Hastings. I just want to make an observation, having 
listened to the give-and-take, frankly, on both sides of the 
aisle. But I particularly want to bring up something that Mr. 
Wittman had an exchange with you, Director Jarvis. And his line 
of questioning was along the line, were you planning, and why 
was this different, something to that effect. And your 
observation was--and I wrote it down right after you said 
that--is you didn't think the shutdown would last this long.
    Now, it just struck me. If that was your response, then 
does not logic would suggest that if you are going to err, you 
are not going to err on the most extreme position? Because the 
most extreme position was to shut things down. If you didn't 
think it was going to last this long, it would seem to me, 
okay, let's phase in to the point where you have to follow the 
law.
    But it seemed to me--and this is certainly from my 
perspective--it seems to me that you were--you, your actions, 
were causing the most pain. If, in fact, you didn't think it 
was going to last that long, it would just seem to me that it 
should have gone the other way.
    So I just wanted to make that point in connection with what 
you and Mr. Wittman had in that exchange.
    The chair recognizes the gentleman from Massachusetts, Mr. 
Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    Well, first of all, I want to thank all the witnesses for 
being here this morning and staying as long as you have and 
being so patient.
    And, Director Jarvis, I think your patience probably takes 
the prize here today on that. I thank you for your service, and 
Mr. Galvin before you. The agency has always done wonderful 
things with the Park Service up in my area of Massachusetts on 
that.
    It must be fairly obvious now, I would think, to most 
people watching that this hearing is a distraction. And, 
unfortunately, Director Jarvis, you are the target of it, to 
distract from the fact that there are people here that have 
responsibility. They might like to share it and say that all of 
Congress as a monolithic and everybody is to blame. But there 
aren't two wrongs and there aren't two rights; there is one 
wrong and one right here. And I think they are hoping that 
people haven't taken their Civics 101 class, that they are not 
going to be able to make that distinction.
    Earlier, you were questioned, Director Jarvis, pretty 
predominantly by somebody who said it is the people's land--
tell me whether you think it is the people's land or your land, 
and you obviously rightly said it was the people's land and you 
are entrusted with its care.
    Well, this is the people's government, and the United 
States Congress is entrusted with having it operate for the 
benefit of the people. And with our system in the House of 
Representatives, when there is a majority, the majority is 
entrusted with making governance work and with making sure that 
it goes forward. And that has been dramatically not the case 
here.
    But there has been plenty of drama--drama down at the 
barricades to distract from the fact that the majority hasn't 
let this government work, the barricades, claiming that World 
War II veterans couldn't get in to see the memorials, when 
that, in fact, is not the case and they are going in and seeing 
it.
    The real challenge here for the majority is to make this 
system work. And they can do something of significance right 
now if they want to. If they want to open up the government, 
not just the Park Service but all of the services that 
government provides, they can just have a simple vote to have a 
continuing resolution to allow spending at the low level the 
majority wanted for a period of time until all the budget 
issues between the House and the Senate are resolved. That will 
bring this matter to a close.
    In fact, there is a procedural aspect to it. There is what 
we call a discharge petition on the floor right now that all 
the Democrats have signed, so we only need, what, 17 to 24 
Republicans to go down and sign it. That would be a significant 
act they could take, instead of going down and having all the 
drama down at one of the sites or having this hearing on that 
basis.
    If they did that, then certainly veterans that are 
homeless, veterans that are students, veterans that are seeking 
jobs, veterans that have disability claims, all of them would 
get the services that they need and be assured that that was 
going to happen. But we don't see we see that. We see a lot of 
hyperventilation about whether or not the park services were 
handled in a shutdown exactly the way that others might have 
wanted to be done.
    I don't know, Director Jarvis, maybe, you know, you took 
some actions that were correct, some not. But I don't question 
your motives or the fact you tried to do the right thing by the 
law. And in hindsight maybe you would and maybe you wouldn't do 
something differently on that.
    But the history lesson here is to tell people that there is 
a right or wrong. This is a situation where Congress needs a 
blueprint of how it is going to spend its money; they need a 
budget. The Senate passed a budget, the House passed a budget, 
there were differences. People that took Civics 101 know that 
generally there is a conference committee that irons out those 
differences before the next spending year begins. Despite 
repeated requests for the majority in the House to go to those 
conferences and work out matters, they wouldn't do it. So when 
the fiscal year ended before we started the next one, they 
didn't have a budget.
    Now, the normal course of business is for people to take 
and agree to some amount of money or some level of spending for 
a period of time until the Senate and the House can work out 
those differences. That is the dispute here, what level of 
money will be spent over what period of time while those 
differences are worked out.
    All of the Democrats said they would take the low number 
that the majority in the House, the Republicans, put forward. 
The Senate said it would take that number. And the answer they 
got back was, no, they wouldn't let it happen now unless 
certain laws that they didn't like were nullified, laws that 
have been passed, laws which elections had been run where it 
was the focus of it, laws that the constitutionality have been 
found by the Supreme Court.
    And that is the failure here, the failure of the majority 
to govern, to keep this government open and to make sure it 
works for the people.
    And it is not Congress. There are a lot of people here in 
Congress working real hard who understand that we have some 
differences on what the costs are and how much to spend, but 
they understand the importance of the functions that government 
provides. So hopefully we are going to get back to that.
    Hopefully today there will be a vote and we will reopen it, 
we will get back to negotiations, and we can talk about whether 
or not Salem Visitor Center will be open, where there are 
250,000 people coming this month alone to visit it and $25 
million in revenues. And the mayor there, Mayor Bryan, would 
have me make sure that I said that is important.
    Or whether a young woman from my district whose daughter 
had a brain cancer situation where it was 4 hours once a week--
once a month, rather, she has treatments on that, whether or 
not there will be money in the budget to make sure those 
treatments continue.
    Whether or not the universities and industries will have 
the financing they need to conduct the cutting-edge research to 
make sure that we have the energy technologies, the advanced 
manufacturing, the biotechnology, all of those things that are 
needed to keep us on the edge as world leaders and create jobs.
    Whether or not the trillions of dollars' worth of 
transportation infrastructure, bridges and roads, that need to 
be addressed will be done.
    You know, all of these things are what we ought to be 
doing. That is what leadership is. That is what being in the 
majority means. And from 2007 to 2010, when there was a 
Democratic majority, it was the most productive Congress since 
1964. Being in the majority matters. We ought to see some----
    Chairman Issa. Yeah, that is where you ran the table on the 
one-sided basis and passed Obamacare.
    Mr. Hastings. The time of the gentleman has expired.
    The chair recognizes the gentleman from Missouri, Mr. 
Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    My question is for the director. I come from southeast 
Missouri. We have the Ozark National Scenic Riverways--very 
important, in the heart of my district, very important to 
myself. Unfortunately, on October 1st the rivers were closed, 
and people were able to float as long as they never touched the 
gravel bars. It was illegal to touch the gravel bars because 
that was Federal land, and that was, I guess, the decision that 
you made.
    I am glad that the administration has decided to open up 
some of the national parks by local State governments funding 
it. Unfortunately, they are funding it. But where I have a 
problem with is, how did you pick and choose which ones were 
acceptable?
    I have a letter right here from the Missouri Department of 
Conservation where we asked 9 days ago to allow them to open 
the Ozark National Scenic Riverways, the Current, the Jacks 
Fork River. Yet we have not received a response from your 
department, and I want to know why we have not received a 
response.
    Mr. Jarvis. Well, there are a couple reasons.
    One is, when I normally have a large staff, there are nine 
employees in my office. And there is a stack of unresponded 
correspondence.
    Now, we are working with the Governor of Missouri. And I 
understand there is interest in using one of our agreements to 
open Ozark as well as the Arch, and we are wide open to doing 
that.
    What that letter, if I remember--which I believe I have 
seen, but I am not positive, but I think I have seen--did not 
suggest paying the National Park Service to open the Ozark. 
What it suggested is that the Department would open it for us.
    And the standard we have set throughout the National Park 
System is that these are national assets to be managed by the 
National Park Service. And so we have rejected offers from a 
variety of institutions and organizations to open portions of 
parks with their own people. And we do not feel that is 
appropriate. These are--Congress has charged the National Park 
Service with managing these assets, these places. And we 
believe that we have set up an agreement that can work with the 
State of Missouri.
    Mr. Smith. You know, Director, that concerns me, those 
statements, because in 1964 these were State parks, and it 
became the first Ozark National Scenic Riverway, the first 
national scenic riverway. The reason why it was sold in 1964 to 
make this a national park is so that this land would be 
protected and preserved and open to the public.
    And that is exactly the opposite of what you all have done 
in the last 16 days. You have basically barricaded the parks. 
You have barricaded the businesses, the concessionaires that 
rely on canoeing and floating along that river. Because of your 
actions, they have closed down.
    And, you know, speaking of something else, back in August 
we had an issue on this same river where the National Park 
Service had a regulation, a proposal that came out of there, 
that there had to be a special-use permit for our local 
churches to be baptized in the Current and Jacks Fork River. 
They did not have to have special-use permits to get drunk on 
the river or do any other activity, but to get baptized they 
had to have a special-use permit.
    I mean, those kind of regulations that you all are forcing 
on the people in my district are unacceptable. We do not 
appreciate it. And I am glad that the local park superintendant 
did rescind that rule, but the fact that rule was ever in place 
is unacceptable.
    And I urge every one of my colleagues to monitor and watch 
these crazy regulations that come from every department, 
whether it is the National Park Service or whether it is the 
IRS. They are all unacceptable.
    Thank you, Mr. Chairman.
    Chairman Issa. Could I--would the gentleman yield?
    Mr. Smith. I do.
    Chairman Issa. [Presiding.] I just want to understand 
something, Director. In preparation for this shutdown, you had 
a full staff; is that correct?
    Mr. Jarvis. That is correct.
    Chairman Issa. And in preparation for this shutdown, you 
could have, in fact, worked with all of these stakeholders, 
including sent them the guidelines so that, if the gentleman 
from Missouri is correct and you are correct, they would have 
known what the rules are.
    If you didn't do that beforehand, have you done it since 
the shutdown? Have you told various States what they would have 
to do in order to pass your-self determined litmus test? 
Because there is no statute that says we have to rehire your 
people. There is simply a decision you have made.
    Have you communicated that to all the States so that they 
would know when they ask, as Mr. Smith did?
    Mr. Jarvis. Yes. We have not called every Governor, but we 
have sent out a press release to allow the public to know and 
the Governors to know. I know the Secretary----
    Chairman Issa. Okay. So you have communicated with the 
States in which this--sovereign States in which the national 
parks have located through a press release after the fact. I am 
deeply disappointed.
    The gentlelady from New York is recognized.
    Mrs. Maloney. I would venture to say that our parks 
departments should be open, serving the public, not preparing 
memos about a shutdown. A shutdown is a self-imposed injury, a 
self-manufactured crisis that we should not have to suffer 
through. We should put a clean budget on the floor and open up 
the government instead of hearing, as we have all day, stories 
about the suffering of individuals and communities and 
businesses during the 16-day shutdown of the Federal 
Government.
    Again, this is a self-imposed injury. We can correct it 
immediately by going down to the floor in 10 minutes, putting a 
clean CR on the floor, and voting for it.
    Yet I am really shocked to hear so many of my colleagues 
testify today how disturbed and shocked they are at the 
consequences of a government shutdown, of the problems that 
closing our national parks are causing across this country. 
They need only to look at the 1995 closing of the government to 
see the reports on what happened. And, again, that was a 
Republican-led closing of the government.
    Back then, the Interior Department estimated that for each 
day that our parks were closed, localities lost roughly $14 
million in tourism business. I know from my own district in New 
York City that the closing of one of our most important 
monuments, the symbol of democracy and freedom, Liberty Park, 
the Statue of Liberty, not only is a huge blow to our economy 
of the city but to the morale of our city, so much of a blow 
that our Governor, Governor Cuomo, has taken the unprecedented 
step of using State dollars to open up our national monument so 
that business can continue as usual.
    Now, the economic numbers coming from the National Park 
Service for 2011 shows that this is a very wise decision, 
because roughly 4 million people a year visit Liberty Park and 
our Statue of Liberty, generating well over $170 million in 
economic activity. So not only is it disruptive to our veterans 
and to our citizens, it is clear that our parks are an 
important economic resource for local communities. And we are 
now still in a very fragile economy.
    So I would venture to say that the direction of this 
conversation today should have been on getting a clean vote on 
a clean budget so that we can open up our parks, open up our 
agencies, and so that businesses and individuals will not 
continue to suffer.
    Now, I am really concerned, Mr. Chairman, if this Congress 
does not act later today to raise the debt ceiling, the 
consequences and long-term damage to the economy and prestige 
of our country would be dire. Recently, the Joint Economic 
Committee released a report entitled ``Economic Cost of Debt 
Ceiling Brinkmanship.'' And in it they compared what happened 
in 2011, the consequences of this brinkmanship. The stock 
market fell, all the markets fell, consumer confidence dropped, 
the United States credit rating was downgraded.
    And we know from press reports today that Fitch is 
considering downgrading our credit rating today on the basis 
that we cannot govern, that we cannot even open up our 
government.
    And at our hearings in this Joint Economic Committee, 
Chairman Bernanke and other economists testified that the 
failure to raise the debt limit would have very serious 
consequences for the financial markets and for the overall 
economy for a long time to come. Moody's testified that for 
every 3 weeks, the gross domestic product of our economy, our 
overall economy, would be reduced by 1.4 percentage points.
    And we are--pick up the papers, and major allies of ours 
are calling that the dollar shall no longer be used as reserve 
currency. That would be a major blow to the strength and 
economic prosperity of our country.
    So the government shutdown and the threat to the U.S. 
economy has happened because some have decided that that is 
what they want to do, and they are holding the entire economy 
and the entire government hostage.
    So, back to the topic----
    Chairman Issa. The gentlelady's time has expired. I am 
always willing to give you a pending question, but there wasn't 
a pending question.
    We now go to the gentlelady----
    Mrs. Maloney. I have one.
    Chairman Issa. --from California, Ms. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    And, Director Jarvis, please, to yourself, thank you for 
the work you do on behalf of the American citizens. And I do 
associate myself with the remarks of Members of Congress on 
this side of the aisle, Mr. Huffman and especially Mr. 
Cartwright.
    The National Park Service is responsible for the protection 
of water supply. That is one of my areas because I am on for 15 
years the Subcommittee on Water and Power of Natural Resources. 
And that is really critical, key for me, the feeding of the 
Federal dams on the Colorado River and other areas, other 
aspects of it, especially Glen Canyon and Hoover. And you have 
previously found and have been addressing the expansion of 
invasive species that directly impact the hydropower resource 
and the water diversions.
    With the shutdown, we are losing the ability to monitor and 
protect our Federal energy and water resources, which is, of 
course, costing us nationwide millions of dollars to clean up 
the intake valves and some of the pumping areas. Is this 
covered under the property emergency response area?
    Mr. Jarvis. Thank you for bringing this up.
    One of our concerns and reasons that we gated and closed 
Glen Canyon and Lake Mead National Recreation Areas is because 
we have an obligation for boat inspections, recreational boats 
that, particularly in Lake Mead, can be contaminated with 
quagga mussel. And we have wash stations and inspection 
stations both for the private boater as well as the 
concessioner. All of those employees are furloughed, and all of 
that is shut down.
    Mrs. Napolitano. Well, would you also include that several 
other water entities have been found to be infected by the 
quagga mussel?
    Mr. Jarvis. Yes, ma'am. There are concerns about the quagga 
spreading to other water bodies throughout the West.
    Mrs. Napolitano. And they are very hard to control?
    Mr. Jarvis. Once they get in, it is almost impossible to 
get them out.
    Mrs. Napolitano. Thank you. But that does in any way or 
form--can it be treated as property that has to be protected?
    Mr. Jarvis. Well, the way we are treating it under the 
closure act is to prevent boats from leaving or entering Lake 
Mead or Glen Canyon during the shutdown.
    Mrs. Napolitano. Thank you, sir.
    One of the other areas that hasn't been covered, as far as 
I can tell, since I have been in the hearing today is, you 
already have an $11 billion backlog in maintenance and repair. 
What will be the cost of trying to catch up, based on the 
sequester?
    Mr. Jarvis. We need about $750 million a year in our 
maintenance and operation budget in order to even break even, 
to maintain what we have. We would need more than that in order 
to catch up.
    Mrs. Napolitano. Does that include vandalism or normal 
cleanup or both?
    Mr. Jarvis. It is all of the above. It is impact from just 
deterioration of old facilities and roads as well as some 
vandalism.
    Mrs. Napolitano. Thank you.
    And I heard you mention, or some of the testimony, that you 
are not able to receive private funding to be able to keep--you 
have to have special MOAs, right?
    Mr. Jarvis. We can receive private funding, but through 
agreements.
    Mrs. Napolitano. But they have to be pre-established?
    Mr. Jarvis. No. There is private funding flowing through 
some of the States to the National Park Service to reopen some 
of the----
    Mrs. Napolitano. But not all of them are party to this, are 
they?
    Mr. Jarvis. All of?
    Mrs. Napolitano. The States.
    Mr. Jarvis. So far, we have only got about six States that 
have signed agreements.
    Mrs. Napolitano. Correct. So that means, are you preparing, 
then, to be able to bring the other States on line should 
something--and, as you have heard, there may be other 
sequesters in the future--to be able to be prepared to protect 
those lands?
    Mr. Jarvis. We have now a template that works quite 
efficiently. And we are in negotiations with--we signed 
Tennessee today. We have Missouri, Virginia, Maryland. A number 
of the other States that are all in discussions with us about 
entering into these agreements.
    Mrs. Napolitano. Thank you.
    Mr. Chair, I yield to Mr. DeFazio.
    Mr. DeFazio. I thank the gentlelady for yielding.
    Just on a point that was made earlier about the Governor of 
California hasn't chosen to use scant State funds to reopen 
Yosemite made by some California Members. Remember, there is no 
guarantee that any of this money will be paid back. None. Zero.
    In fact, I would say, under the Republican rules, paying 
back an individual State would constitute an earmark, which 
means that you would have to waive the rules of the House to do 
it. Or you would try and pass a bill to extract it out of the 
Park Service budget, which is already inadequate, as we have 
heard earlier.
    So, you know, I can understand why Governors are being 
cautious.
    I thank the gentlelady for yielding.
    Chairman Issa. I thank the gentleman.
    I might note that tradition would say that you are wrong. 
They will, in fact, all be repaid.
    With that, we go to the gentleman from Florida.
    Mr. DeFazio. Could the--just for--would you yield for a 
second?
    Chairman Issa. Of course.
    Mr. DeFazio. But that was before you adopted this 
extraordinary earmark rule, which is very, very problematic.
    Thank you, Mr. Chairman.
    Mr. Garcia. Thank you, Mr. Chairman.
    Mr. Jarvis, thank you for your service. And I know how hard 
it is.
    I want to bring up a very specific point that I know your 
folks are working on in particular. I want to commend Dan 
Kimball, who is the director of Everglades National Park. He 
has been working with our local folks to try to reopen the 
park. We have about 250 guides. They require very little from 
the park itself. They pay a license every year to work out in 
the park. And it not only has an impact on them and their 
families but has an impact on the hotels and the restaurants in 
the area.
    And so I would ask, with your very limited staff--and I 
know that this is not your fault, but the inability of the 
other side to provide any real leadership here. But what I--I 
commend you for your leadership, and I commend Dan Kimball and 
his service. But I would ask you, as you look at opening up, 
this is one of those areas where I think it will not cost you 
as much as opening it up and getting it done. These folks 
require very little of you. And they do a great service to 
Monroe County and the Florida Keys.
    I want to ask you, Mr. Jarvis, what do you think the cost 
has been thus far to the Park Service? And I know you have 
answered this question in a few different ways, but if you will 
indulge me and just tell us what you think the cost has been 
thus far.
    Mr. Jarvis. I really don't have a figure. You mean cost in 
terms of how much we theoretically have expended during the 
closure period?
    Mr. Garcia. How much you have expended, how much you failed 
to collect.
    Mr. Jarvis. Oh, okay. Yeah, we--in terms of failure to 
collect, we are losing about $450,000 per day of income. That 
would be nonappropriated dollars--fees from camping, from 
entrance fees, and the like, franchise fees, all of that. So we 
are losing about $450,000 per day.
    Mr. Garcia. Very good.
    Ms. Simon, I sort of--I know you have given some estimates 
here. I would love to hear you sort of recap it for me. As a 
freshman, it takes a long time for the gavel to get to me. So I 
would like to ask you what this has cost our country and, in 
particular, your industry.
    Ms. Simon. Certainly. Thank you for the question.
    In the first week of the shutdown, our tour operators 
reported $114 million in losses just for the first week. We 
know that, obviously, in the last 16 days, that has drastically 
increased, and we project long-term impacts based on future 
business that has already canceled or postponed. We know that 
that does not include the estimated financial losses from the 
cities and destinations and suppliers that belong to our 
association, as well.
    And then we also believe that the long-term impact will 
have an effect on international visitation to the United 
States. The national parks are a huge draw for international 
markets, and we believe that it is going to be difficult for 
international visitors to kind of regain the confidence of 
coming back to the United States. They don't understand it. 
That is what we are hearing from our tour operators, is they 
are having to try to explain to their international visitors 
why the parks are closed and why they can't see----
    Mr. Garcia. Ms. Simon, if I could just--if you could 
indulge me, could you tell me what exactly you tell your 
international visitors or what you would counsel your 
association members to tell those international visitors that 
don't understand?
    Ms. Simon. That is a very good question. We have not been 
in a position of counseling them to tell them anything. But 
what they have done is to try to find alternative activities, 
which includes some of the very nice State parks that we have 
throughout the country as well.
    Mr. Garcia. Very good.
    Again, thank you all for being here. And to a limited 
degree, some of you have been sort of blamed somehow in your 
vast government conspiracy to shut down parks. I want thank you 
for your service, your service to our country, your service in 
trying to preserve America's great treasures. And, of course, 
with a little bit of luck, by this afternoon we will have 
figured our way through this. But thank you very much.
    I yield back the balance of my time.
    Chairman Issa. The gentleman yields back.
    And I thank the gentlelady from South Dakota for her 
patience and yield 5 minutes.
    Mrs. Noem. No. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here and my colleagues' allowing me to ask a 
few questions here today.
    Director Jarvis, I wanted to ask a clarification on an 
answer you gave to a previous question. When they were 
discussing the monuments on the mall, you talked about 
barricading them off because of protection of property, that 
that was the purpose for barricading them. Is that correct?
    Mr. Jarvis. That is correct.
    Mrs. Noem. I had assumed it was for protection of 
individuals that may go onto that property or for liability 
reasons. But your number-one objective was really to protect 
the property that was there.
    Mr. Jarvis. It is my responsibility to protect the 
monuments and memorials.
    Mrs. Noem. Okay. Well, thank you for that.
    As you know, I am from South Dakota. We have Mount Rushmore 
in our State. Obviously, it is a mountain that has been carved. 
It is viewable by a State highway that goes up the mountain and 
around the mountain. You can also go into the national park and 
view it from there, up close and personal, and enjoy that 
opportunity to do so, which millions of people do.
    Mr. Jarvis, have you visited Mount Rushmore before?
    Mr. Jarvis. Yes, I have.
    Mrs. Noem. It is beautiful, isn't it?
    Mr. Jarvis. It is.
    Mrs. Noem. It is.
    Mr. Jarvis. Extraordinary.
    Mrs. Noem. We had one family that drove all the way to 
South Dakota, drove a thousand miles, got to South Dakota, and 
found that they could not access Mount Rushmore or even drive 
on the State highway and view it because it had been blocked 
off by park officials. Were you aware of that?
    Mr. Jarvis. I was aware the park was closed. I was unaware 
of the specifics at the local site.
    Mrs. Noem. Do you know who made the decision to block that 
State highway and access to areas where they could view the 
monument, not even necessarily get into the viewing area, the 
actual park, but didn't even allow them to get to a part of the 
mountain where they could view it from afar? Do you know who 
made that decision?
    Mr. Jarvis. Those kind of decisions were made at the local 
level about where to close, which roads to close.
    Mrs. Noem. That family that drove that far found themselves 
not being able to view Mount Rushmore, and then we got hit with 
a blizzard, a blizzard that hit South Dakota. Four to 5 feet of 
snow landed in the Black Hills. They spent the next 3 days in a 
ditch somewhere in their camper, which was a very unfortunate 
trip, not the way that we like to have people visit South 
Dakota. It was a tragic situation that happened.
    And not only that, those cones that were along the road, I 
am not necessarily sure what happened to them during that 
blizzard situation, but the day after, when everybody was 
digging out--we had many, many buildings that had caved in. 
Tens of thousands of livestock had been killed by this. It is 
the worst disaster we have seen in western South Dakota in 
anybody's lifetime. The economic impact from that is going to 
be huge. Trees were down, streams were plugged, towns were 
flooding. And the very next day, the park officials were out 
there putting those cones back along that highway in 4 to 5 
feet of snow.
    And I would like to know if you really think that should 
have been their priority that morning.
    Mr. Jarvis. I was not involved at the local level. I could 
not and I don't set local priorities like that.
    Mrs. Noem. Well, it got the people around that area pretty 
steamed up. Because they were extremely upset that here they 
had lost their businesses, they had lost their livestock, they 
couldn't access their homes, they were trying to dig out and 
protect people, and that the Park Service was mainly concerned 
with going out and placing cones that didn't allow them to even 
view what they see as partly their monument, as well, from 
afar. It was very disturbing to them.
    From that point, do you believe it was appropriate to take 
that type of action at that point in time?
    Mr. Jarvis. I can't comment on local issues like that. I 
have no knowledge of which pull-outs, which roads, or any of 
that. I just don't have that kind of local information.
    Mrs. Noem. I know that very soon after October 1st the 
State made the request to the Park Service to run the monument 
themselves and to incur that cost themselves, and they were 
told that that was not going to be allowed at that point in 
time. Since then, the State of South Dakota has again 
requested, and that agreement has been made. So it is open and 
operating today.
    What is interesting is the way that South Dakota approached 
it, is that our Governor called up businesses and asked them if 
they would sponsor a day at Mount Rushmore. It made me so 
proud. Businesses lined up to fund Mount Rushmore for a day 
because they recognized it was such a treasure and so special 
to our State that they would do that.
    So it is not taking taxpayer dollars, it is separate 
organizations that are funding it for the day, which was a 
wonderful way to get through this type of a situation that has 
been so hard for many.
    I wish we could have done it from the very beginning, 
because many families were turned away at the gate. When they 
pulled over to take pictures, or tried to, it created more of a 
liability issue because they were parked in the middle of the 
highway because they couldn't get in the pull-offs.
    Now, I understand that the pull-offs are gravel, dirt, 
stones. I don't know what property we are trying to protect by 
putting cones blocking people from pulling over. Do you know 
what kind of property we are trying to protect?
    Mr. Jarvis. Again I can't speak to local pull-off 
information. I am sorry. I just don't have that sort of 
knowledge.
    Mrs. Noem. Well, they have since been removed because 
someone decided that it was going to be very important that 
someone not get killed on that mountain and be able to pull 
their vehicle over if they were going to and get off onto those 
pull-offs. So those cones are gone now because of the safety of 
the individuals that are there.
    But I will tell you, I don't believe that people's safety 
has been a priority in this situation. I don't believe it was 
really property that was trying to be protected, because, 
frankly, there was no property that was going to be damaged by 
those pull-offs. I believe it was punitive. I am upset about 
it. I am thankful for the way that South Dakotans approach 
things. They do it the right way.
    And this whole situation has shown me that our park 
officials need to be very, very clear on what their role is and 
what their priorities are. And that should be making sure that 
Americans get the opportunity to view their treasures that are 
in their national parks, not punish individuals because of 
situations that are beyond their control.
    I thank you for your time.
    Chairman Issa. I thank the gentlelady.
    Director Jarvis, you answered that you didn't know, but you 
did negotiate the Utah deal, didn't you? And doesn't it have 
similar provisions for roads and off-ramps, areas similar to 
what the gentlelady is describing?
    Mr. Jarvis. We did negotiate a South Dakota one, as well, 
and so Mount Rushmore is back open. All pull-outs, all roads, 
everything is completely open.
    The original letter that we got from the Governor only 
wanted to open the entrance road and the parking area, not the 
entire park. And so we did--then the very, very tragic 
snowstorm. And then we entered into the agreement with South 
Dakota, and so Mount Rushmore is open, fully operational.
    Chairman Issa. Okay.
    Does the gentlelady from New Mexico have any further--I 
know. Do you have any--we have finished the first round. You 
are done?
    Does the gentleman have any further questions, the 
gentleman from Washington?
    Mr. Hastings. I just wanted to say that I am very glad we 
had this hearing. It was probably predictable that both sides 
would say what they said. I mean, after all, we are in a 
government shutdown, and that is the price of self-government. 
Sometimes you have to make difficult decisions.
    But what we were trying to ascertain here--and, obviously, 
there is going to be some follow-up--is why it appears, why did 
it appear that the actions were punitive. Now, that is the 
optics, whether we like it or not, how--any way you can avoid 
it, that is the optics. And so that has to be avoided.
    Now, I recognize, Director Jarvis, that you don't have a 
say in every one of the 401 national parks. I recognize that. 
And I recognize that the decisions that were made, like the 
exchange that--I forget--you had with one of the Members here 
on our side regarding Mount Vernon, that you weren't involved 
in that decision. I appreciate that.
    But, nevertheless, there is a train and a thread that needs 
to be looked at. Harry Truman probably said it best: ``The buck 
stops here.'' Well, policies come from the top.
    And, again, going back to the exchange that you and Mr. 
Wittman had, if you didn't think this was going to be a long 
shutdown, why were such extreme measures taken the first day? 
If you thought it was going to be a longer shutdown, then the 
deficiency act all the things that you cited would take place 
later on, not from the first day.
    And that is where the optics comes in. That is where the 
optics comes in. And that is why, from me, because I have been 
very public on this, that I have said it seems to me that there 
is a conscious effort, whether it came from you--you said you 
make the decisions. That is fine. If it was higher up and 
implications from higher up, nevertheless the optics are that 
this government now is exercising something it hasn't done 
before to make a political point. I think that is dangerous in 
the long run with our country. I really do.
    And so, with that, I appreciate working with the gentleman 
from California, the chairman of the Oversight Committee, and I 
will yield back to him.
    Chairman Issa. I thank my friend, member of my committee, 
and fellow chairman. So it is the best of all combinations here 
today.
    I am going to be as brief as I can, Director Jarvis. You 
know, the mayor, Ms. Eberly, and a host of other people who 
operate concessions, small towns, and so on, have asked 
specific questions that you haven't answered, and they weren't 
answered here today. So I hope that you will address as quickly 
as possible their answers and their concerns. But let me go 
through a couple of quick questions I need to get for the 
record.
    First of all, to the best of your knowledge, when did you 
begin the process of procuring the barricades that were used on 
day one? More than a day? Of course. More than a week? Of 
course. Was it more than a month?
    Mr. Jarvis. The National Capital Region National Mall 
Memorials retains an inventory of what we call ``bike rack.'' 
We use them all the time----
    Chairman Issa. Okay, so it is your testimony that there 
were no rentals or purchases of cones, barricades, or other 
items in preparation for the closing of the facility.
    Mr. Jarvis. Not to my knowledge.
    Chairman Issa. Okay.
    Mr. Jarvis. But I will check on that and get back to you.
    Chairman Issa. I appreciate that.
    The second one is probably most pertinent to my particular 
committee. Mayor Gray and the District of Columbia have been 
seriously impacted by the closing without any public 
statements. Your signs never said, ``This is closed except for 
First Amendment.'' Your police never said, ``This is closed 
except for First Amendment.''
    As a matter of fact, from a public safety standpoint, even 
the Vietnam Memorial got opened on one side, either by 
individuals or your employees, and the other side was never 
opened, so people had to walk around it on the grass and so on. 
Your police drove on sidewalks with pedestrians walking on them 
because you barricaded the roads. Your mounted police horses do 
what horses do, and you are not cleaning it up. So you are 
creating, your employees, by choosing to have horses on the 
mall, are, in fact, creating a sanitation issue. Your park was 
very aware that garbage cans were continuing to fill because 
people were there, and they did not empty them. The mayor asked 
and has been trying to get specific authority to empty those on 
behalf.
    Why is it that you never considered--and, please, please 
don't tell me you are not familiar with the malls and the 
monuments here in Washington--why is it you never considered a 
deal with the District of Columbia similar to the ones you are 
now doing with the States? Why is it the District of Columbia 
was never given a direct opportunity before or during this 
shutdown to do something similar to Mount Rushmore and the 
other areas?
    Mr. Jarvis. Actually, the District of Columbia has. I spent 
over an hour on the phone with Vincent Gray, the mayor of the 
District----
    Chairman Issa. When?
    Mr. Jarvis. --offering him the opportunity----
    Chairman Issa. When?
    Mr. Jarvis. Yesterday.
    Chairman Issa. Oh, yesterday. Okay. I just want to make 
sure that we are talking 2 weeks into the shutdown.
    Okay. Please.
    Mr. Jarvis. Mayor Gray--the way we have stood this up is 
Governors are contacting us. Just like if Mayor Gray had wanted 
to do this, we would have entered into an agreement with him, 
as well. We just did it for Ford's Theatre yesterday.
    Chairman Issa. Okay. So let me make sure I get your 
testimony straight here. Your obligation, according to what you 
told Congresswoman Noem, your obligation was to protect 
property, correct?
    Mr. Jarvis. And life.
    Chairman Issa. And life. So cars driving on sidewalks with 
pedestrians, well, we will leave that one aside.
    You are supposed to maintain property. You are allowed to 
maintain as many individual employees as are necessary to 
accomplish that. That is the definition of essential personnel, 
isn't it?
    Mr. Jarvis. That is correct.
    Chairman Issa. So you could have maintained 3, 5, 10, 20 
people for the purpose of, if you will, offloading 
responsibility and better maintaining the safety and security 
of these monuments and parks around the country at expense 
other than the Federal Government. In other words, you could 
have had 10 people there who were, in fact, lowering your cost 
and increasing the maintenance and protection in addition to, 
by the way, the commerce that these individuals are interested 
in, you could have done that. And it was your decision to 
essentially furlough people and then say, ``I can't 
negotiate,'' furlough people who didn't negotiate in advance, 
furlough people who didn't plan, and then talk to the mayor and 
tell him about an opportunity 14 days into the shutdown.
    That is a long question. But aren't those discretions that 
you made?
    Mr. Jarvis. The decisions I made in terms of the closure 
are guided by our attorneys. Our attorneys interpret the law. 
And----
    Chairman Issa. Good. And then I hereby ask that you deliver 
to us the legal opinions you had prior to October 1st as to 
each and every one of the decisions made before, and then I 
would like the legal opinions that allowed you to make the 
changes between October 1st and, obviously, the end of the 
shutdown.
    Do I need a subpoena, or will you be able to turn those 
over in a timely fashion?
    Mr. Jarvis. I will have to talk to the attorneys on that.
    Mr. Jarvis. I will have to talk to the attorneys on that. 
They have--they have control over what is released. I think as 
you, as committee chairman, can request it, and I will take it 
to the attorneys, but I tell you that I sought their advice in 
each of these cases.
    Chairman Issa. Did you get it in writing?
    Mr. Jarvis. In some cases, yes; some cases, no.
    Chairman Issa. Okay, then what did you receive orally? 
Because the writing we will get in discovery. What were the 
oral opinions, for example, affecting Ms. Eberly's 
organization? Did you receive an oral opinion relating to her 
before, during, or after October 1st.
    Mr. Jarvis. We discussed the Claude Moore Farm in detail 
with our attorneys. The facts are that we do spend money there, 
and we have spent money there, $1.3 million since 2001 of 
Federal appropriated dollars. We provide trash, and sewer, and 
road maintenance, so our attorneys looked at this information, 
and determined that within the window of what we expected the 
shutdown to be, there would be no violation of the Anti-
Deficiency Act. Therefore, we could allow it to open. That's 
the way we have been----
    Chairman Issa. Okay, so you got an opinion after you shut 
her down without an opinion?
    Mr. Jarvis. All due respect, sir,----
    Chairman Issa. I'm just trying to paraphrase what you told 
me.
    Mr. Jarvis. I want to respond to something. You keep saying 
that it is my responsibility to have planned in extraordinary 
detail for a closure. What I do when we are not closed is I 
open parks and operate parks. That's what my staff is doing; 
not planning for a closure.
    Chairman Issa. I appreciate that, Director, but you know, 
you and I lived through sequestration, and I watched and found 
evidence of a punitive direction toward a small shutdown and 
finding ways to make it hurt the public.
    Ms. Eberly, you had a pressing answer to my question.
    Ms. Eberly. Thank you.
    Mr. Jarvis mentioned several things that the Park Service 
does for us, which are actually incorrect. We don't have a 
sewer line, so you can't possibly maintain it. We have one 
Porta Potty for 40 years for children who visit the farm and 
touch the animals, and then have no place to wash their hands 
before they eat lunch. We volunteered some time ago to take 
over the trash collection at the farm because the Park Service 
doesn't recycle. And what was the other thing you did for us?
    Chairman Issa. They gave you over $1 million in a decade or 
two prior.
    Ms. Eberly. Yes, and we appreciated every penny of it. 
Absolutely. But that actually came because of Congressman 
Moran, not at the real initiative of the National Park Service. 
Oh, and for the last 3 years, we have been plowing the snow off 
the road that we use, and the CIA, and the Federal Highway 
Department because the Park Service doesn't usually get to us 
until about 5 days later. So, but we appreciate everything you 
do.
    Chairman Issa. Thank you.
    Director Jarvis, I know that you can't look at 400 plus 
major facilities and minor facilities yourself, so in order to 
make the record complete both for my fellow chairmen, we are 
going to give you a list of items that we are going to want to 
go through in discovery, and documentation, and after the 
reopening, you need not do this during the remaining hours, I 
hope, and only hours. We are going to want to go through this 
process. But I will, for one, as I turn this over to Mr. Mica, 
I, for one, believe you did have a responsibility just as you 
did in sequestration, and in April of this year, when we found 
you woefully poor in the planning, in your procedures and your 
papers, it should have been a wake-up call that, yes, you 
should have a plan to mitigate at any time any loss, period. 
And to maximize, if you will, the leveraging of your public 
partners in every way possible. And I would hope that if you 
see what you call diminishing funds, that you would look and 
say, how can I, in fact, use Ms. Simon to better market 
products? How can I find more Ms. Eberlys to take over 
properties that in fact don't pencil out, and people like the 
mayor who have a vested interest in helping you.
    I have one very short last question. You said on the record 
that there was an uptick in threats to the mall. Where did you 
receive that uptick intelligence from?
    Mr. Jarvis. Through our law enforcement.
    Chairman Issa. Through your own in-house law enforcement?
    Mr. Jarvis. Well, we work collaboratively in this district 
with all of the law enforcement forces.
    Chairman Issa. But where did you receive it? You made a 
statement that you received an uptick from an intelligence 
standpoint as to threats to the mall. I need to know what 
agencies were included in that, to the best of your knowledge. 
You know you received it, so you know who briefed you.
    Mr. Jarvis. I was briefed by the Department of the 
Interior, our own law enforcement services.
    Chairman Issa. Okay. Do you know what level of 
classification, if any, there was? Was it--was it in your 
office?
    Mr. Jarvis. Yes.
    Chairman Issa. So it was an unclassified briefing?
    Mr. Jarvis. That's correct.
    Chairman Issa. In that case, we will be sending a request 
specifically to have the same unclassified briefing made 
available to both of our committees.
    With that, I recognize Mr. Mica.
    Mr. Mica. Just real quickly. You certainly have seen a wide 
diversity of opinion here today, but I think the whole 
committee and all of the Members of Congress are united in one 
thing, that we believe you had some discretion and we believe 
that you can take down the barriers at the World War II, Martin 
Luther King, and other open-area monuments. Are you prepared to 
do that?
    Mr. Jarvis. No, sir, I'm not. I'm prepared to respect their 
First Amendment rights to access all of these memorials.
    Mr. Mica. But are you taking them down in that regard, or 
are you just----
    Mr. Jarvis. The memorial, the current barricades are 
standing not blocking access that are still up.
    Mr. Mica. And you are not prepared to go back. See, I think 
that's wrong. I think you had the discretion not to put those 
up. You had the discretion to protect the monument, and that 
can be done through law enforcement working with the District, 
and others, or in any jurisdiction.
    I don't know what it takes. It may take a law. We are going 
to be back in this situation probably in 2 or 3 months again. I 
don't like that, but that's the way this democratic republic 
works that we have to debate these things. You do and you 
clearly have stated that you have the discretion to take those 
barriers down, and I'm asking you, Mr. Jarvis, to take those 
barriers down. Veterans have hauled them away. Members of 
Congress have pushed them aside, and citizens have come and 
hauled them away and will continue to do that. So would you 
reconsider and today take those barriers down?
    Mr. Jarvis. We still feel that----
    Mr. Mica. You won't do it?
    Mr. Jarvis. --with a lack of appropriations, the barriers 
are appropriate.
    Mr. Mica. Well, I don't know who your bosses are. If they 
aren't at this dais and have not expressed themselves, it's 
unanimous in a bipartisan manner--do I have to send you a 
letter with instructions from 100 Members of Congress, 200 
Members of Congress, 300 Members of Congress to do that, would 
you do it?
    Mr. Jarvis. I will do it when you pass an appropriations 
bill.
    Mr. Mica. Mr. Chairman, I yield back.
    Mr. Hastings. [Presiding.] The gentleman yields back.
    I want to thank on behalf of both committees all six of you 
for being here and testifying, and Mayor Bryan, especially for 
you coming all the way from Arizona. And you have shown 
remarkably good patience for the 5 hours that you have been 
here. I don't think I have to go any farther with that. But I 
do appreciate, and as many times happens when committees have 
meetings, there may be follow-up questions, or answers 
sometimes spark other questions, but this was designed, this 
committee meeting was designed to, I guess, find out why the 
optics of this close down was such as it is. I think that in 
itself, is very, very serious. So if there's no further 
business to come before both committees, the committee stands 
adjourned.
    [Whereupon, at 2:40 p.m., the committees were adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHIC(S) NOT AVAIABLE IN TIFF FORMAT]


                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
